<html>
<title> - OVERSIGHT HEARING ON CHILD PROTECTION AND THE JUSTICE SYSTEM ON THE SPIRIT LAKE INDIAN RESERVATION</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]





  CHILD PROTECTION AND THE JUSTICE SYSTEM ON THE SPIRIT LAKE INDIAN 
                              RESERVATION

=======================================================================

                           OVERSIGHT HEARING

                               before the

                       SUBCOMMITTEE ON INDIAN AND
                         ALASKA NATIVE AFFAIRS

                                 of the

                     COMMITTEE ON NATURAL RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                         Tuesday, June 24, 2014

                               __________

                           Serial No. 113-77

                               __________

       Printed for the use of the Committee on Natural Resources

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


         Available via the World Wide Web: http://www.fdsys.gov
                                   or
          Committee address: http://naturalresources.house.gov
                                   ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

88-503 PDF                     WASHINGTON : 2015 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
                          
                          
                          
                          
                          
                          
          
      

                     COMMITTEE ON NATURAL RESOURCES

                       DOC HASTINGS, WA, Chairman
            PETER A. DeFAZIO, OR, Ranking Democratic Member

Don Young, AK                        Eni F. H. Faleomavaega, AS
Louie Gohmert, TX                    Frank Pallone, Jr., NJ
Rob Bishop, UT                       Grace F. Napolitano, CA
Doug Lamborn, CO                     Rush Holt, NJ
Robert J. Wittman, VA                Raul M. Grijalva, AZ
Paul C. Broun, GA                    Madeleine Z. Bordallo, GU
John Fleming, LA                     Jim Costa, CA
Tom McClintock, CA                   Gregorio Kilili Camacho Sablan, 
Glenn Thompson, PA                       CNMI
Cynthia M. Lummis, WY                Niki Tsongas, MA
Dan Benishek, MI                     Pedro R. Pierluisi, PR
Jeff Duncan, SC                      Colleen W. Hanabusa, HI
Scott R. Tipton, CO                  Tony Cardenas, CA
Paul A. Gosar, AZ                    Jared Huffman, CA
Raul R. Labrador, ID                 Raul Ruiz, CA
Steve Southerland, II, FL            Carol Shea-Porter, NH
Bill Flores, TX                      Alan S. Lowenthal, CA
Jon Runyan, NJ                       Joe Garcia, FL
Markwayne Mullin, OK                 Matt Cartwright, PA
Steve Daines, MT                     Katherine M. Clark, MA
Kevin Cramer, ND                     Vacancy
Doug LaMalfa, CA
Jason T. Smith, MO
Vance M. McAllister, LA
Bradley Byrne, AL

                       Todd Young, Chief of Staff
                Lisa Pittman, Chief Legislative Counsel
                 Penny Dodge, Democratic Staff Director
                David Watkins, Democratic Chief Counsel
                                 ------                                

            SUBCOMMITTEE ON INDIAN AND ALASKA NATIVE AFFAIRS

                        DON YOUNG, AK, Chairman
           COLLEEN W. HANABUSA, HI, Ranking Democratic Member

Dan Benishek, MI                     Tony Cardenas, CA
Paul A. Gosar, AZ                    Raul Ruiz, CA
Markwayne Mullin, OK                 Eni F. H. Faleomavaega, AS
Steve Daines, MT                     Raul M. Grijalva, AZ
Kevin Cramer, ND                     Peter A. DeFazio, OR, ex officio
Doug LaMalfa, CA
Doc Hastings, WA, ex officio

                                 ------     
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                CONTENTS

                              ----------                              
                                                                   Page

Hearing held on Tuesday, June 24, 2014...........................     1

Statement of Members:
    Cardenas, Hon. Tony, a Representative in Congress from the 
      State of California........................................     4
    Cramer, Hon. Kevin, a Representative in Congress from the 
      State of North Dakota......................................     2
    Young, Hon. Don, a Representative in Congress from the State 
      of Alaska..................................................     1
        Prepared statement of....................................     2

Statement of Witnesses:
    Black, Michael S., Director, Bureau of Indian Affairs, U.S. 
      Department of the Interior, accompanied by Darren Cruzan, 
      Director, BIA Office of Justice Services...................     6
        Prepared statement of....................................     8
        Questions submitted for the record.......................    13
    Chang, Joo Yeun, Associate Commissioner, Children's Bureau, 
      Administration for Children and Families, U.S. Department 
      of Health and Human Services, Washington, DC...............    19
        Prepared statement of....................................    21
        Questions submitted for the record.......................    23
    Fineday, Anita, JD, MPA, Managing Director, Indian Child 
      Welfare Program, Casey Family Programs, Seattle, Washington    47
        Prepared statement of....................................    49
        Question submitted for the record........................    52
    McDonald, Leander R., Ph.D., Chairman, Spirit Lake Tribe, 
      Fort Totten, North Dakota, accompanied by Melissa Merrick-
      Brady, Interim Director for Spirit Lake Social Services, 
      Fort Totten, North Dakota..................................    37
        Prepared statement of....................................    39
        Questions submitted for the record.......................    41
    McDonald, Molly, Devils Lake, North Dakota...................    43
        Prepared statement of....................................    45

Additional Material Submitted for the Record:
    List of documents submitted for the record retained in the 
      Committee's official files.................................    70
                                     


 
  OVERSIGHT HEARING ON CHILD PROTECTION AND THE JUSTICE SYSTEM ON THE 
                     SPIRIT LAKE INDIAN RESERVATION

                              ----------                              


                         Tuesday, June 24, 2014

                     U.S. House of Representatives

            Subcommittee on Indian and Alaska Native Affairs

                     Committee on Natural Resources

                             Washington, DC

                              ----------                              

    The subcommittee met, pursuant to notice, at 2:50 p.m., in 
room 1334, Longworth House Office Building, Hon. Don Young 
[Chairman of the Subcommittee] presiding.
    Present: Representatives Young, Cramer, LaMalfa; and 
Cardenas.
    Mr. Young. Subcommittee will come to order. Chairman notes 
the presence of a quorum. The Subcommittee on Indian and Alaska 
Native Affairs is meeting today to hear testimony on the child 
protection and justice system on the Spirit Lake Indian 
Reservation.
    Under Committee Rule 4(f), opening statements will be 
limited to the Chairman and Ranking Member of the subcommittee 
so we may hear from the witnesses. However, I ask unanimous 
consent to include any other Member's opening statement in the 
hearing record, if submitted to the clerk by the close of the 
business today.
    [No response.]
    Mr. Young. Hearing no objections, so ordered.

 STATEMENT OF THE HON. DON YOUNG, A REPRESENTATIVE IN CONGRESS 
                    FROM THE STATE OF ALASKA

    Mr. Young. The subcommittee scheduled this hearing at the 
request of our colleague, Mr. Cramer of North Dakota, because 
of the alarming child abuse and neglect problems that have 
plagued the Spirit Lake Sioux Reservation. Because this hearing 
concerns his constituents, I would like to defer the remainder 
of my time, after I read my statement, the opening statement, 
to Mr. Cramer, after I briefly note my grave concern about the 
state of child health, safety, and protection on the 
reservation.
    In my review of records Federal agencies provided to 
committee staff, it does not appear that Federal officials and 
tribal law enforcement have given allocations of abuse and 
neglect of Spirit Lake Indian children the kind of timely and 
serious attention that were clearly warranted. It took two 
Federal whistleblowers, one of whom the Obama administration 
attempted to punish, to flag these crimes for the media before 
the media agencies dedicated the necessary resources and 
personnel to respond.
    I do note there has been a change in the tribe's 
leadership, and that Chairman McDonald is trying to right the 
ship. In his statement, Chairman McDonald states, ``The time 
for placing blame on the tribe has passed. We are not the same 
reservation we were in 2012. We have a plan. Now we need the 
means to make it happen.''
    I commend the Chairman for his forward thinking. The change 
in leadership may not serve as an excuse to ignore the solemn 
obligation of the Federal and tribal governments to serve 
justice to those who harm and pose a threat to the children. 
And this is one thing I am very passionate about emphasizing. 
This is about the children.
    [The prepared statement of Mr. Young follows:]
  Prepared Statement of the Hon. Don Young, Chairman, Subcommittee on 
                    Indian and Alaska Native Affairs
    The subcommittee scheduled this hearing at the request of our 
colleague, Mr. Cramer of North Dakota, because of the alarming child 
abuse and neglect problems that have plagued the Spirit Lake Sioux 
Reservation. Because this hearing concerns his constituents, I'd like 
to defer the remainder of my time for an opening statement to Mr. 
Cramer after I briefly note my grave concern about the state of child 
health, safety, and protection on this Reservation.
    In my review of records Federal agencies provided to committee 
staff, it does not appear that Federal officials and tribal law 
enforcement have given allegations of abuse and neglect of Spirit Lake 
Indian children the kind of timely and serious attention that were 
clearly warranted.
    It took two Federal whistleblowers, one of whom the Obama 
administration attempted to punish, to flag these crimes for the media 
before agencies dedicated the necessary resources and personnel to 
respond.
    I do note there has been a change in the tribe's leadership and 
that Chairman McDonald is trying to right the ship. In his statement, 
Chairman McDonald states, ``The time for placing blame on the tribe has 
passed. We are not the same reservation that we were in 2012. We have a 
plan. Now we need to means to make it happen.''
    I commend the Chairman for his forward-thinking. But I would 
respectfully observe that we cannot forget the recent past. There must 
be justice served on those who harmed or posed a threat to children.
    I now yield to the Gentleman from North Dakota, Mr. Cramer.

                                 ______
                                 

    Mr. Young. And I now yield the remaining of my time to Mr. 
Cramer, and he may consume.

    STATEMENT OF THE HON. KEVIN CRAMER, A REPRESENTATIVE IN 
            CONGRESS FROM THE STATE OF NORTH DAKOTA

    Mr. Cramer. Thank you, Chairman Young, Ranking Member 
Cardenas, and distinguished members of the Indian and Alaska 
Native Affairs Subcommittee. Welcome to this subcommittee 
oversight hearing, ``Child Protection and the Justice System on 
the Spirit Lake Indian Reservation,'' and thank you to all of 
the witnesses that are here today.
    Today is the fulfillment of my promise to have a public 
hearing regarding the Bureau of Indian Affairs responsibility 
over the Spirit Lake tribal social services program. Since the 
BIA also has final accountability over the law enforcement 
system, I believe this is an excellent opportunity to be 
informed of the status of their efforts.
    To provide a brief background, in April 2012 a 
whistleblower by the name of Dr. Michael Tilus, Director of 
Behavioral Health at the Spirit Lake Health Center, reported an 
``epidemic'' of child abuse within the Spirit Lake Indian 
Reservation, at the same time indicating a loss of confidence 
in tribal leadership and their ability to protect vulnerable 
children. In his report he cited numerous cases of negligence 
by Spirit Lake Tribal Social Services. The only formal 
recognition of Dr. Tilus's report was a reprimand by his 
superiors.
    Although this formal report was later rescinded, Dr. Tilus 
was transferred off the Spirit Lake Reservation, and is now 
stationed in Montana. Although in my opinion, his presence here 
today would provide invaluable insights, his supervisors 
declined to honor his invitation.
    Thomas Sullivan, a colleague of Ms. Chang, from the 
Administration for Children and Families, published from June 
2012 until late March 2013 13 mandated reports detailing almost 
100 incidents of abuse and professional misconduct by the BIA 
and Spirit Lake Tribal Social Services. As with Dr. Tilus, Mr. 
Sullivan's presence was also requested here today, but denied.
    Although neither Dr. Tilus or Mr. Sullivan ever received 
recognition by their superiors, they did receive validation on 
October 2012 in the form of the Spirit Lake Nation's voluntary 
retrocession of their 628 authority to administer social 
services programs on the reservation, making the Bureau of 
Indian Affairs not only the primary law enforcement authority 
on the Spirit Lake Reservation, but for Child Social Services 
as well.
    Unfortunately, there continue to be repeated reports of 
abuse and deaths on the reservation. It is my understanding the 
BIA knew since spring of 2012 that Spirit Lake Tribal Social 
Services was failing to safeguard the health and safety of 
Indian children, yet waited until the fall of 2012 before 
officially taking over their program. There are numerous 
reports in that timeframe of dead or injured children as a 
result of abuse. It would be unfortunate if the protection of 
those children was secondary to other motivations.
    I expect the committee to be briefed on BIA's almost 2-year 
process of improving the welfare of my constituents, most 
importantly the children of Spirit Lake. I agree with the 
Chairman--it is about the children.
    We should also be apprised of the BIA's exit strategy in 
regard to social services, and what is the standard they hope 
to achieve on Spirit Lake before the tribe can again take over 
these responsibilities.
    Additionally, what, if anything, is the BIA doing to 
address the repeated allegations of a lack of accountability 
for the child welfare and law enforcement services provided to 
the citizens? Our hearings, like today, are public. All of our 
votes are public. My duty carries with it a requirement to 
respond to media and constituents to take account for my 
decisions. Yet, I continuously hear complaints by media 
attempting to cover Spirit Lake of an utter lack of 
accountability to produce information.
    As early as last year, a local television reporter covering 
Spirit Lake was assaulted with a BIA officer nearby providing 
no support to the victim.
    We are honored to have here today Chairman Russ McDonald of 
the Spirit Lake Nation. During the last year I have appreciated 
working with Chairman McDonald after he took office. I hope 
today's hearing will assist the Chairman and the Spirit Lake 
Nation in addressing the many challenges associated with this 
important issue.
    We also have here today former Judge Molly McDonald. Judge 
McDonald served 2 years on the Spirit Lake tribal court, 
overseeing not only the criminal docket, but social services as 
well. Her prior experience with the judicial system, not only 
tribal but the U.S. Federal court system as well, during her 
tenure as a probation agent, will provide this subcommittee 
with concrete facts and objectives in order to facilitate not 
just protection for the children of Spirit Lake, but justice 
for past victims.
    I am hopeful today's hearing will put a bright-enough 
spotlight on the situation in Spirit Lake to bring about the 
meaningful and urgent actions we owe these children.
    With that, I yield back the remainder of my time. Thank 
you, Mr. Chairman.
    Mr. Young. Mr. Cardenas.

   STATEMENT OF THE HON. TONY CARDENAS, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Cardenas. Thank you, Mr. Chairman, Chairman Young. I 
would also like to start by thanking our witnesses. I want to 
thank you so much for taking time out of your schedule to bring 
forth your knowledge and experience, so that we can better 
understand this issue.
    Today's hearing is about an important topic: child abuse. 
Child abuse is wrong, period. And, as a society, we must ensure 
our young ones are protected at all times.
    In 2012, reports began to surface, alleging that child 
abuse was rampant on the Spirit Lake Reservation in North 
Dakota. These stories were covered by national press outlets 
and led to Federal investigations into the situation on that 
reservation.
    At today's hearing I am looking forward to hearing 
testimony from our Federal agencies dealing with this crisis to 
see what they are doing to remedy the situation and to ensure 
Spirit Lake children are protected.
    As tough as an issue as this is, anyone who would use the 
tragedy of the Spirit Lake situation for political gain, or who 
would use it to make the case that tribes cannot manage their 
own affairs, or should not be respected as sovereigns, is 
seriously misguided. No one cares more for Native American 
children more than their tribes and their Indian families.
    Let us not forget that for over a century the United States 
and the States actively sought to kidnap Indian children in 
order to civilize them. In 1978, Congress repudiated these 
practices by enacting the Indian Child Welfare Act, which 
recognized the fact that Indian communities, while culturally 
distinct from mainstream society, are more capable of providing 
for their young than anyone else.
    The committee is holding this hearing at the request of my 
colleague, Congressman Cramer, and he has said that legislation 
may be needed to deal with this issue. I agree with Congressman 
Cramer. Legislation is certainly needed to deal with various 
issues in Indian Country. But when we discuss legislation that 
would affect tribes, we have to be careful to get our facts 
straight.
    First, tribes are inherently sovereign. This is a fact that 
was recognized by our founding fathers, and that is enshrined 
in the U.S. Constitution. The United States did not grant 
sovereignty to tribes; it recognized it. So, when we craft 
legislation aimed at aiding tribes, we have to do it from that 
standpoint. Any measures which would erode a tribe's 
sovereignty are an anathema to established Federal Indian 
policy.
    Second, social ills run rampant in impoverished 
communities, and are not confined to communities of color or 
Indian reservations. Let us not forget that communities all 
across the United States deal with similar problems. I am 
concerned because some fringe groups are using the situation in 
Spirit Lake to make the case that tribes cannot manage their 
own affairs, and that tribal communities are not fit to raise 
their own children. Capitalizing on this crisis is sickening. 
And, as elected leaders, we have a duty to make policy based on 
sound research and congressional precedent, not on the 
attenuated claims of fringe elements.
    We also must concede that violence against women and 
violence against children is inextricably linked. That is why I 
am puzzled that the same Members of Congress that fought so 
hard against provisions in the Violence Against Women Act that 
would enable tribes to protect their own communities are now 
turning their attention to Indian child welfare.
    Progress is being made on the Spirit Lake Reservation. Back 
in October of 2012, the tribe made the decision to retrocede 
child protection services to the BIA. New tribal leadership 
took the helm last fall, and in February a new social services 
director was appointed. Both are here with us today, and the 
tribe is using the lessons of the past to work with the State 
and Federal partners to chart a positive course forward to 
protect the children of Spirit Lake. DoJ and BIA police have 
stepped up their commitment to arrest and prosecute individuals 
who harm kids at Spirit Lake. The perpetrators involved in the 
2011 and 2013 child deaths are both behind bars.
    Of course, challenges remain. Both the tribe and the BIA 
continue to face barriers to recruit and retain qualified 
staff, due to the reservation's remoteness, poor housing 
options, and bad publicity. Tight Federal budgets and a maze of 
jurisdictions and bureaucracy complicate this process, and many 
community members are skeptical, and continue to fear that kids 
are not as safe as they should be. Federal, State, and tribal 
officials all must take responsibility and work together.
    I appreciate the recent collaboration between everyone, and 
look forward to hearing your efforts to build a high-quality 
foster care system at Spirit Lake. I am also interested to 
learn what has been done to overcome the biggest barriers to 
your work, and what Congress can do to remove some of those 
barriers.
    I yield back. Thank you, Mr. Chairman.
    Mr. Young. I thank the gentleman for the gentleman's 
information.
    I did vote for the provisions for Violence Against Women. I 
want you to know that. I wasn't one of those that didn't vote 
for it, and worked hard to make sure they were included.
    The first panel is Michael Black, Director of Bureau of 
Indian Affairs. Michael, welcome back. He is accompanied by 
Darren Cruzan, Director of BIA Office of Justice Services and 
the Staff of Office of Indian Services.
    We also welcome Joo Yeun Chang, Associate Commissioner, 
Administration for Children and Families, Department of Health 
and Human Services.
    Thank you, you may be seated. I think you all know the 
rules, how this is going to work. You have 5 minutes. If you 
are doing something really good, I may let you go a little 
longer. If not, I will shut you down. And then, when you get 
done, we will have the full panel, and there will be questions.
    I will probably have to leave and come back and leave and 
come back. We have another hearing at the other end of the hall 
that I have to be at for questions too. But Mr. Cramer will 
chair the meeting when I am not here.
    And, with that, I believe we will have Mr. Michael Black, 
Director of the Indian Affairs, to proceed with his testimony.

   STATEMENT OF MICHAEL S. BLACK, DIRECTOR, BUREAU OF INDIAN 
AFFAIRS, U.S. DEPARTMENT OF THE INTERIOR, ACCOMPANIED BY DARREN 
        CRUZAN, DIRECTOR, BIA OFFICE OF JUSTICE SERVICES

    Mr. Black. Good afternoon, Chairman Young, Ranking Member, 
and members of the subcommittee. Thank you for the 
opportunity----
    Mr. Young. Make sure you use the microphones, guys. Just 
that little button in front. I forget it, too.
    Mr. Black. All right. Well, again, good afternoon, Chairman 
Young, Ranking Member, and members of the subcommittee. Thank 
you for the opportunity to present testimony for the Department 
of the Interior on child protection and the justice system on 
the Spirit Lake Indian Reservation.
    It is important to focus on Spirit Lake at this time, 
because it is an example of the serious challenges that many 
Indian reservations are facing. Throughout the country, 
protection of children is a top priority for Federal, State, 
tribal, and local governments. In a time of limited resources, 
however, challenges remain in Indian Country and in many 
States.
    Sequestration inflicted additional challenges on Indian 
Country in 2013, cutting over $6.2 million from BIA human 
services, and $17 million from BIA public safety and justice. 
Sequestration cuts for social services alone were equivalent to 
eliminating 15 social service workers of tribal and BIA-
operated programs. The 2014 budget passed by Congress restores 
many of these cuts inflicted by sequestration, but resources 
remain constrained, making it difficult to meet all of our 
needs in Indian Country.
    For that reason, the President's 2015 budget includes 
critical increases for both BIA human services and law 
enforcement to support families and communities. The 2015 
budget proposes the Tiwahe Initiative, with an increase of 
$11.6 million in social services and job training programs to 
address inter-related problems of child and family welfare, 
poverty, violence, and substance abuse in tribal communities. 
Tiwahe is the Lakota word for family. Through this initiative, 
social services and job training programs will be integrated 
and expanded to provide culturally appropriate programs to 
assist and empower families and individuals through economic 
opportunity, health promotion, family stability, and 
strengthened communities.
    Funding the Tiwahe Initiative is vital to addressing the 
significant challenges faced by children on Spirit Lake 
Reservation and Indian Country as a whole. We urge Congress to 
take this request seriously.
    The Spirit Lake Indian Tribe faces significant challenges 
in restoring a stable and well-functioning social services 
program. The BIA stands shoulder-to-shoulder with the tribe, as 
it attempts to meet these significant challenges.
    To the tribe's credit, the leadership at Spirit Lake has 
been aggressive in seeking guidance, and reforming its 
programs. It has, for example, sought assistance from the Casey 
Family Programs, ACF, and the BIA, in order to reform and 
improve all facets of their social services programs, from 
foster care to tribal courts. In seeking improvements, the 
tribal leadership has not shied away from scrutiny.
    In addition to formal or informal program reviews, and 
support by Casey Family Programs and ACF in recent weeks and 
months, the tribe has obtained an extensive on-the-ground 
review of its policing programs by the BIA Office of Justice 
Services, and it has also undergone an extensive tribal court 
assessment in the last several months. It is also working with 
BIA to prioritize specific needs for training and technical 
assistance for all court personnel.
    Though addressing a systemic restructuring of the programs 
will take time, the leadership at Spirit Lake has embraced the 
need for improvements, and has sought assistance in many 
corners. Such efforts provide confidence that the tribe is a 
good partner, and that there is a strong will to address the 
problems at the tribal level.
    Since October 1, 2012, the BIA has had responsibility for 
the social services programs previously contracted by the 
tribe. The tribe continues to operate a title IV-E program 
funded by ACF through the State of North Dakota with a Tribe-
State agreement for foster care placements. The BIA foster care 
program actively works to transfer children to services under 
the tribe's 4E program, provided the children meet the criteria 
for the program.
    Hiring permanent staff at Spirit Lake has proven to be a 
challenge for BIA for several reasons. Similar to many States 
across the country, both our BIA programs in this region and in 
the State of North Dakota reported a shortage of qualified 
social worker applicants. We have seen this repeatedly in 
hiring certifications with no applicants at all, or unsuitable 
applicants. We have increased our efforts at Spirit Lake by 
offering bonuses and expanded outreach to non-Indian 
candidates. Yet, despite these efforts, we have experienced 
instances where the best candidate was selected, only to have 
the individual later withdraw or fail to satisfy the background 
check.
    Another challenge has been the lack of available housing in 
the area. And, finally, unsubstantiated allegations of 
publicity regarding the Spirit Lake Reservation, even with 
significant improvements that have been made since 
retrocession, has significantly hindered permanent hiring.
    As a result, the BIA continues to detail staff to cover the 
advertised positions at Spirit Lake. And given all the factors 
noted above, the Department is also pursuing contracting 
options to provide longer-term stability until the program can 
be permanently staffed.
    Thank you again for the opportunity to testify on the issue 
of child protection and the justice system on Spirit Lake 
Indian Reservation. The Department is committed to doing its 
part to ensure the safety and protection of the children of 
Spirit Lake and at other reservations throughout the country. I 
would be glad to answer any questions the subcommittee may 
have. Thank you.
    [The prepared statement of Mr. Black follows:]
  Prepared Statement of Michael S. Black, Director, Bureau of Indian 
                Affairs, U.S. Department of the Interior
    Chairman Young, Ranking Member Hanabusa, and members of the 
subcommittee, my name is Michael Black and I am the Director of the 
Bureau of Indian Affairs (BIA). Thank you for the opportunity to 
present testimony for the Department of the Interior (Department) on 
``Child Protection and the Justice System on the Spirit Lake Indian 
Reservation.''
    It is important to focus on Spirit Lake because it is an example of 
the serious challenges that many Indian reservations are facing. 
Throughout the country, protection of children is a top priority for 
Federal, State, tribal, and local governments. In a time of limited 
resources, however, challenges remain in Indian country and in many 
States. Sequestration inflicted additional challenges on Indian country 
in FY2013--cutting over $6.2 million from BIA Human Services and $17 
million from BIA Public Safety and Justice. Sequestration cuts for 
social services alone were the equivalent of eliminating 15 social 
services workers at tribal and BIA operated programs. As sequestration 
took back millions of dollars from these areas, the Spirit Lake Tribe 
retroceded social services to the BIA.
    The Fiscal Year 2014 Budget passed by Congress restores many of the 
cuts inflicted by sequestration, with BIA Human Services funding at 
Fiscal Year 2012 levels and BIA Public Safety and Justice receiving an 
increase of $3.7 million over Fiscal Year 2012 levels. Despite 
restoring some of those cuts, resources remain constrained, making it 
difficult to meet all of our needs in Indian country.
    For that reason, the President's Fiscal Year 2015 Budget includes 
critical increases for both BIA Human Services and BIA Public Safety 
and Justice. To support Native American families and communities, the 
2015 budget proposes the Tiwahe Initiative, with an increase of $11.6 
million in social services and job training programs to address the 
interrelated problems of child and family welfare, poverty, violence, 
and substance abuse in tribal communities. Tiwahe is the Lakota word 
for ``family.'' Through this initiative, social services and job 
training programs will be integrated and expanded to provide culturally 
appropriate programs to assist and empower families and individuals 
through economic opportunity, health promotion, family stability, and 
strengthened communities. Funding the Tiwahe Initiative is vital to 
addressing the significant challenges faced by children on the Spirit 
Lake Reservation and elsewhere in Indian country. We urge Congress to 
take this request seriously.
    To promote public safety and tribal community resilience, the 2015 
budget request also includes resources to build on BIA Law 
Enforcement's recent successes in reducing violent crime. A pilot 
program will be implemented to lower repeat incarceration rates in 
tribally operated jails on three reservations--Red Lake in Minnesota, 
Ute Mountain in Colorado and Duck Valley in Nevada--with a new Priority 
Goal to lower repeat incarcerations by a total of 3 percent by 
September 30, 2015. The Alternatives to Incarceration Strategy will 
seek to address underlying causes of repeat offenses, such as substance 
abuse and lack of adequate access to social service support, through 
intergovernmental and interagency partnerships. The critical needs of 
Indian country are evident both at Spirit Lake and elsewhere. The 
Department calls upon this committee to fully support the President's 
Budget on these critical issues so that tribal communities have the 
necessary tools to protect Indian children.
       significant efforts to support improvements at spirit lake
    The Spirit Lake Indian Tribe (Tribe) faces significant challenges 
in restoring a stable and well-functioning social services program. The 
BIA stands shoulder-to-shoulder with the Tribe as it attempts to meet 
these significant challenges. To the Tribe's credit, the leadership at 
Spirit Lake has been aggressive in seeking guidance in reforming its 
programs. For example, it has sought assistance from Casey Family 
Programs and the Administration for Children and Families (ACF) at the 
Department of Health and Human Services (HHS).
    In seeking improvements, the tribal leadership has not shied away 
from scrutiny. In addition to formal or informal program reviews and 
support by Casey Family Programs and ACF in recent weeks and months, 
the Tribe has obtained an extensive on-the-ground review of its 
policing programs by the BIA Office of Justice Services (BIA OJS). It 
has also undergone an extensive BIA tribal court assessment in the last 
several months, and is working with the BIA OJS, Division of Tribal 
Justice Support, to prioritize specific needs for training and 
technical assistance for all court personnel.
    Though addressing programmatic challenges will take time, the 
leadership at Spirit Lake has embraced the need for improvements and 
has sought assistance in many corners. Such effort provides confidence 
that the Tribe is a good partner and that there is a strong will to 
address the problems at the tribal level.
           background of spirit lake social services program
    Prior to October 1, 2012, the Spirit Lake Sioux Tribe operated the 
Social Services programs under a P.L. 93-638 contract with the Federal 
Government. Beginning in August of 2011, the Tribe operated the 
programs under a Corrective Action Plan (CAP), which required the Tribe 
to address activities that were identified in its yearly contract 
review as required under the P.L. 93-638 contracting requirements. 
Leading up to October 1, 2012, the Tribe had a year to complete the CAP 
in order to maintain operation of the Social Services programs under 
its P.L. 93-638 contract. The BIA monitored the Tribe's Social Services 
programs and provided it with technical assistance to assist the Tribe 
with maintaining these programs. Despite these efforts, tribal social 
services continued to experience areas of poor performance. With likely 
incompletion of the CAP, the Tribe chose to retrocede those P.L. 93-638 
contracted Social Services programs to BIA. The Tribe retained 
operation of the 477, Welfare Assistance, and ICWA programs.
    Since October 1, 2012, the BIA has had responsibility for the 
Social Services programs once contracted by the Tribe. The Tribe also 
operates a Title IV-E program funded by ACF through the State of North 
Dakota with a tribal-State agreement for foster care placements. The 
children placed under the IV-E North Dakota State agreement are not 
subject to BIA supervision since care, control, and custody lie with 
the Tribe and the Tribe is responsible for oversight on those foster 
care placements. The BIA foster care program actively works to transfer 
children to services under the Tribe's IV-E agreement with the State of 
North Dakota, provided the children meet the criteria for the Tribe's 
IV-E program.
    As of June 11, 2014, there are 26 children in foster homes, 63 
children in relative care, and 8 in other placements, such as group 
homes, treatment, etc. It is important to note that there are a total 
of 97 children that are in the care, control, and custody of the BIA. 
Regardless of the nature of the placements, the BIA Social Services 
Program works closely with the Tribe and its Tribal Court to ensure 
care and custody of the children is properly addressed in every case.
    Immediately after the retrocession on October 1, 2012, the BIA 
Social Services Program took the following actions:

    <bullet> Detailed 12 Social Workers to the Tribe to assist at 
            different periods of the transition during the first 30 
            days of operation after retrocession.
    <bullet> Established a new office, including work space for staff, 
            set up for computers, telephone lines, phones, fax 
            machines, and on-call cell phones.
    <bullet> Advertised six positions for the BIA Social Services 
            program.
    <bullet> Collaborated with the Spirit Lake Sioux Tribal Court to 
            establish care and control of children in custody, identify 
            the children in placement, and obtain court records.
    <bullet> Partnered with the Tribe to develop a protocol for Title 
            IV-E and IV-B (Family Preservation) to assist with 
            establishing an agreement between the two programs 
            regarding transferring of cases.
    <bullet> Inventoried stored case files to determine files needing 
            to be archived and files related to active cases.
    <bullet> Collaborated with the Federal Bureau of Investigation, Red 
            River Advocacy Center, and BIA OJS to complete forensic 
            interviews.
    <bullet> Attended meetings with the Spirit Lake Tribal Council in 
            order to network services.
    <bullet> Worked with the Department of Justice to complete 
            fingerprinting for children, aged 14 and older, that the 
            BIA would have care and control over and all adults living 
            in the home with them.

    The continuing work of the BIA Social Services Program includes:

    <bullet> Providing child protection, child welfare assistance, case 
            management, emergency assistance, burial assistance, and 
            family and community services, as well as supervising 
            Individual Indian Money (IIM) accounts;
    <bullet> Receiving, reviewing, and investigating reports of alleged 
            child abuse and/or neglect;
    <bullet> Maintaining and managing current and active case files for 
            97 children, as well as coordinating services for children 
            and families, making referrals, conducting permanency 
            planning, and supervising visits;
    <bullet> Participating in child protection and multi-disciplinary 
            teams and hosting team meetings to review on a regular 
            basis child abuse and neglect cases;
    <bullet> Hiring two additional in-house social services personnel 
            and working to recruit and hire four more; and
    <bullet> Rotating 19 social workers from other BIA agencies to the 
            Fort Totten Agency at various intervals since October 1, 
            2012, to provide support and expertise during the tribal 
            program's transition to BIA management.

    The continuing work of the BIA OJS includes:

    <bullet> Working with the BIA Fort Totten Agency and Federal law 
            enforcement (U.S. Attorney's Office and Federal Bureau of 
            Investigations in North Dakota) on child safety and 
            protection at Spirit Lake;
    <bullet> Training BIA social services staff in the use of mobile 
            fingerprinting units and assisting with the fingerprinting 
            of foster parents;
    <bullet> Investigating allegations of child abuse and neglect at 
            Spirit Lake;
    <bullet> Continuing to work with the Federal Bureau of 
            Investigation and the U.S. Attorney's Office in North 
            Dakota on all active Spirit Lake cases; and
    <bullet> Providing tribal court tribal advocacy training for tribal 
            judges, public defenders and prosecutors on cases dealing 
            with sexual assault of children.

    BIA OJS, Division of Tribal Justice Support (TJS), also conducted a 
comprehensive tribal court assessment for the Spirit Lake Nation's 
Tribal Court. The assessment resulted in recommendations to assist with 
Tribal Court staffing, Tribal Code development, and Tribal Court 
Training. In addition, BIA OJS/TJS provided:

    <bullet> Immediate funding to the Spirit Lake Nation to assist with 
            staffing needs within the Tribal Court: positions have been 
            funded to assist in Child Welfare matters in the Tribal 
            Court: (a) Family Services Indian Child Welfare Presenter, 
            (b) Guardian Ad Litems (2 GAL Positions), (c) Juvenile 
            Public Defender.
    <bullet> A Tribal Court Bench Book; and Desk Book for Practicing 
            Lawyers and funding for Code development.
    <bullet> Funding for a Child Protection Title IV/E training 
            opportunity for the Tribe's juvenile tribal court judge.

  staffing for social services and law enforcement at the spirit lake 
                              sioux tribe
    Hiring permanent staff at Spirit Lake has proven to be a challenge 
for BIA for several reasons. Similar to many States across the country, 
both our BIA programs in this region and the State of North Dakota 
report a shortage of qualified social worker applicants. We have seen 
this repeatedly in hiring certifications with no applicants at all or 
unsuitable applicants. We have increased our efforts at Spirit Lake by 
offering bonuses and expanding outreach to non-Indian candidates. 
Despite these efforts, we have experienced instances where the best 
candidate was selected, only to have the individual later withdraw or 
fail to satisfy the background check.
    Another challenge has been the lack of available housing in the 
area. Finally, unsubstantiated allegations and publicity regarding the 
Spirit Lake Reservation, even with the significant improvements that 
have been made since retrocession, have significantly hindered 
permanent hiring. As a result, the BIA continues to detail staff to 
cover the advertised positions at Spirit Lake. Given all the factors 
noted above, the Department is pursuing contracting options to provide 
longer term stability until the program is permanently staffed.
    When fully staffed, the BIA Social Service program at Spirit Lake 
includes six permanent positions. These six positions are as follows:

        1--Supervisory Social Worker: Manages all program element 
        operations and supervises social services staff; assists with 
        investigations and case management, as needed; assists on call 
        as needed; acts as liaison to other Federal, State, county and 
        tribal agencies and partners.
        3--Child Welfare Specialists: Two of these positions are 
        focused on child protection/abuse and neglect investigations; 
        and one of these positions is focused on case management for 
        monitoring and services such as home visits for foster care and 
        relative placements and safety plans.
        1--Social Services Representative: Tracks and screens new abuse 
        and neglect reports; coordinates court activities, home visits 
        and other assistance as needed.
        1--Social Services Assistant: Assists with all phone and walk-
        in traffic, filing, and all other administrative tasks.

    Presently, the Supervisory Social Worker has been selected with a 
reporting date of June 30, 2014, and two of the Child Welfare 
Specialist positions are advertised.
    Currently, there are 14 sworn law enforcement positions at the BIA 
Fort Totten Agency. These 14 positions include the Chief of Police and 
2 Special Agent Investigator positions. There is one vacant police 
officer position. The Tribe has one certified officer hired for a 
tribal police officer position. There is a second tribal officer 
position, which is vacant. These two tribal police officer positions 
will support the BIA staff at Spirit Lake. The BIA Fort Totten Agency 
has also received a full time experienced Law Enforcement Assistant to 
provide administrative support.
    The BIA OJS conducted an initiative to assist the BIA Fort Totten 
Agency with identifying and correcting mandatory BIA-OJS handbook 
compliance deficiencies, as well as program leadership and first line 
supervision mentoring. This initiative was led by the BIA OJS Assistant 
Director, along with supervisors and agents from other agencies. 
Evidence, Police Reports, case load, scheduling and communications 
issues were of primary concern. Training in these areas was provided 
along with best practice recommendations.
    Regular weekly meetings were established between the local BIA OJS 
management and the Tribal Chairman to discuss program activities as 
well as to ensure that communication is improved and pending 
investigations are briefed regularly. A BIA OJS Special Agent has been 
assigned to monitor/work child abuse and child sexual assault cases for 
the BIA Fort Totten area. He has direct contact with Social Services 
three to five times per week. There are currently six open ``960 
Reports for Child Abuse and Child Sexual Abuse'': three of these are 
FBI cases and three are BIA cases.
                  process and performance improvements
    Since retrocession, the BIA has adopted a number of significant 
procedures and resource partnerships that not only ensure safety and 
protection of children, but also engage the community in family 
preservation activities designed to reduce instances of abuse. In 
addition, the efforts at Spirit Lake also allowed program and BIA staff 
to filter through some of the unsubstantiated cases through improving 
mandatory reporting methodologies in coordination with other key 
partners such as the medical facilities and school systems. The 
mandatory reporter methodologies alone have resulted in a 40 percent 
drop in child abuse and neglect reports. The methodologies have also 
resulted in reports with information which facilitates a more rapid and 
thorough investigation strategy. For the past few months, the number of 
referrals has maintained even levels of approximately 50-80 per month.
    BIA protocols have been established for all key social services 
processes. Staff detailed to Spirit Lake either know or are trained on 
the proper protocols for investigations, case management, foster care, 
and all other key social services processes. This standardization has 
led to more consistent and thorough processing and results across the 
board. Most importantly, both foster care placements and abuse and 
neglect reports are documented and tracked through a concise system. 
Training has been coordinated and completed internally and through 
other State and Federal Agency partners to improve services at Spirit 
Lake.
    Currently, the Social Services program operates under a 12-week set 
of detail assignments, which establishes coverage for all vacant 
positions. The number of detailees to Spirit Lake is reduced as 
permanent hiring for vacant positions take place. The BIA will continue 
to aggressively pursue hiring for these vacant positions until all 
positions are filled.
    The BIA also has other highlights of the positive improvements and 
efforts at Spirit Lake, which include:

    <bullet> The BIA Social Services program continues to collaborate 
            with the Federal Bureau of Investigation, Red River 
            Advocacy Center, and BIA OJS to complete forensic 
            interviews for children who report instances of mental, 
            physical, or sexual abuse.
    <bullet> The BIA staff has worked on encoding data and uploading 
            documentation for cases into the Financial Assistance and 
            Case Management System (FASS-CMS) that is utilized by all 
            BIA Social Services programs for thorough tracking.
    <bullet> The BIA staff is performing 24-hour per day on-call Child 
            Protective Services as of October 1, 2012, and has 
            partnered with BIA OJS, Office of Law Enforcement Services 
            to assist with investigations of referrals of allegations 
            of child abuse and/or neglect.
    <bullet> Since November 1, 2012, the Social Services program has 
            assumed the responsibility of leading bi-weekly Child 
            Protection Team (CPT) meetings, which allow multiple local 
            agencies to staff particular cases to best coordinate 
            physical and mental health services for children in the 
            BIA's care and custody. The members of this team are: BIA 
            Social Services, Spirit Lake Tribal Social Services, Ramsey 
            and Benson County Social Services staff, school district 
            staff, Indian Health Service staff, and local counseling 
            and family services providers. The meetings are usually 
            held the 1st and 3rd Thursday of every month. All members 
            of this team sign confidentiality statements.
    <bullet> Since November 1, 2012, the Social Services staff 
            participates in the Multi-Disciplinary Team (MDT) meetings 
            coordinated through the Department of Justice's U.S. 
            Attorney's office to address those cases which are the 
            subject of criminal investigation and prosecution in either 
            Federal or tribal court. Members of this team consist of: 
            BIA Social Services, FBI, U.S. Attorney, Spirit Lake Tribal 
            Social Services, the Tribal prosecutor, BIAOJS, Office of 
            Law Enforcement Services, Spirit Lake Tribal Victim's 
            Assistance program, and Red River Advocacy (an organization 
            conducting forensic interviews of children). The next 
            meeting is not yet scheduled, but meetings will likely be 
            every 4-6 weeks depending on the volume of forensic 
            interviews. All members of this team sign confidentiality 
            agreements.
    <bullet> On November 30, 2012, the BIA Great Plains Regional 
            Office, Human Services, BIA Fort Totten Agency Social 
            Services, Spirit Lake Tribal Social Services, and the 
            University of North Dakota's Children and Family Services 
            Training Center co-presented mandatory reporter training to 
            the Spirit Lake community. The BIA also recently offered a 
            refresher course in mandatory reporting and processes for 
            filing a thorough abuse and neglect report at Candeska 
            Cikana (Little Hoop) Community College on April 29, 2014.
    <bullet> Since June 2012, the Social Services Coalition (SSC) meets 
            approximately once a month to communicate and collaborate 
            on providing effective delivery of social service-related 
            programs. Members of this coalition include all local 
            State, county, Federal, and tribal social service entities; 
            representatives from State district, tribal, and Federal 
            courts; Law Enforcement; the Victim's Assistance program; 
            the Tribal Council; and area leaders. The SSC works on 
            interagency services coordination and communication, inter-
            agency community events like Child and Family Wellness 
            Fairs, and other community issues related to social 
            services, as they arise.
    <bullet> On January 8, 2013, the BIA Great Plains Region and BIA 
            OJS provided fingerprint training to Tribal and BIA Social 
            Services staff at the BIA Fort Totten Agency. The Agency 
            has received three mobile fingerprinting units that the 
            social services staff has begun to use for in-home 
            fingerprinting of adults in foster and relative placement 
            homes.
    <bullet> On March 12, 2013, a Child and Family Wellness Fair was 
            held in Fort Totten, North Dakota, where resource providers 
            shared information with the Tribe's community members on 
            topics such as domestic violence prevention and services.
    <bullet> The BIA has been participating in the Tribe's 5-year 
            strategic planning process in May and June 2014 for receipt 
            of Title IV-B funding to offer a variety of child and 
            family services. The plan has widespread stakeholder buy-in 
            and all service providers will benefit from expanded family 
            services available in the community. The Native American 
            Training Institute from Bismarck, North Dakota is 
            facilitating the planning and application process.

                               conclusion
    Thank you again for the opportunity to testify on the issue of 
``Child Protection and the Justice System on the Spirit Lake Indian 
Reservation.'' The Department is committed to doing its part to ensure 
the safety and protection of children at the Spirit Lake Sioux Tribe. I 
would be glad to answer any questions the subcommittee may have.

                                 ______
                                 

 Questions Submitted for the Record to Michael Black, Bureau of Indian 
                                Affairs
    Question 1. Please provide the name of the tribal social services 
employee who recommended placing the two twin girls in the home of 
their step-grandmother, Hope Louis Tomahawk Whiteshield? Is he/she an 
employee of the BIA? Please provide all other instances where this 
tribal social services employee placed children in foster homes who 
subsequently experienced documented abuse, neglect, injury and/or 
death. Please redact as necessary to protect the identity of minors.

    Answer. Mr. Paul Hutchinson, Director, Spirit Lake Tribal Social 
Services and Ms. Irenice Noseep, Spirit Lake Tribal ICWA Director are 
the individuals who recommended the placement. Both persons were 
employed by the Spirit Lake Tribe at the time and were not (nor have 
they ever been) employed by the Bureau of Indian Affairs. Additionally, 
both persons are no longer working for the Spirit Lake Tribe. As this 
placement was accomplished using tribal transfer of jurisdiction under 
ICWA, any records of these employees placing children would have to be 
obtained from the Spirit Lake Tribe.

    Question 2. As stated during the hearing, please provide a 
spreadsheet indicating the status of investigations regarding the 
allegations of Thomas Sullivan in his mandated reports. Please redact 
as necessary to protect the identity of minors.

    Answer. Spreadsheet is attached.

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Question 3. What capacity does the BIA possess to enter into or 
encourage joint aide agreements with surrounding government entities to 
help augment the available resources for Spirit Lake? Has the Spirit 
Lake tribe entered into such agreements with the surrounding ND State 
and/or county entities? Have they done so in the past? If so, why not 
presently?

    Answer. The Bureau of Indian Affairs has been working to develop a 
Memorandum of Agreement (MOA) with the Spirit Lake Tribe to bring all 
components of the Spirit Lake Child Welfare system into a more unified 
system. This includes an effort to co-locate BIA and Spirit Lake Tribe 
child protection, foster care, and ICWA services under one roof to 
increase communication and collaboration to protect Spirit Lake 
children. We are actively seeking portable space that will serve our 
space needs for this endeavor through the collaboration of our BIA 
Housing staff and facilities staff. We are in preliminary discussions 
about including the local county, which is already using a tribal 
building as a satellite office.
    BIA is also working closely with the tribe to incorporate technical 
assistance from Casey Family Programs to strengthen overall child 
welfare practices. The BIA has been participating in the planning 
meetings and participating in child welfare training needs to ensure 
the agencies are working together and closing any gaps between systems. 
The proposed draft MOA formalizes our efforts to share training and 
information, as well as encourages the development of unified processes 
and procedures for operations mindful of the ultimate plans for 
eventual tribal re-assumption of all programs once the tribe has 
completed its long-term capacity building efforts.
    Although, BIA has not had any formal written agreements in the past 
with the surrounding government agencies, BIA has been participating in 
the Spirit Lake Coalition Meetings and new Spirit Lake Children's 
Coordinating Council with representation from the Ft. Totten Agency, 
Regional level and Central Office level. The BIA also participates in 
the multi-disciplinary teams which review cases for possible 
prosecution and other efforts, such as collaborative community family 
services fairs or outreach and training regarding suicide prevention or 
substance abuse.

    Question 4. As stated by the Interim Director for Spirit Lake 
Social Services during the June 24, 2014 hearing, there could be as 
many as 30 or more children still unaccounted for as the result of 
alleged improper placements. What kind of investigation was done in 
regard to these allegations? Could you please provide the work product 
regarding your investigation(s) to this committee? If no investigation 
was undertaken, please provide an explanation as to why not. Please 
redact as necessary to protect the identity of minors.

    Answer. The Spirit Lake Tribe has hired an individual who has been 
conducting the investigation into the allegation that a certain number 
of children remain unaccounted for as a result of improper placements. 
This figure has been reported in the media as ranging from 30 to 100 
children, primarily by Ms. Betty Jo Krenz, a licensed social worker and 
mandatory reporter. Mr. Thomas Sullivan has also repeated these 
allegations as a self-identified mandatory reporter. Both individuals, 
as mandatory reporters, have a responsibility to file mandatory reports 
through the proper process at this location, which starts with the 
filing of a formal report of abuse and neglect (also known as a 960 
report form in North Dakota). Law Enforcement interviewed Mr. Sullivan 
directly to receive any information in his possession about specific 
instances of abuse and neglect and Mr. Sullivan has not provided a 
specific list with identifying information regarding victims and/or 
perpetrators to the Bureau of Indian Affairs.
    The Bureau of Indian Affairs has provided the background 
information requested by the tribal investigator of these allegations. 
Any information specific to the tribal investigation would need to be 
made to the Spirit Lake Tribe. The Bureau of Indian Affairs urges 
Representative Cramer and any other individuals receiving such reports 
to strongly encourage and insist that those individuals immediately 
come to Bureau of Indian Affairs Social Services and file an official 
report of abuse and neglect, particularly any mandatory reporters, who 
are required by law to do so. They can do so in person or over the 
phone at any time.

    Question 5. When acquiring new BIA personnel for the Spirit Lake 
Tribe, what role does the tribe play in such hiring decisions?

    Answer. The Spirit Lake Tribe has given permission to the Bureau of 
Indian Affairs to waive Indian preference in hiring to assist in 
filling positions. Tribe does not play a role in the selection process 
of new Social Services staff of Bureau of Indian Affairs at Agency 
locations.

    Question 6. Please provide the jurisdictional breakdown between the 
BIA and the tribe regarding Social Services on the Spirit Lake Indian 
Reservation. Do yon have authority to assume all responsibility for 
social services programs on the Spirit Lake reservation?

    Answer. The Bureau of Indian Affairs provides child protective 
services as well as initial and emergency foster care placement and 
case management and will continue to do so until, at some later date, 
the tribe successfully contracts those functions. In order to do so, it 
must be able to demonstrate sufficient capacity.
    The tribe has an IV-E agreement with the State to provide foster 
care for children meeting Title N-E eligibility requirements. Although 
the Bureau of Indian Affairs would make emergency placements based on 
suspected or substantiated cases of abuse and neglect, all Title IV-E 
eligible cases would normally be transferred to Tribal Social Services 
Foster care. The transfer of these cases is not happening due to the 
lack of staff resources at Tribal Social Services.
    The tribe operates a broad range of social services programs not 
involving child protective services and foster care which are either 
self-funded or funded through other Federal sources. The Bureau of 
Indian Affairs has the authority to intervene to ensure child safety.

    Question 7. What efforts have you made to address the lack of 
accountability of your agents on the Spirit Lake as expressed by Molly 
McDonald during the June 24, 2014 hearing?

    Answer. BIA has consulted with Labor Relations to address 
performance and conduct issues with staff. Several Officers/Agents have 
resigned/retired and are no longer with the agency, one has voluntarily 
stepped down to a lesser grade. Additionally we conduct case file 
reviews locally every 45 days to ensure cases are progressing 
appropriately.

    Question 8. During the June 24, 2014 hearing, there was discussion 
regarding a BIA Special Investigator and reports of purported domestic 
abuse inflicted by him against his wife. Have these allegations been 
investigated by the BIA? Were formal charges ever filed? If not, please 
provide an explanation.

    Answer. Raised in the Sullivan Allegation labeled 38J: ``This was 
investigated and the wife was interviewed by law enforcement. She 
advised she was never abused or assaulted and that she put the language 
in the letter that way because she was mad at the other female and 
wanted to get her fired.'' No charges were filed in this case and the 
investigation is closed based upon the admission of the wife to 
falsifying this information.

    Question 9. Does the BIA currently have an office of Ombudsman 
program to serve as an intermediary between tribal members and the BIA? 
Is it possible to create such a position within your existing 
authority?

    Answer. The BIA does not have an office of Ombudsman program. The 
BIA currently has twelve (12) Regions located throughout the United 
States and each Region has a Regional office and several agency 
offices. These offices assist in the local administration of BIA 
programs for tribes and for tribal members. Tribes and tribal members 
living on or off Indian lands can contact their local agency or 
Regional office regarding the administration of BIA programs. These BIA 
Regional and agency offices currently assist as the direct link between 
tribes and tribal members and the BIA.

    Question 10. Patricia Denice White alleges her infant grandson was 
improperly returned to the child's drug dependent mother by Tribal 
Court without adequate safeguards in place to protect the child from 
future harm. Please inform this committee of all steps taken to insure 
the safety of this child.

    Answer. The child referenced in this question is under the care, 
control and custody of the BIA Social Services program and is placed in 
a relative environment with the maternal grandmother. The placement is 
also subject to protective strategies which include the mother going 
through drug and alcohol abuse treatment. At this time, it appears that 
the mother is doing well with all treatments and complying with random 
and scheduled visits with a staff social worker.

    Question 11. Is it true, on or about June 24, 2014, two BIA Law 
Enforcement Officers allegedly responded to the home of Patricia Denice 
White? If true, is it also correct the same officers failed to validate 
any facts which purportedly initiated the purpose of their visit? It is 
alleged your Officer's presence at the home of Ms. White was initiated 
due to Ms. White and her daughter Britnee Iceman's participation in the 
June 24, 2014 hearing. Please respond to this allegation. What have 
your officers done to investigate the source of this information for 
making a false report to police (or similar crime)?

    Answer. We received only one report in our automated records 
management system regarding Patricia Denice White, which was reported 
on May 24, 2014 and listed a Denise White. There are no reports on the 
radio log regarding Denise White/Patricia Denice White matching that 
date. There were no IMARS entries for Brittany Iceman or Patricia 
Denice White.
    On May 24, 2014 a female called requesting an officer to come to 
her residence because of a potential domestic incident between her 
nephew and his girlfriend. Dispatch relayed the information to the on 
duty officer. The reporting party called back and canceled the call for 
service.

    Question 12. According to the Grand Forks Herald, on or about 
November 28, 2013 seven additional BIA Law Enforcement Officers were 
assigned to the Spirit Lake Tribe. What was the purpose of their 
assignment? How long were these officers ultimately deployed to the 
Spirit Lake Indian Reservation? Why this period of time?

    Answer. Bureau of Indian Affairs, Office of Justice Services senior 
leadership has developed and ultimately implemented a ``Corrective 
Action Support Team'' (CAST) philosophy to assist OJS District and 
Agency management assess critical programmatic issues. CAST will take 
immediate action to correct very specific challenges when needed. The 
primary goal of CAST is to ensure no material weaknesses exist in 
agency level operations. OJS senior management arrived at the Fort 
Totten Agency to conduct an assessment of critical operational 
functions.
    In addition to the analytical review aspect of this initiative, the 
CAST was able to provide real time coaching to employees and managers 
on a large variety of topics and disciplines. Leadership mentoring was 
afforded to the Chief of Police and the Police Lieutenants over the 
CAST period.
    The CAST deployment was approximately 2 weeks long. This allowed 
for specific corrections and or compliance activities undertaken at the 
agency.

    Question 13. When my office receives reports of inadequate conduct 
or investigation by your law enforcement or Spirit Lake Tribal Social 
Services, whom should we contact on their behalf? Is there someone 
specifically in your Aberdeen Office I and my constituent's questions 
should be referred to?

    Answer. For issues related to the Spirit Lake Tribal Social 
Services, the tribe would be the contact.
    For issues related to law enforcement see contact information 
below:

Chief of Police Raymond Cavanaugh, Fort Totten Agency Chief of Police, 
Fort Totten, ND, (701) 766-4231

Assistant Special Agent in Charge, Jeremiah Lonewolf, District I Office 
Aberdeen, SD, (605) 226-7347

Special Agent in Charge, Mario Redlegs, District I Office, Aberdeen, SD 
(605) 226-7347

    Question 14. Do your law enforcement officers have squad video 
installed in their police vehicles? If so, do all your Law enforcement 
officers receive training in regard to their use? Are your law 
enforcement officers mandated to use their squad video during all 
investigations? Why or why not?

    Answer. Uniformed Police Officers have the WatchGuard Camera System 
installed in their police unit. BIA OJS works with the Indian Police 
Academy and the Watch Guard Company to provide training to law 
enforcement officers. In-Car Video usage is addressed in the BIA/OJS 
Handbook 2nd Edition under Section 2-25 In Car Video (See Attached).


   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                              

    Mr. Young. Thank you, Michael.
    Just a moment. Ms. Chang.

STATEMENT OF JOO YEUN CHANG, ASSOCIATE COMMISSIONER, CHILDREN'S 
    BUREAU, ADMINISTRATION FOR CHILDREN AND FAMILIES, U.S. 
    DEPARTMENT OF HEALTH AND HUMAN SERVICES, WASHINGTON, DC

    Ms. Chang. Thank you. Good afternoon. Chairman Young and 
members of the subcommittee, thank you for inviting me to 
testify today. The Administration is committed to partnering 
with Spirit Lake to improve child safety and child well-being 
on the Spirit Lake Reservation, and we are grateful to you for 
having this hearing and bringing attention to the issues 
affecting the delivery of child welfare services at Spirit Lake 
Nation. My name is Joo Yeun Chang, and I am the Associate 
Commissioner of the Children's Bureau in the Administration for 
Children and Families, Department of Health and Human Services.
    The Bureau administers the Federal foster care and adoption 
assistance programs, as well as a range of prevention and post-
permanency initiatives. We also provide technical assistance 
and training on a range of child welfare topics to States, 
counties, and tribes. Today I would like to talk about three 
things. The first is the Administration for Children and 
Families' role in supporting child welfare at Spirit Lake. The 
second is our observations for our most recent trip to Spirit 
Lake. And finally, a summary of our recommendations to the 
tribe.
    ACF provides financial support for social services, 
primarily through Titles 4B and 4E of the Social Security Act. 
These funds are available to States, tribes, and territories, 
and can be used to cover a range of child welfare services, 
from prevention to foster care, adoption, and guardianship. The 
Spirit Lake Tribe is a direct Title 4B grantee, and receives 
title IV-E foster care and adoption assistance funding 
indirectly through an agreement with the State of North Dakota.
    In addition to financial support, ACF also provides 
technical assistance and training on a range of child welfare 
topics, including organizational and workforce development, 
prevention, and permanency in child welfare. We have a 
dedicated national resource center for tribes, as well as a 
number of subject matter resource centers, including a few that 
have worked with the Spirit Lake Tribal Social Service Agency 
over the years.
    In response to allegations of child abuse and neglect on 
the Spirit Lake Reservation, ACF has, in the last 7 years, 
conducted a series of investigations and assessments, and has 
issued recommendations on how to address these issues.
    Most recently, on April 9 and 10 of this year, I, along 
with some of my colleagues at ACF, including Lillian Sparks 
Robinson, Commissioner of the Administration on Native 
Americans, and Marrianne McMullen, ACF's Deputy Assistant 
Secretary for External Affairs, conducted a listening session 
at Spirit Lake. We met with a range of stakeholders, including 
current and former Social Service staff, current and former 
tribal court judges, BIA staff, school administrators, as well 
as State and county social service officials. The goal of our 
listening session was to get a better understanding of the 
current structure of social services at Spirit Lake, including 
the division of roles and responsibilities between the tribe 
and the BIA post-retrocession, and to develop recommendations 
for improvement. Much of what we found during this most recent 
visit is consistent with our previous assessments.
    The most urgent issue facing child welfare practice at 
Spirit Lake is the lack of adequate staff to meet minimum 
standards of practice in both child protection and foster care 
casework. In addition, we encourage the development of a 
uniform operations manual that covers activities including 
investigation, and a child welfare practice model.
    We also noted the need to develop a data and tracking 
system to enable both the tribe and the BIA to understand who 
it is that they are serving, the needs of children in their 
care, the case goals, and to ensure that they are able to track 
child outcomes over time.
    We also note the importance of recruiting and training 
foster care and kinship homes, as well as increasing community 
engagement and communication.
    A new recommendation focuses on the need to clarify roles 
and responsibility between the tribe and BIA, while maintaining 
consistent policies across both organizations to ensure 
seamless transfer of responsibilities back to the tribe. 
Following the return of BIA-funded programs in 2012, BIA has 
assumed most child welfare services, including child protection 
services, investigations, initial placement decisions, and 
ongoing case management of non-IV-E cases.
    I want to conclude by saying that, although challenges 
remain, we want to acknowledge the strengths that exist at 
Spirit Lake that we think can be the building blocks to 
transform this child welfare system. Perhaps the most notable 
strength is the commitment of new leadership under Chairman 
McDonald and the work of the BIA. We also acknowledge the 
commitment of the community and its neighbors to persist in 
efforts to keep children at Spirit Lake safe from harm.
    We recently shared our observations and recommendations 
with the Chairman, and welcome an opportunity to work with the 
Spirit Lake Tribe, BIA, and community stakeholders to implement 
these recommendations.
    I would be happy to answer any questions.
    [The prepared statement of Ms. Chang follows:]
     Prepared Statement of Joo Yeun Chang, Associate Commissioner, 
   Children's Bureau, Administration for Children and Families, U.S. 
                Department of Health and Human Services
    Chairman Young and members of the subcommittee, thank you for 
inviting me to testify. The Administration is very concerned about 
child safety and well-being at the Spirit Lake Reservation. We are 
grateful to you for having this hearing and bringing more attention to 
the issues affecting the delivery of child welfare services at Spirit 
Lake Nation.
    I am Joo Yeun Chang, Associate Commissioner of the Children's 
Bureau. I have worked as a national advocate on child welfare policies 
both as a senior staff attorney at the Children's Defense Fund and 
immediately prior to my appointment to the Bureau, I worked at Casey 
Family Programs Foundation where I worked closely with State and local 
child welfare agencies. In my current role, I oversee the Federal 
foster care and adoption assistance programs as well as a range of 
prevention and post-permanency initiatives.
    Today, I will speak about the Administration for Children and 
Families' (ACF) role in supporting child welfare services at Spirit 
Lake and our work to date. I will also discuss our observations from 
our most recent trip to Spirit Lake and finally, I will provide a 
summary of some recommendations.
acf's role in supporting child welfare services at spirit lake and our 
   work to date to address the numerous challenges facing spirit lake
    The Administration for Children and Families provides financial 
support for social services on the reservation through funds from title 
IV-B and IV-E of the Social Security Act to eligible States, tribes, 
and territories for the provision of child welfare-related services to 
children and their families. The Spirit Lake Tribe of North Dakota is a 
title IV-B grantee and receives title IV-E dollars through an agreement 
with the State of North Dakota.
    Title IV-B funds are available to promote the development and 
expansion of coordinated child and family services programs that use 
community-based agencies, family support services, family preservation 
services, adoption promotion and support services, and time-limited 
family reunification services. Title IV-B is a formula grant under 
which Spirit Lake has received approximately $320,000 since 2011.
    Title IV-E of the Social Security Act provides funds for States and 
tribes to provide foster care, transitional independent living programs 
for children, guardianship assistance, and adoption assistance for 
children with special needs. Only the public agency or tribe designated 
to provide a program of foster care is eligible to apply for and 
receive direct title IV-E funding. Individuals and private entities may 
apply to the title IV-E agency as sub-grantees or contracted providers. 
Spirit Lake has not applied and is therefore not eligible to receive 
direct title IV-E funding. They do, however, have an agreement with the 
State of North Dakota to administer foster care and adoption assistance 
payments for eligible children and youth at Spirit Lake.
    ACF provides technical assistance and training on a range of child 
welfare issues from prevention to post-permanency. We have a dedicated 
National Resource Center for tribes as well as subject matter resource 
centers who have worked with the Spirit Lake Tribal Social Services 
(SLTSS).
     findings from our most recent fact finding trip to spirit lake
    In response to allegations of child abuse and neglect on the Spirit 
Lake Reservation, ACF has conducted a series of investigations and 
assessments, followed by recommendations on how to address issues 
facing the Spirit Lake Tribal Social Services.
    Between 2007 and 2014, ACF was involved in the following four 
reviews of the Spirit Lake Tribal Social Services department:

  1.  National Resource Center for Organizational Improvement (NRCOI), 
            April 30 to May 3, 2007
  2.  North Dakota IV-E file review, January 17-20, 2012
  3.  National Resource Center for Tribes, Organizational Assessment, 
            November 2012-February 2014; and
  4.  North Dakota IV-E file review, May 7-8, 2013

    Most recently, on April 9 and 10, 2014 ACF leadership, including 
Lillian Sparks Robinson, Commissioner of the Administration on Native 
Americans, Marrianne McMullen, ACF's Deputy Assistant Secretary for 
External Affairs and I conducted listening sessions at Spirit Lake. The 
listening sessions included meetings with a range of stakeholders from 
the Spirit Lake tribal child welfare system, including current and 
former social workers, current and former juvenile judges, Bureau of 
Indian Affairs (BIA) staff, school district staff, North Dakota State 
and county human services staff, and law enforcement. The goal of the 
listening session was to better understand the current structure of 
social services at the Spirit Lake Reservation including the division 
of roles and responsibilities between the tribe and BIA to offer 
recommendations for improvement.
    Many of the findings and related recommendations from ACF's most 
recent visit are similar to those contained in the previous 
assessments. A new recommendation focuses on the need to clarify roles 
and responsibilities between the tribe and BIA while maintaining 
consistent policies and practices to ensure seamless transfer of 
responsibilities back to the tribe. Following the return of the BIA 
funded programs from the tribe back to BIA, a process known as 
retrocession, BIA assumed responsibility for most child welfare 
activities including investigations of abuse and/or neglect as well as 
foster care services for children who are not eligible for title IV-E 
reimbursements. The tribe maintained responsibility for placement and 
care of children who, at the time of retrocession, were in foster care 
and receiving Federal reimbursement for a portion of their out-of-home 
costs through a title IV-E agreement with the State of North Dakota. At 
the time of retrocession, this represented approximately one-third of 
the foster care population. In addition the tribe provides services and 
supports related to the Indian Child Welfare Act (ICWA).
    Although there have been some improvements since the tribe 
retroceded many child welfare functions to BIA, a number of gaps 
remain. The most urgent issue facing child welfare practice at the 
Spirit Lake Reservation is the lack of adequate staff to meet minimum 
standards of practice in both child protection/investigation and foster 
care casework.
    In addition, a common theme that emerged from the ACF listening 
session and the previous four reviews was the lack of specific 
protocols and procedures to direct and guide staff activities on a 
range of child welfare activities from child maltreatment 
investigations, assessment, placement, and foster care services to the 
delivery of services in the community. The lack of documentation 
extends from safety assessments and plans to services provided to 
families. This results in an inability to support active efforts to 
provide case management to families.
    Previous reviews also noted the lack of comprehensive assessments 
for cases involving placement in out of home care. Comprehensive 
assessments lead to well thought-out and individualized case plans. 
Previous reviews found little evidence of case management, supportive 
services, or minimal, reasonable efforts to reunite families. In 
addition, the lack of available supportive services and foster home 
placements has led to fragmented cases with little to no direction. Of 
the homes that were licensed, many lacked the appropriate documentation 
of background checks, home studies, and licenses. BIA has addressed 
some of these issues for BIA social services, most notably the safety 
checks prior to placement. However, we recommend that BIA and the tribe 
develop short-term and long-term staffing solutions and jointly develop 
a policies and procedures manual.
                     summary of our recommendations
    Based on information gathered to date, ACF has identified seven 
priority recommendations to be addressed through a coordinated action 
plan between SLTSS, BIA, and other stakeholders including the team at 
HHS, and State and county child welfare agencies.
    The seven priority recommendations are:

  1.  Develop a comprehensive strategy to support the development of a 
            short- and long-term workforce;
  2.  Create a uniform process for conducting and documenting 
            investigations;
  3.  Develop a basic operations manual outlining policies and 
            procedures for child welfare case services, including 
            investigations;
  4.  Develop and implement a data tracking/information system that 
            would enable the tribe to manage its caseload and 
            understand who is being served, their needs and case goals 
            and track case outcomes;
  5.  Develop and implement a plan for recruitment of foster/kinship 
            homes;
  6.  Provide training for the Tribal Court on requirements of title 
            IV-E funding; and
  7.  Increase community engagement and increase communication.

    Although challenges remain, we want to acknowledge the strengths 
that exist at Spirit Lake that can be harnessed to transform its child 
welfare system. Perhaps the most important strength is the commitment 
of new leadership under Chairman McDonald and the work of the BIA. We 
also acknowledge the commitment of the community and its neighbors to 
persist in efforts to keep its children safe from harm and able to grow 
and thrive in adulthood. We recently shared our observations and 
recommendations with the Chairman and welcome an opportunity to work 
with the Spirit Lake Tribe, BIA, and community stakeholders to 
implement them.
    The Administration also looks forward to working with you to 
address this crucial issue and improve services to Spirit Lake Tribal 
Social Services.
    Again, thank you for the opportunity to speak with you today. I 
would be happy to answer any questions.

                                 ______
                                 

Questions Submitted for the Record by the Hon. Kevin Cramer to Joo Yeun 
 Chang, Associate Commissioner, Children's Bureau, Administration for 
                         Children and Families
    Question 1. Please provide this panel with any and all performance 
reviews for Thomas Sullivan.

    Answer. Staff from the Department of Health and Human Services 
(HHS) will be in touch with your staff to discuss this sensitive 
personnel material.

    Question 2. Is it true that Thomas Sullivan has been recognized for 
his work to prevent Child Abuse and Neglect of American Indian 
Children? Specifically, did he receive a certificate of appreciation 
from the Montana Wyoming Tribal Leaders Council?

    Answer. In a memo accompanying his 2010 personnel review, Mr. 
Sullivan said that he received this award. The Administration for 
Children & Families (ACF) has no other record of such an award.

    Question 3. Is it true Thomas Sullivan helped to design, develop 
and test in 10 States a pediatric consultation program directed to 
improving the effectiveness and efficiency of Project Head Start's 
health care program? As the result of his efforts, did the American 
Academy of Pediatrics agree to operate this program nationally, 
resulting in highly effective consultation being provided to Head Start 
programs by board-certified pediatricians in every community in this 
country?

    Answer. Tom Sullivan has served as ACF's Regional Administrator in 
Region 8 since 2002. His work with ACF has been in the Region 8 States 
of Colorado, Montana, North Dakota, South Dakota, Utah, and Wyoming. 
ACF has no records indicating that he undertook the work described 
above while at ACF. I have no direct knowledge of his work prior to 
serving with ACF or of work he has performed outside of Region 8.

    Question 4. Did Thomas Sullivan help evaluate the operation of the 
Watts Neighborhood Health Center in south-central Los Angeles when it 
first opened, helping to close a loophole which assisted the Center in 
recovering financially?

    Answer. Tom Sullivan has served as ACF's Regional Administrator in 
Region 8 since 2002. His work with ACF has been in the Region 8 States 
of Colorado, Montana, North Dakota, South Dakota, Utah, and Wyoming. 
ACF has no records indicating that he undertook the work described 
above while at ACF. I have no direct knowledge of his work prior to 
serving with ACF or of work he has performed outside of Region 8.

    Question 5. Did Thomas Sullivan work with a Community Board 
representing Chelsea, MA, helping to design and direct a survey of the 
health needs of the community and then negotiate with the General 
Director of Massachusetts General Hospital on behalf of the Community 
Board for the establishment of a health center in that community on 
terms including how the center's progression to opening would be 
staged, what services would be offered, hours of operation etc.? As the 
result of his efforts, is the health care center in question providing 
desperately needed services for the very poor residents of that 
community?

    Answer. Tom Sullivan has served as ACF's Regional Administrator in 
Region 8 since 2002. His work with ACF has been in the Region 8 States 
of Colorado, Montana, North Dakota, South Dakota, Utah, and Wyoming. 
ACF has no records indicating that he undertook the work described 
above while at ACF. I have no direct knowledge of his work prior to 
serving with ACF or of work he has performed outside of Region 8.

    Question 6. Is it true Mr. Sullivan consolidated Federal staff from 
three different offices in a single office with regulatory 
responsibility for monitoring the health and safety of nursing homes 
and intermediate care facilities in New England, ultimately developing 
and implementing a policy of unannounced inspections which has improved 
the quality of service of nursing homes and institutional health care 
providers?

    Answer. Tom Sullivan has served as ACF's Regional Administrator in 
Region 8 since 2002. His work with ACF has been in the Region 8 States 
of Colorado, Montana, North Dakota, South Dakota, Utah, and Wyoming. 
ACF has no records indicating that he undertook the work described 
above while at ACF. I have no direct knowledge of his work prior to 
serving with ACF or of work he has performed outside of Region 8.

    Question 7. Did Mr. Sullivan work collaboratively with an Air Force 
General and his reserve staff to design and implement a plan to conduct 
weekend health fairs all across metropolitan Boston staffed by Air 
Force medial and administrative personnel providing basic medical care 
to people who, in some cases, had not been seen by a physician in 
years?

    Answer. Tom Sullivan has served as ACF's Regional Administrator in 
Region 8 since 2002. His work with ACF has been in the Region 8 States 
of Colorado, Montana, North Dakota, South Dakota, Utah, and Wyoming. 
ACF has no records indicating that he undertook the work described 
above while at ACF. I have no direct knowledge of his work prior to 
serving with ACF or of work he has performed outside of Region 8.

    Question 8. Did Mr. Sullivan conduct a major evaluation of the 
Oklahoma system for delivering services to people with developmental 
disabilities, demonstrating higher quality care could be provided at 
lower total cost in small community residences than in large, isolated 
institutions? Did Mr. Sullivan provide expert witness testimony 
regarding these efforts in Federal Courts, lead seminars for White 
House, OMB congressional and executive branch staff and testify before 
State legislative committees in New England and Oklahoma?

    Answer. Tom Sullivan has served as ACF's Regional Administrator in 
Region 8 since 2002. His work with ACF has been in the Region 8 States 
of Colorado, Montana, North Dakota, South Dakota, Utah, and Wyoming. 
ACF has no records indicating that he undertook the work described 
above while at ACF. I have no direct knowledge of his work prior to 
serving with ACF or of work he has performed outside of Region 8.

    Question 9. Considering these facts, and in light of the testimony 
of Chairman McDonald who indicated he offered Mr. Sullivan a chance to 
work with the Spirit Lake Tribe, why does the Administration for 
Children and Families not feel Mr. Sullivan should have an expanded, 
and more critical role, in your agencies' efforts on Spirit Lake?

    Answer. The issues of child safety, child protection, and foster 
care are child welfare issues. Within HHS and the ACF, the Children's 
Bureau within the Administration on Children, Youth and Families has 
responsibility for overseeing child welfare. Established in 1912, the 
Children's Bureau is the oldest Federal agency for children. The 
Children's Bureau provides matching funds to States, tribes, and 
communities to help them operate every aspect of their child welfare 
systems--from prevention of child abuse and neglect to adoption--and 
the information systems necessary to support these programs. The 
Children's Bureau seeks to provide for the safety, permanency, and 
well-being of children through policy guidance, grants to support and 
evaluate services, and productive partnerships with States, tribes, and 
communities. In addition, the Bureau makes major investments in staff 
training, technology, and innovative programs.
    Within the Children's Bureau, oversight of child welfare practice 
and interagency collaborations are managed at the highest level by the 
Associate Commissioner. The Bureau's central office staff, located in 
Washington, DC, and regional staff work together to provide child 
welfare policy and practice guidance to States and tribes.
    Prior to an ACF reorganization in 2006-07 during the Bush 
administration, regional administrators had direct supervisory 
authority over regional program directors and, consequently, regional 
program work. Since the reorganization, regional program managers (such 
as for the Children's Bureau) began reporting directly to program 
directors at headquarters. Regional administrators such as Tom Sullivan 
assumed different duties. The primary responsibilities of the regional 
administrator include: providing regional ACF leadership through 
representing ACF on Federal coordinating bodies and by maintaining 
strong and positive relationships with State, tribal territory, and 
local government partners, as well as with university, philanthropic, 
and other community partners; leading high-priority cross-cutting 
initiatives for the agency, such as Affordable Care Act outreach and 
anti-human trafficking initiatives; providing administrative support 
for all ACF regional offices and staff; leading emergency preparedness 
and response efforts; and providing for communications support, from 
local stakeholder communication to maintaining the regional Web site.
    Regardless of personal interest in a program area, it would not be 
appropriate for Mr. Sullivan or any regional administrator to assume 
the responsibilities of the Children's Bureau for child welfare work. 
This would also apply to other ACF program work, such as child support 
enforcement, Head Start, and Child Care. This specific program work is 
done by each program office, each of which has a director at the 
Federal headquarters.
    ACF has made clear to Tom Sullivan that he has the freedom in his 
personal capacity to express his views on Spirit Lake. ACF has 
encouraged him to report any and all allegations of abuse and neglect 
to the appropriate parties including law enforcement. ACF has also made 
clear to Mr. Sullivan that the Children's Bureau has responsibility 
over these matters, and, to the extent that he has official matters to 
discuss, he should raise them with the Children's Bureau.
    The Children's Bureau is leading this effort for ACF and manages 
the work with both the tribal leadership and the tribal social services 
staff. The Children's Bureau also is the principal liaison with the 
State of North Dakota, the Bureau of Indian Affairs, and the Department 
of Justice to address child protective issues at Spirit Lake. The 
Bureau has child welfare staff from within the Bureau, as well as 
national tribal child welfare experts, involved in the work of child 
protection at Spirit Lake.

    Question 10. Considering Dr. Tilus was initially reprimanded for 
his efforts to improve the conditions for vulnerable children and 
adults on Spirit Lake, has HHS implemented any reforms to encourage 
behavior like that exhibited by Dr. Tilus?

    Answer. Dr. Tilus is not an employee of ACF, and I am not in a 
position to comment on any agency or departmental actions undertaken 
with respect to him. To the extent that you are asking more generally 
about agency efforts to encourage employees to speak without fear of 
retribution, ACF requires all employees to take annual training on the 
No Fear Act, which includes information about the rights of 
whistleblowers and the legal protections afforded them, and sends out 
periodic notices to remind employees to take this mandatory training.

    Question 11. During your testimony it is my understanding you 
indicated Thomas Sullivan had not been to the Spirit Lake Indian 
Reservation. In subsequent conversations I have been informed that he 
actually has, at least on several occasions. In light of this 
information, would you like to take this opportunity to amend your 
testimony?

    Answer. When I testified, it was my understanding that Mr. Sullivan 
had not visited Spirit Lake.
    I have since learned that he has traveled to Spirit Lake on the 
three occasions listed below. Two of the trips are documented in the 
government travel reservation system GOVTRIP and the third (December 7-
10, 2010) is reported by Mr. Sullivan.

  1.  November 14-17, 2010--Tom Sullivan met with the executive 
            director of the Fetal Alcohol Spectrum Disorder Center at 
            the University of North Dakota and then visited the Fetal 
            Alcohol Clinic on the Spirit Lake Reservation.
  2.  December 7-10, 2010--Tom Sullivan attended a meeting with FEMA to 
            address human service needs arising from the flooding in 
            Devils Lake, ND.
  3.  July 5-9, 2011--Tom Sullivan reviewed flood damage and met with 
            the social services director.

                                 ______
                                 

    Mr. Young. I want to thank the panel. I appreciate your 
testimony. After this hearing is over, if there isn't 
improvement, we will have another one. But it won't be just a 
hearing.
    Mr. Black, I take this a little personally. Your statement, 
you relate Spirit Lake's Tribe social services problem to 
sequestration. But those problems were occurring before 
sequestration. Why do you think and why do you link 
sequestration to the tribe's problems when it happened before?
    You know, I have heard this sequestration excuse, Mr. 
Black--every time there is a problem, it is sequestration. And 
thank God for George Bush and sequestration, otherwise you guys 
wouldn't have anything to stand on. So why do you link that, 
when these occurred before sequestration?
    Mr. Black. Well, I apologize for the misunderstanding, sir. 
I am not equating, or wasn't trying to equate sequestration to 
the problems that are faced out there at Spirit Lake. As you 
stated, a lot of the problems happened long before 
sequestration.
    I guess the point I was trying to emphasize is the fact 
that, at a time when we were reassuming the program, and trying 
to deal with some of the shortfalls that we had out there, 
sequestration just became a barrier to us getting to fully 
where we need to be with the program and stuff, and getting 
fully staffed out there. So it was just another impact on our 
efforts to try and reform the program.
    Mr. Young. OK. That is why I wanted to clarify that, 
because, you know, again, we like to blame things for that when 
this was occurring ahead, and you have admitted that in your 
testimony, so that is good.
    The Bureau was supposed to submit a report to the House and 
Senate committees in jurisdiction on the progress of efforts 
and advocacy of child placement and judicial review by the 
tribe and the Bureau. That was passed in--I believe the 
Appropriation Act of 2014. Are you working on that? Where is 
the report?
    Mr. Black. Yes, sir. We are currently still working on 
that. We have just completed a number of different reviews, 
including the review of our law enforcement program, the tribal 
court system, as well as our social services program, and we 
will be getting that report submitted.
    Mr. Young. The 638 contract documents I have reviewed show 
that the April 20, 2012--that the BIA Great Plains Region 
officials reported high-risk findings at the Fort Totten Agency 
that pose an immediate danger to the health, safety, and well-
being of children, either in placement or referred to 
protective services. These findings stem from the BIA February 
and March 12 site visit to the reservation. The tribe failed to 
eliminate these high risks to the children. But again, the 
agency allowed the tribe to continue operating a contract for 7 
months, since the problem was identified, before the tribe 
voluntarily retroceded the contract on October 1, 2012.
    The question is they receded the contract. Can they go back 
into this contract again? What is the criteria? They receded 
it, so they really weren't acknowledging there was anything 
wrong.
    Mr. Black. Yes. And you are correct, sir. The tribe did 
voluntarily retrocede the program. But it was following a year-
long process of a review that identified a number of corrective 
actions that needed to take place. And, as you stated, there 
were follow-up reviews in March, April, in August, as well as, 
I personally led a strike team out there, including my Deputy 
Director for Trust Services and Indian Services that summer, 
around July or August, to sit down and meet personally with the 
tribe. We attempted to provide them as much technical 
assistance as we could, to bring the program back to where it 
needed to be. Coming that September is when that decision by 
the tribe was made to retrocede the program back to BIA.
    Mr. Young. OK.
    Mr. Black. As far as their ability to come back and 
contract the program again, there would be nothing that would 
prevent that from them, other than the fact that when that time 
comes, if it comes, and the tribe indicates they are interested 
in contracting the program again, we would be evaluating the 
tribe's capacity, the situation with the program as it stands 
when that happens, and then we would be reviewing it at that 
point.
    Mr. Young. How large is this tribe?
    Mr. Black. Pardon me?
    Mr. Young. How large is this tribe?
    Mr. Black. You mean as far as the number of members?
    Mr. Young. Yes.
    Mr. Black. I don't know, right off the top of my head, sir, 
I apologize.
    Mr. Young. The reason I am asking that question is it is my 
understanding that there are--and I know that--this is my 
Ranking Member--there is a desire of self-determination, which 
I support, desire of self-governance, which I support. But 
there is also, my understanding, a shortage of qualified people 
that, in fact, can take and are eligible for taking care of a 
child.
    If that is the case, I would like to know that, because--
and this goes back to the children. This is the common 
denominator, the children. And I don't really have much truck 
with the tribe who won't take care of their own children. I 
have been very hostile in my career about--because I live with 
them. And someone messes up, he got punished the right way. 
There is no reason to abuse a child. I see I have my officer 
sitting there, but that is the way I ran my shop. And my people 
backed me up. There is no reason for a child that cannot 
protect himself or herself to be abused, to be raped, have 
incest, be beaten and starved. That is unacceptable. I 
personally won't tolerate it.
    Ms. Chang, what is your interface with the BIA on this? You 
are a different agency, correct?
    Ms. Chang. We are. We are part of the Administration for 
Children and Families and----
    Mr. Young. Have you been out there?
    Ms. Chang. I have. I have been out there, and we have been 
working closely with BIA since our visit in April.
    Mr. Young. And you have made progress?
    Ms. Chang. I think that we, as a community, have been 
making progress in trying to figure out what the issues are, 
and how we can address them.
    Certainly, sir, your issue about identifying appropriate 
families to care for children who are vulnerable is a critical 
issue, not only at Spirit Lake, but, quite frankly, across the 
country. Identifying, training, and licensing resource families 
or foster families, as you might call them, is an issue that 
all child welfare agencies at the State, county, and tribal 
level really struggle with.
    But the good news is that we do have some strategies about 
how you can recruit them and train appropriate families, so 
that there is a place for kids to go if they can't remain in 
their homes. So we are encouraged by a desire to work on these 
issues.
    Mr. Young. I am going to suggest that we have a follow-up 
report from Mr. Black and yourself in 6 months. And if I hear 
of one child at Spirit Lake that went through that litany what 
I said, then there is going to be more of a longer-term period 
of a hearing. Because this is good words, it doesn't 
necessarily accomplish something.
    Mr. Black, this is not your problem. You are spending all 
this money going to my State, trying to recognize and put in 
land trust on tribes, supposedly to have them improve the 
violence on children and the violence on women. And yet you 
have this going on in Spirit Lake. Where is the rationale? If 
you follow what I am saying, where is the rationale of doing 
that?
    That is supposed to stop this violence in children 
according to you, the Department, and the violence on women. 
And yet we have this going on in Spirit Lake, has been a 
reservation you have been in charge for a long time--or the 
agency has. Do they add up?
    Mr. Black. Well, I am not sure if I am quite following the 
correlation, Mr. Chairman, but----
    Mr. Young. Well, the proposed fee to trust was based upon 
stopping the violence and the mistreatment of children in 
Alaskan tribes. And now yet we have an existing tribe and 
reservation that this has been going on. If you wanted to spend 
the money, I would suggest you spend it in Spirit Lake. I mean 
just an idea. I just want you to think about it.
    Mr. Black. OK.
    Mr. Young. Mr. Cramer, would you mind--excuse me. He is 
going to chair. You are going to--Mr. Cramer, you have to chair 
for me, because I have to go down the hall--I will be back.
    Mr. Cramer [presiding]. Recognize Mr. Cardenas.
    Mr. Cardenas. Thank you, Chairman Cramer. Mr. Black, I want 
to commend you for taking on a responsibility that at times 
must feel like a thankless job. Any time a group of human 
beings is trying to help another group of human beings, yet you 
are dealing with communities that have been at the brink of 
genocide being exercised on them, you are talking about 
communities that, even when that was--those efforts of such, 
where they are actually killing human beings just because of 
who they are, when that stopped, then you had other activities 
such as taking their children away from them, trying to demean 
them to the point where they say, ``You are not fit to raise 
your own children,'' when you are dealing with communities like 
that, it must be extremely difficult to try to act like things 
are normal there, or that we can apply certain norms in those 
communities.
    I have a question for you as to when--in dealing what you 
are dealing with in your opening statement, you talked about 
resources. Do you feel as though you have been afforded the 
adequate resources to address, in particular, this particular 
issue at this sovereign nation?
    Mr. Black. You know, quite honestly, sir, I would have to 
say no, I don't think that we have the resources that are 
really necessary, not only at Spirit Lake, but across the 
country, to deal with child protection issues, social services, 
law enforcement, and all of the other programs that we deliver.
    As an example for Spirit Lake, we have been detailing 
anywhere from 12 to 19 different people on various bases up 
there to fulfill some of those permanent staff that we haven't 
been able to hire. And, there again, that is just an additional 
burden on our resources. It is also an additional burden on 
those other reservations and tribes that we have to take that 
staff from in order to fulfill the needs at Spirit Lake.
    Mr. Cardenas. And when you are talking about trying to 
attract appropriate staff, I mean, you are not just trying to 
find people to answer phones, or you are not trying to find 
people who are just going to do jobs that perhaps any American 
could do if they were out of work. You are talking about people 
with degrees, you are talking about people with expertise. Is 
that what you are talking about? You are talking about people 
like--with doctorate degrees, et cetera?
    Mr. Black. Yes, sir. I am talking about people with masters 
in social work, people with experience in dealing with child 
protection and child issues and stuff.
    And right now, as I stated in my testimony, there is a 
serious shortage of those types of qualified applicants. And 
then, you know, this is not an easy situation to walk into, I 
think. So that challenge, I think, might be somewhat daunting 
for some of the folks that we are looking to really try and 
recruit and hire out there.
    Mr. Cardenas. Now, let me understand. When you say it is 
daunting, are you giving a----
    Mr. Black. I am saying----
    Mr. Cardenas. You said it could be daunting. I am asking 
you a question. Are you giving up?
    Mr. Black. No, sir.
    Mr. Cardenas. I just want to be clear about that.
    Mr. Black. In no way, shape, or form.
    Mr. Cardenas. Because I have been in some of these 
committees where, when somebody says something like that, and 
they are just being honest and truthful about how daunting the 
situation is, sometimes I see them get attacked as though they 
are giving up, as though they are not trying. So I just want to 
make that clear.
    Mr. Black. Absolutely not.
    Mr. Cardenas. Are you using every effort that you have 
available to try to contribute to solving this problem?
    Mr. Black. Yes, sir, we are. We have been reaching out 
across the country to all of our BIA regional offices. We are 
looking at--we have been talking with ACF, Casey Family, 
anybody we can to bring the resources and personnel to bear on 
this issue. We are even reaching a point now we are talking to 
other tribes that have social work programs that have been 
successful, and trying to recruit some of them to come up and 
help us and identify some of the issues that they could help us 
to resolve. And partly right now it is really needing 
caseworkers on the street, right out there on the ground that 
can really address some of the issues.
    Mr. Cardenas. OK, thank you.
    Ms. Chang, over at the Administration for Children and 
Families, HHS, when you are dealing on a situation like this in 
a sovereign nation, does it complicate things a little bit 
compared to, say, doing something in maybe Detroit or Los 
Angeles, or somewhere else in the country?
    Ms. Chang. Absolutely. I think it is important to recognize 
that you are working with a sovereign nation, that they have 
their own rules and ways of governance that also may be foreign 
to folks who work only with States and county-level 
governments.
    But the reality is that good child welfare practice is good 
child welfare practice. And the good news is that the Chairman 
and the BIA recognize that. And, as they have pointed out, as 
Mr. Black has pointed out, the big challenge here is staffing. 
And that can't be----
    Mr. Cardenas. The biggest challenge.
    Ms. Chang. Yes.
    Mr. Cardenas. Many challenges, but the biggest challenge.
    Ms. Chang. That is right. And it is a big challenge. And 
what I think it calls for are creative solutions. And they have 
reached out to us and, as he pointed out, other philanthropies 
and private organizations. And I think we can develop creative 
solutions to a very big challenge.
    Mr. Cardenas. Thank you. I yield back my time.
    Mr. Cramer. Thank you, and thank the panel for being here. 
And let me at the outset express some of my appreciation for 
being here, but Director Black, for your willingness to be in 
regular contact with me. You have been very responsive, very 
professional, and I very much appreciate it throughout our 
relationship. And I think building trust is an important part 
of all of this. So thank you for that.
    I do want to revisit a little bit of the history of this, 
because this 7-month time gap that the Chairman referenced 
between retroceding, the tribe voluntarily retroceding, and the 
reassumption report that came out that said, ``Hey, there is 
imminent danger here,'' what is the technical difference 
between reassuming--had the BIA reassumed, as I understand it, 
the contract--versus the tribe voluntarily retroceding? What 
are the ramifications of those two differences, the 
distinctions?
    Mr. Black. Well, I guess the short version of that would be 
in the case we are dealing with here, the tribe voluntarily 
returned the program back to the Bureau of Indian Affairs for 
us to operate.
    If we were to go in and reassume the program, which was, 
quite honestly, on the table at the time in our discussions 
with the tribe, is that can somewhat become more of a longer 
and lengthy process, because we do have to notify the tribe 
that we are going to reassume the program, take it back from 
them. They have their appeal rights and, quite honestly, I have 
seen it in cases where it can go another year or longer before 
we actually are able to take over the program, once it goes 
through all of the appeal processes. So----
    Mr. Cramer. But it is my understanding that if there is an 
imminent threat, if there is an emergency situation--which I 
believe, as I recall, this was designated--couldn't you have 
reassumed----
    Mr. Black. We could reassume it. It is not that that 
wouldn't be without challenges. We could do an emergency 
reassumption, you are correct, as you state, which we would 
just roll in and take over the program at that point. We would 
still have some wrangling, probably, to do over appeals. We 
would immediately begin operation of the program, but----
    Mr. Cramer. The reason I am curious about that is because 
during that time period there were child deaths. Now, we 
haven't even begun to really dig into other allegations of 
abuse in terms of prosecutions, in terms of the number of 
reports. We pretty much focused on child deaths.
    So, looking back on it, I mean, do you ever regret and 
think maybe we should have been a little more urgent in our 
response? And I ask that question not just to relive history, 
but as we go forward, and while I appreciate the optimism of 
both the new Chairman and ACF, there is--in my view there is an 
urgency to this, because it seems like the only time we are 
hearing news out of Spirit Lake is when there is another dead 
child.
    And so, that is why things like this are--these moments are 
important for us to have an open dialog that provides both 
hope, as well as solutions, if that makes sense. So, I still am 
a little concerned about that 6- to 7-month gap, and wish we 
would have acted a little more urgently.
    Let me ask this. Are you aware of the 13--I guess they are 
called mandated reports from Tom Sullivan, the HHS or IHS 
investigator that has worked on this situation, investigated 
it?
    Mr. Black. Yes, I am.
    Mr. Cramer. Do you know if all of his allegations--and if 
you have read them, as I have, you know that they are quite--
there is a lot there, and they are quite provocative, quite 
serious, to say the least. Have any of them been investigated, 
any of these allegations?
    Mr. Black. Sir, we have investigated, through our Office of 
Justice Services, in coordination with the U.S. Attorney, we 
have investigated every one of the allegations in the Sullivan 
reports. We have reached out to Mr. Sullivan personally, 
through our OJS staff and investigators, to try and gather 
information from those reports. And I can honestly say that 
every one of those has been put into, basically, three 
categories.
    Where we are unable to substantiate the allegation after 
further investigation, was there, was nothing located. Or a 
number of them that were already investigated or were currently 
under investigation at the time that we reviewed them.
    Mr. Cramer. Well, given that we--I have a copy of all 
those, they are public. Could we get a copy of all the 
investigation reports that followed that trail after his 
allegations?
    Mr. Black. Sir, we would be happy to work with that. You 
know, especially when we are dealing with children here, like 
we are, we do have to protect the rights and the privacy of the 
children and the individuals involved. But we would be happy to 
work with you to generate some type of a report that we could 
provide you----
    Mr. Cramer. Well, I certainly----
    Mr. Black [continuing]. That wouldn't affect any----
    Mr. Cramer. You know, I certainly want to. Whatever way, if 
it requires redacting information, that is fine. If it is just 
kept to the committee--which the committee of jurisdiction does 
have the right to those kinds of reports--but I would just as 
soon work collaboratively with you on the best way to do that, 
in a way that maintains the integrity of the process.
    Mr. Black. Yes, sir.
    Mr. Cramer. Are you familiar with a recent case of a 2-
month-old--it actually was an infant born 2 to 3 months ago, 
diagnosed with having meth in the system, removed from the 
mother, who was a meth addict, evidently? Has been returned to 
the mother, and just in the last week or two--are you familiar 
with that case, without naming any names?
    Mr. Black. I am not familiar with that case.
    Mr. Cramer. OK. We may ask that of the next witnesses.
    My time has expired. However, I--we have any other--did you 
want to--sure, yes, yes. So, OK, with that, we are going to 
take another round of questions. I will recognize the Ranking 
Member, my friend.
    Mr. Cardenas. Thank you very much. Ms. Chang, when it comes 
to the activities that you are involved in at HHS, when you are 
dealing with a sovereign nation and you have the BIA right by 
your side, as they have jurisdiction as well over much that 
happens when it comes to Federal activity, who reports to who 
when it comes to taking further steps, and when it comes to 
apprising one or the other of what you feel should be done in 
order to remedy the situations like this? Who reports to who 
between departments?
    Ms. Chang. So I certainly can't say anyone reports to me 
across agencies. I think we actually work quite well in the 
spirit of collaboration. We have been talking very regularly 
with BIA. We have been sharing our recommendations with the 
Chairman. He has those. And we are looking forward to 
continuing to work together.
    I think this has to be done in partnership. Everyone has a 
role to play. We have responsibilities, because we give funding 
through our ACF programs for a number of services. We are 
actively working with the tribe to make sure those dollars are 
being used effectively. The BIA has their responsibilities. And 
I think the goal here is to make sure that we are coordinating 
our services and our efforts to improve, so that they are in 
alignment and that they are actually cohesive.
    Everyone here I can say really wants the same thing, which 
is to ensure that children at Spirit Lake are safe. There 
certainly are challenges here. But the only way that we can 
address them is to work together. So we have been working very 
collaboratively.
    Mr. Cardenas. So you are saying in this situation you have 
been working in a collaborative spirit, and it appears to be 
working well when it comes to the new tribal chairman and his 
administration. And then, when it comes to BIA, HHS, and 
everybody else involved----
    Ms. Chang. Absolutely. The Chairman has been really, I 
think, outstanding in reaching out to all partners, and being 
willing to say, ``What do we need to do better here,'' and is 
willing to listen and to talk and be open. And I think, really, 
that is also very important, is that everyone is willing to be 
open and share with one another what is actually happening.
    Mr. Cardenas. OK. And sharing what is happening is one 
thing, but actually charting a course for taking proactive 
actions, whether it is deciding that--say you do--you are 
fortunate to find another MMW or a psychologist or somebody who 
is willing to be hired, et cetera. Who is involved in that 
decision as to who gets picked, et cetera?
    What I am getting at is how long does it take between 
knowing that you have something in front of you and a decision 
can be made, which is good for the solution, yet at the same 
time, what hurdles do you have to jump through before that 
action can be taken?
    Ms. Chang. Sure. So, to Chairman Young's point, this is 
certainly a very urgent issue. I think we all recognize that. 
Some of the recommendations we shared with the Chairman were 
that there needs to be both short-term and long-term fixes that 
are put in place, because of the nature of that urgency.
    I think when you think about staffing, it is a little 
challenging here, because you have both tribal staff, as well 
as BIA staff, who need to be hired and recruited. Our 
recommendation is that they come together to think of a joint 
short-term and long-term recruitment and training plan, so that 
they can get the same type of folks in who are trained 
similarly, who are providing the same kind of services.
    Because even though you have two different organizations 
providing services, the child ultimately is the same, and we 
need to make sure that the type of services they are getting 
are equal, regardless of which organization is ultimately 
responsible.
    Mr. Cardenas. Well, one of the things that--whether it is 
Mr. Black or you, Ms. Chang, if you could help me understand, 
is there a barrier or a hindrance to getting good, qualified 
people, or good, qualified candidates when it comes to cultural 
sensitivity and understanding the particular constituency that 
they are hired to work with?
    For example, when I was in the city of Los Angeles--I don't 
mean to sound light about it, but we had a police chief that 
was from Boston. And every once in a while I would kind of have 
to turn my ear a little bit to understand what he said. Again, 
that is not all that critical, thank God, because I didn't work 
for him, I didn't have to take orders from him. But when we 
were collaborating, and sharing information, again somebody who 
has perhaps some cultural differences, or somebody that maybe 
you are communicating with, and you are not catching it the 
first time, that can create difficulties.
    So, my point is are you running into problems trying to 
find individuals who may have the titles, yet, at the same 
time, unfortunately, the cultural sensitivities might be amiss?
    Mr. Black. I think to your point, Congressman, the cultural 
sensitivity, I think, is kind of almost critical and important, 
but the most important thing right now is, I think, finding 
those qualified individuals that really care about what they 
are doing and really come out there with the mission to make 
the lives better of the children there at Spirit Lake.
    I think it is important with any tribe that there is an 
understanding of the cultural differences. But those are things 
that I think we can teach, that we can educate those kinds of 
people and that staff in. And I think, to Ms. Chang's point, 
there is--we are also working really close with the tribe. And 
at the same time we don't want to compete with them for these 
employees, because it is--if one of us can get them, great.
    But we want to be able to help each other to get to that 
point where we can bring people in. There again, then that 
allows us to improve that collaboration and educate those folks 
as they come in on what they really need to know about the 
community, about the culture, and then how they can best help 
the children.
    Mr. Cardenas. Thank you, Chairman.
    Mr. Cramer. Thank you. Before I leave you, Mr. Black, you 
talked about unsubstantiated allegations leading to bad 
publicity and making it difficult to attract people. Do you 
have any specific allegations you can reference that are 
particularly both unsubstantiated and--I use the word 
``provocative'' or ``inflammatory''--that would be creating 
this problem?
    Mr. Black. I think there probably are some of those cases 
within the report that we would be able to share with you after 
we get the chance to really sit down. But there are some of 
those in there, yes.
    Mr. Cramer. Then one other question. Do you know the number 
of--roughly the number of either prosecutions or even charges 
filed for child abuse that did not lead to a child death in, 
say, the last 2 or 3 years?
    Mr. Black. I don't have those numbers with me, but we can 
certainly coordinate with DoJ to get those numbers for you.
    Mr. Cramer. The reason I ask that, I don't--and this is, 
frankly, part of the problem where I live, and probably where 
we all live, is that I don't read much about them. I don't see 
much about it.
    And I think--and maybe this leads to my first question for 
you, Ms. Chang, on your site visit and what you have learned in 
this process--it seems to me that there is a lack of 
transparency, that there is--somewhere between corruption and 
just fear, there is a lack of transparency is the best way I 
can put it.
    I mean we have reports of TV, you know, cameramen and 
reporters being assaulted, BIA officers requiring them to 
delete their video files, being locked out or left out of 
meetings. Could you help me better understand that, or am I 
just imagining this, or have you observed the same thing?
    And again, not casting any allegation on why. But am I on 
to something?
    Ms. Chang. Sure. So I certainly think that there is a great 
deal of community distrust. There is a high level of anxiety 
among the community that I witnessed when I went there on the 
site visit. And it is part of the reason why one of our 
recommendations to the Chairman is that they come up with a 
plan, in collaboration with BIA, to improve their communication 
and community relationships. We think that is critical. Because 
unless the community understands how BIA and the tribe is now 
functioning, and can understand the system, I think there will 
be always that heightened level of anxiety, which isn't good 
for the community or the kids within that community.
    One of the recommendations we have made is that they have 
an ombudsman, who can really serve as a go-between between the 
community members and both the tribe and BIA. But part of it 
also is being transparent about what the process is.
    One of the things we learned when we went out there is that 
there is, quite frankly, not because of a lack of transparency, 
but I think because, quite frankly, everyone is so busy doing 
the work that they haven't necessarily taken a step back to 
explain to the community, ``This is how things are structured 
now.'' And so, some people weren't even--didn't realize that 
they were supposed to send reports of abuse and neglect to BIA 
and not to the tribal social service agency.
    So those are some of the things that we think can be easily 
addressed, and really help alleviate some of the anxiety within 
the community.
    Mr. Cramer. Ms. Chang, I assume that you have read the 
mandated reports by Tom Sullivan?
    Ms. Chang. I have.
    Mr. Cramer. OK. You know Mr. Sullivan? Do you know him?
    Ms. Chang. I do.
    Mr. Cramer. OK. Do you know why he wasn't allowed to 
testify today when we requested him?
    Ms. Chang. So I think it is important to clarify that we 
have made clear to Mr. Sullivan that the Children's Bureau is 
the agency that has responsibility on matters related to child 
protection, child welfare, and that to the extent--if he has 
official matters to discuss, we have encouraged him to bring 
that to the Children's Bureau.
    In his personal capacity, he certainly has the right to 
express his views, and we have encouraged him, whenever he has 
allegations of abuse and neglect, to take them to the proper 
officials who can actually address those issues.
    Mr. Cramer. I have got to be honest. What you just said or 
read sounds--it leads to suspicion by me that there is some 
reason that you didn't want him, the person who investigated 
for well over a year and has the most intimate knowledge of it.
    I would ask--I guess I am the Chair, but, without 
objection, I would like to have his mandated reports placed 
into the record.
    And we can determine what----
    Ms. Chang. It is also my understanding that Mr. Sullivan 
has never been to Spirit Lake. He has never acted on behalf of 
the government in his conversations with individuals. He has 
never been part of any of our investigations or assessments. We 
have been on the ground, on the reservation, working directly 
with the tribe and with the BIA. So, I just wanted to make that 
point of clarification.
    Mr. Cramer. OK. So I just want to make sure you are saying 
he has never been to Spirit Lake.
    Ms. Chang. That is my understanding.
    Mr. Cramer. All right. We will try to verify that before 
the end of the day.
    Ms. Chang. Right.
    Mr. Cramer. But I have a suspicion that are you not right 
on that.
    Mr. Chairman--OK. Well, my time has expired. Did you want 
to--OK.
    Mr. Cardenas, did you want another round? Would you?
    [No response.]
    Mr. Cramer. OK. Then we will dismiss this panel, realizing 
that the record will be open for 10 more days, and the members 
of the committee can submit questions in writing--will submit 
questions in writing.
    Thank you very much for your time, and we will take some 
time for the second panel to assume their positions.
    All right. We are now ready for the next panel of 
witnesses. I will introduce all of you first, and then we will 
call on you one at a time for your prepared testimony.
    First, we are very honored to be joined by Chairman Russell 
McDonald, Chairman of the Spirit Lake Tribe of North Dakota. 
Mr. Chairman, welcome. Thank you for being here. He is 
accompanied by Melissa Merrick-Brady, the Interim Director for 
Spirit Lake Social Services. My understanding is Ms. Merrick 
will not be providing testimony, but is available for 
questions. Is that accurate? Very good, thank you.
    Molly McDonald of Devils Lake, North Dakota. Molly is a 
member of and former tribal judge for Spirit Lake. Judge 
McDonald, thank you for being here.
    And Anita Fineday, Managing Director of the Indian Child 
Welfare Program at the Casey Family Programs in Seattle, 
Washington. Thank you for making the trip out here.
    All of the witnesses are again reminded their complete 
written testimony will appear in the hearing record. We have 
all received it, and I assume you have all read it. And you 
have 5 minutes to summarize it.

    With that, Mr. Chairman, you may begin the testimony. Thank 
you for being here.

STATEMENT OF LEANDER R. McDONALD, Ph.D., CHAIRMAN, SPIRIT LAKE 
   TRIBE, FORT TOTTEN, NORTH DAKOTA, ACCOMPANIED BY MELISSA 
    MERRICK-BRADY, INTERIM DIRECTOR FOR SPIRIT LAKE SOCIAL 
              SERVICES, FORT TOTTEN, NORTH DAKOTA

    Dr. Leander McDonald. Mr. Chairman, I would just also like 
to reserve an opportunity for Ms. Brady to--if there is any 
detailed information that we need, I might have to go to her 
for those questions. Thank you, sir.
    I would like to begin by thanking Chairman Don Young, 
Ranking Member, and distinguished members of the committee for 
the opportunity to let you know about progress being made to 
strengthen the child welfare system on the Spirit Lake Indian 
Reservation. Our children are our top priority, and we 
appreciate your support in making sure they have access to the 
same services, programs, and opportunities to succeed as any 
other American child.
    We have submitted a longer testimony for the record, but we 
would like to use this opportunity to give background on who we 
are, and where we are, and ask for help with our top 
priorities.
    My name is Leander Russ McDonald, Chairman of the Spirit 
Lake Tribe, located in northeastern North Dakota. The Spirit 
Lake Reservation was established by the Treaty of 1867, and 
currently consists of more than 250,000 acres of land. Our 
treaty guarantees that the Federal Government will provide for 
the education, health, and welfare of the Spirit Lake Nation. 
All these areas have been historically under-funded, resulting 
in a lack of capacity, inadequate services, and gaps in the 
system.
    In October 2012, we retroceded the child protection 
services program back to the Bureau of Indian Affairs, but 
nothing has changed, and the problems still remain. We have 
experienced tragic child losses as a result of these failings 
of the trust responsibilities, and we continue to struggle to 
meet the child protection needs of our community.
    Over the past 2 years, our tribe has been highlighted in 
the media due to child protection issues, and has struggled to 
recruit and retail child welfare and social workers, as a 
result.
    I recognize the fact that the tribe was slow to respond to 
scrutiny in the past. However, I have made child protection 
services a priority since being sworn into office as Chairman 
in September of 2013.
    First and foremost, we need social workers and behavioral 
health providers through the Department of Heath and Human 
Services, and a commission corps of the U.S. Public Health 
Service. Short term, this would stabilize our system and 
address the immediate need. Long term, this would give us the 
necessary time to develop a strategy, to recruit and retain the 
necessary professionals.
    Currently, we have only nine licensed foster care homes on 
the reservation, and a 31-child case load for the Spirit Lake 
social services, and an additional 11 children ready to 
transfer from child protection services. The Child Welfare 
League of America recommends 12 cases per social worker. At 
this conservative estimate of 42 children, our current need for 
social workers, case managers, is 3.5 full-time equivalents. We 
are currently funded for two, and both of these positions have 
not been filled.
    Having full-time social workers in Spirit Lake Social 
Services is our first priority. Our next major priority to 
deter child abuse and assure a safe community is a trained and 
adequately staffed law enforcement department. The ratio for 
our area is 2.8 law enforcement officers per 1,000 people. We 
have approximately 5,000 residing on our reservation. We should 
be staffed at 14 officers, but we only have 8 officers assigned 
to our area, with only 2 on every shift. We need more 
adequately trained law enforcement personnel, because the 
presence of a police force has been shown to deter crime.
    Last, we would like to provide an update on the status of 
our efforts to implement recommendations from our court 
assessment. The tribe has secured immediate funding from the 
Office of Tribal Justice to hire a juvenile court attorney, a 
guardian for minor children, and a juvenile court public 
defender to represent families and juveniles in court 
proceedings.
    Also, a review and update of the Spirit Lake court is 
necessary to not only assure child protection, but also the 
prosecution of those involved in substance abuse. The majority 
of child welfare cases and sexual offender cases can be either 
traced back to drug and alcohol use, or the influence of 
intoxicating substances of the offender.
    In Dakota, children are called Wakanheza, which translates 
to sacred being. They are considered sacred, as they are 
recognized as newly coming from the creator. This perspective 
guides us as individuals, tribal leaders, and elected officials 
to do everything within our power to develop legislation that 
fosters their protection and welfare. All of our requests would 
allow the tribe to implement our plans for improvement of the 
child welfare and justice systems, and effectively protect the 
children from harm.
    Thank you again for holding this hearing and granting me 
the opportunity to advocate for the children of the Spirit Lake 
Indian Reservation. I hope this represents an effort by 
Congress to understand the current position of the tribe, and 
support the furtherance of our progress to heal a broken 
system.
    I am calling on Congress to be accountable for concrete 
solutions to our problems. We are not the same reservation that 
we were in 2012. We have a plan. Now we need the means to make 
it happen. I look forward to answering any questions that you 
might have. Mitakuye Owasin, all my relatives. [Speaking native 
language.]

    [The prepared statement of Mr. McDonald follows:]
Prepared Statement of Leander ``Russ'' McDonald, Chairman, Spirit Lake 
                    Tribe, Fort Totten, North Dakota
    I would like to begin by thanking Don Young and distinguished 
members of the House Natural Resources Committee for the opportunity to 
let you know about progress being made to strengthen the Child Welfare 
System (CWS) on the Spirit Lake Indian Reservation. Our children are 
our top priority, and we appreciate your support in making sure they 
have access to the same services, programs, and opportunities to 
succeed as any other American child.
    My name is Leander ``Russ'' McDonald, Chairman of the Spirit Lake 
Tribe (SLT), located in northeastern North Dakota. The Spirit Lake 
Reservation was established by the Treaty of 1867 and currently 
consists of more than 250,000 acres of land. We have just over 7,200 
enrolled members with more than 4,000 of these people residing on the 
Reservation. Spirit Lake Tribe, like many other tribes, has long 
suffered from chronic underfunding of programs and services. Issues of 
poverty and unemployment, loss of land, lack of housing, lack of 
primary and preventive health, and inadequate law enforcement and 
judicial services have led to many intergenerational challenges, such 
as disproportionately high rates of suicide and other child welfare 
needs.
    Many of these challenges have negatively impacted our Reservation 
and children, and are a result of the Federal Government's failure to 
meet its trust responsibility to our Nation. We have experienced tragic 
child losses as a result of the lack of capacity and we continue to 
struggle to meet the child protection needs of our community. Over the 
past 2 years, our tribe has been highlighted in the media due to child 
protection issues and has struggled to recruit and retain child welfare 
and social workers as a result.
    On October 1, 2012, the SLT retroceded a Public Law 93-638 Child 
Protection Services (CPS) program back to the Bureau of Indian Affairs 
(BIA) due to the inability of the tribe to address serious deficiencies 
identified in a detailed corrective action plan issued by the BIA in 
April, 2012. Limited budgets, difficulties retaining qualified 
professionals, and lack of placement options for children in crisis are 
among the factors that have contributed to the issues that we continue 
to face within our community.
    I recognize the fact that the tribe was slow to respond to scrutiny 
in the past; however, I have made CPS a priority since being sworn into 
office as Chairman in September of 2013. From then until the present, a 
tremendous amount of time and effort by Spirit Lake Social Services 
(SLSS) and my office have been dedicated to collaborating with Federal, 
State, county, tribal, and foundation partners (Appendix A: Partners) 
to address immediate needs and take a proactive approach to building 
the necessary infrastructure through strategic planning to keep our 
children safe.
    As Chairman, I have come to realize the complexity of this issue 
and the need for our law enforcement, child protection services, tribal 
court, and tribal social services to communicate and work together to 
create an exemplary system. All of the areas have been historically 
underfunded at approximately 60 percent of need resulting in a lack of 
capacity, inadequate services, system distrust, and gaps in the system. 
We struggle to provide the most basic services, but we have achieved 
milestones in a positive direction. I believe that given the proper 
resources we could build a good system for our Nation.
    I am here today to report to you regarding the planning and 
implementation of a multifaceted approach to addressing these issues. 
This intensive process has resulted in a number of achievements from 
this collaboration, such as a revised Title IV-E transfer protocol, 
establishment of the Spirit Lake Social Services Coalition, and 
completion of several assessments and reports. The assessment results 
from the Administration of Children and Families (ACF) and Office of 
Justice Services (OJS) will also be used in part to help develop a map 
on how children's needs will be addressed when entering the social 
services system. Casey Family Programs has been very supportive by 
being present and providing critical linkages to resources that have 
enhanced the overall collaborative. This work will culminate with a 
meeting being sponsored and facilitated by the Casey Family Programs at 
Spirit Lake on July 7-9, 2014. SLSS is also receiving technical 
assistance from Native American Training Institute for the development 
of a 5-year plan.
                            law enforcement
    A trained and adequately staffed law enforcement department is 
critical as the front lines for the determent of child abuse and safe 
communities. The ratio for our area is 2.8 law enforcement officers per 
1,000 people. We have approximately 5,000 residing on our Reservation; 
therefore, we should be staffed at 14 officers. We have eight officers 
assigned to our area with two officers per shift patrolling this large 
geographical and isolated rural area, even during the high crime days 
of Wednesday and Thursday. Just the presence of an adequate police 
force has been shown to deter crime. Law enforcement officers trained 
in documenting child abuse are also necessary to the larger picture of 
child safety.
       child protection services (cps) and tribal social services
    Currently, we have only 9 licensed foster care homes on the 
reservation and a 31 child caseload for SLSS and an additional 11 
children ready for transfer from CPS. The Child Welfare League of 
America recommends 12 cases per social worker. At this conservative 
estimate of 42, our current need for social workers/case managers is 
3.5 full time equivalents (FTE). We are currently funded for two, and 
both of these positions have not been filled. Funding to increase case 
manager staffing and funding for a full time equivalent (FTE) for a 
foster home recruitment specialist position at $75,000, for salary and 
fringe, would greatly assist in increasing foster homes on the 
Reservation.
    SLSS currently uses hard copy for all files, which has previously 
delayed the placement of children due to the necessary sharing of files 
among agencies. We are in need of an electronic database system that is 
estimated to cost approximately $300,000 to purchase and $12,000 a year 
to maintain and operate. Staff training would also be necessary and is 
estimated to be an additional $10,000. The system and training would 
allow us to more quickly place children in safe environments relieving 
unnecessary delays. Every State relies on some sort of electronic 
database system. This disparity between what is available to States in 
comparison to tribes demonstrates a part of our frustration.
    Last, we ask for immediate assistance to help address urgent 
welfare needs by providing staffing of social workers and other 
behavioral health providers through 6-12 month deployments through the 
Department of Health and Human Services and the Commissioned Corps of 
the U.S. Public Health Service. Short-term, this would stabilize our 
system and address the immediate need. Long-term, this would give us 
the necessary time to develop a strategy to recruit and retain the 
necessary professionals.
    We need a larger building to house all of the child welfare 
services, including child protection. We also need two program 
vehicles, security for our current building, community education, and 
continued training for staff. Negative attention from the press has 
made recruitment of providers and foster care homes especially 
difficult. We need help from a PR team to generate positive media 
coverage in an effort to correct public opinion on the current 
condition of the Reservation. While the community faces many 
challenges, we also have many strengths that should be similarly 
highlighted in the media and would go a long way in helping our 
community recruit and retain providers and promote hope.
                            the tribal court
    Third and possibly most essentially, we are currently implementing 
recommendations from our court assessment that are designed to improve 
and enhance access to our court and representation of those involved in 
court proceedings. The tribal court is the guardian of our sovereignty 
and the way through which the tribe helps parties in dispute, families 
in distress and children in need. All stakeholders rely on the tribal 
court for this solemn responsibility. Recommendations from the 
assessment regarding representation and the development of 
institutional infrastructure are receiving immediate attention. For 
example, the tribe has secured immediate funding from the Office of 
Tribal Justice to hire a juvenile court presenting attorney, a guardian 
ad litem for minor children, and a juvenile court public defender to 
represent families and juveniles in court proceedings.
    The tribe has also secured funding and is in the process of 
securing technical assistance to develop court infrastructure--
including a judicial bench book, attorney desk book and a clerk's 
manual--that will help institutionalize the processes of the court. 
Last, a review and update of the Spirit Lake Law and Order Code is 
necessary to not only ensure child protection, but also the prosecution 
of those involved in substance abuse. The majority of child welfare 
cases and sexual offender cases can be either traced back to drug and/
or alcohol abuse or the influence of intoxicating substances of the 
offender.
    In Dakota, children are called Wakanheza, which translates to 
sacred being. They are considered sacred as they are recognized as 
newly coming from the Creator. This perspective guides us as 
individuals, tribal leaders, and elected officials to do everything 
within our power to develop legislation that fosters their protection 
and welfare. We need support in solving our problems. All of our 
requests would allow the tribe to implement our plans for improvement 
of the child welfare and justice systems and effectively protect the 
children from harm.
    Thank you again for holding this hearing and granting me the 
opportunity to advocate for the children of Spirit Lake Indian 
Reservation. I hope this represents an effort by Congress to understand 
the current position of the tribe and support the furtherance of our 
progress to heal a broken system. I am calling on Congress to be 
accountable for concrete solutions to our problems. The time for 
placing blame on the tribe has passed. We are not the same reservation 
that we were in 2012. We have a plan. Now we need the means to make it 
happen.

    Mitakuye Owasin (All My Relatives).

                          Appendix A: Partners

Federal Partners
Administration of Children and Families (ACF)

Administration on Native Americans (ANA)

Bureau of Indian Affairs (BIA)

Department of Justice (DOJ)

Office of Justice Services (OJS)

National Resource Center for Child Protection Services (NRCCPS)
State Partners
North Dakota Indian Affairs Commission (NDIAC)

North Dakota Department of Human Services (NDDHS)

Benson and Ramsey County Social Services

Area law enforcement

Area schools

Judicial representatives

Health services

Non-Profit and Foundational Partners
Casey Family Programs

Native American Training Institute (NATI)

Center for Native American Youth; and others

                                 ______
                                 

  Questions Submitted for the Record by the Hon. Kevin Cramer to Russ 
   McDonald, Chairman, Spirit Lake Tribe and Melissa Merrick-Brady, 
              Director, Spirit Lake Tribal Social Services
    Question 1. Please provide a list of all Tribal Court child abuse 
charges and convictions on the Spirit Lake Indian Reservation for the 
last 2 years. Please provide redactions as necessary to protect the 
identity of minors.

    Answer. The tribal court administrator explained their database 
only has charges not convictions. There aren't names attached to the 
report. In order for them to provide the number of convictions they 
would have to go through all of the files manually. The database issue 
was addressed in the recent tribal court assessment conducted by the 
Department of Justice and funding will be provided for software 
purchase. At least a month is needed for obtaining the software and 
training. The data will then need to be entered into the system.
    The information below is based on what was readily available upon 
review of hard copy records. This question will require us more time to 
fully answer.

        Child Abuse/Neglect (they aren't separated)
        2011 -- 15
        2012 -- 45
        2013 -- 36
        2014 (Jan-June) -- 19
    Question 2. Patricia Denice White alleges her infant grandson was 
improperly returned to the child's drug dependent mother by the Tribal 
Court without adequate safeguards to protect the child from future 
harm. Please address these allegations, and inform this committee of 
all steps taken to insure the safety of this child.

    Answer. Melissa Merrick-Brady, Director, Spirit Lake Tribal Social 
Services (SLTSS) reports: Denice White called regarding her grandson to 
Tribal Social Services. She shared what had been happening and I 
advised her to file a 960 with Bureau of Indian Affairs (BIA) Child 
Protection Services (CPS), because that is how a child protection 
investigation would begin. I offered to assist with filing a 960, but 
she informed me that she had already done so. I advised her to file for 
custody through Tribal Court and she stated she was hesitant because 
she did not want the mother to be mad at her, which may keep the 
grandson from her. I advised her to go directly to BIA CPS and speak 
with them and to tell them what she knew. I also advised her also to 
file a 960 for every incident and if there were witnesses to have them 
file 960's as well. I told her if she felt this was an urgent situation 
to call the police.
    Chairman McDonald: I met with Judge Cavanaugh regarding Patricia 
Denice White's (paternal grandmother) concerns. According to Judge 
Cavanaugh, the Spirit Lake Tribe Law and Order Code seeks to reunify 
parent(s) with their children. A previous court order on the mother had 
court ordered her to seek assistance for her addiction and parenting 
issues. Documentation was provided to the Court that indicated she was 
participating in treatment and rehabilitation services. Tribal Court 
continues to maintain custody of the child and provided BIA Child 
Protection Services (CPS) with care, control and placement authority. 
CPS placed the child back with the mother with supervision being 
provided by the maternal grandmother and CPS to support reunification. 
CPS continues to provide safety checks on the child, mother, and 
household.

    Question 3. Will Monty J. Stensland continue to serve as your Chief 
Judge, notwithstanding your present knowledge regarding the status of 
his license to practice law in North Dakota and the facts leading to 
his suspended status?

    Answer. Chairman McDonald reported at the Oversight Hearing that 
Tribal Council had went on record to support the hiring of Mr. 
Stensland as Chief Judge; however, when the background check was 
provided back to Tribal Council, this decision was reversed. Mr. 
Stensland was never hired as Chief Judge nor was he offered the 
position.

    Question 4. How many foster care providers does the SLTSS currently 
require?

    Answer. Tribal Social Services: BIA currently has 132 children in 
placement. SLTSS has 32 children in placement and case management. We 
have 9 licensed affidavit homes on the Spirit Lake Nation. Our 
licensing standards limit a home to no more than 4 children per home. 
With this standard alone, Spirit Lake would need at a minimum of 33 
licensed foster homes; therefore, we are in need of an additional 24 
homes. There are qualifiers that can change that number, for example if 
a foster home provider is elderly, the number of children they can 
provide for will decrease. A home may only be able to take one child if 
the child has special needs.

    Question 5. As discussed during the hearing, how many children of 
the Spirit Lake nation are currently unaccounted for?

    Answer. Tribal Social Services: All 101 children from the list 
received have been accounted for by our independent social work 
contractor; however, there are 3 children where direct contact has not 
been able to be obtained as the caregiver has not been available. The 
independent contractor began May 19, 2014 and will continue working 
until all of the children are determined safe. The independent 
contractor holds a masters in social work and is licensed in the State 
of North Dakota. She is a retired Federal employee mental health worker 
with over 30 years of service and experience.

    Question 6. Of those children recently found who are in at-risk 
placements, specifically the ``complicated'' scenario discussed by the 
interim Tribal Social Services Director at the June 24, 2014 hearing, 
is that child now in a protected environment? Please explain.

    Answer. The ``complicated'' scenario discussed briefly is still in 
process as the children are off the reservation and in another 
jurisdiction. A 960 has been filed in the county they reside. The 
social services agency within that county is well aware of the 
situation, but is hesitant to remove them. The mother of the children 
has legal custody and voluntarily placed the children in this home. 
We've contacted the National Indian Child Welfare office for guidance. 
Because the mother abandoned the children, SLTSS is going to file for 
custody of the children in SLT Court. Once custody is obtained, we will 
forward the order to the county in which they reside and take care and 
control of the children.

                                 ______
                                 

    Mr. Cramer. Thank you, Mr. Chairman.
    Judge McDonald, you are recognized for 5 minutes.

  STATEMENT OF JUDGE MOLLY McDONALD, DEVILS LAKE, NORTH DAKOTA

    Judge Molly McDonald. Good afternoon, distinguished Members 
of Congress. My name is Molly McDonald. I sincerely appreciate 
the time and attention you give me today to listen to my 
testimony regarding these important issues on Spirit Lake 
Reservation: child protection and the tribal justice system.
    I am an enrolled member of the Spirit Lake Tribe. I was 
raised on the Spirit Lake Reservation. I graduated from the 
reservation high school in 1987. I enlisted in the U.S. Navy in 
1988, and was honorably discharged in 1992, during Operation 
Desert Storm. I earned my associate degree in criminal justice 
in 1997 from United Tribes Technical College. I went on and 
earned my bachelor's degree in criminal justice at Minot State 
University in 2000, while working full-time at the North Dakota 
State Penitentiary as a corrections officer.
    I was hired in October of 2000 as a U.S. probation and pre-
trial services officer for the District of North Dakota in the 
Devil's Lake office. I was specifically hired to work with my 
home reservation. I worked hard--I worked with this agency for 
almost 10 years, where I gained a vast knowledge of the Federal 
justice system and the investigation process, from the police 
report to a conviction.
    In February of 2010 I was appointed as the Associate 
Juvenile Judge for the Spirit Lake Tribal Court. My appointment 
ended in March of 2012. When I accepted the appointment as 
Associate Juvenile Judge in February 2010, I was already aware 
of incidents of negligence which involved both BIA and law 
enforcement and--excuse me, and Spirit Lake tribal social 
services in Federal cases from my employment with U.S. 
Probation.
    One example of this is our office was supervising a 
juvenile from Spirit Lake, where we were required to do a home 
contact with the juvenile at a minimum of once a month. Every 
home visit, the juvenile was locked inside of his home from the 
outside. We had to visit with the juvenile through the window. 
Because we were mandated reporters, we filed a 960 after each 
visit. The 960 was filed with Ramsey County Social Services and 
Devil's Lake. Ramsey County Social Services sent the 960 on to 
Spirit Lake Tribal Social Services.
    Over and over again the child continued to be locked in the 
home. Our office contacted the director of Spirit Lake Tribal 
Social Services, Director Kevin Dauphinais, and told him of the 
situation. He said he would begin investigating immediately. It 
should be noted the mother of this particular juvenile also 
worked at Spirit Lake Tribal Social Services. The child 
remained locked in the home throughout his supervision. This 
juvenile was released from supervision upon his 18th birthday. 
He later shot and killed his aunt and then himself.
    When I began my appointment, there were issues with BIA law 
enforcement, which included not filing paperwork in a timely 
manner, not filing complaints and/or police reports, not 
showing up for trials, not completing investigations, and other 
problems. The court contacted Elmer Four Dance with the 
Aberdeen Regional Office, along with Marcus Babbit and Mario 
Redlegs, and a meeting was held at the court with these 
individuals, along with the officers from the Fort Totten 
Police Department. This meeting appeared to be successful, with 
all BIA law enforcement present, promising better work from 
their officers. However, problems continued to happen, and the 
court continued to document these issues through emails.
    Upon leaving the court in March of 2012, the issues with 
BIA law enforcement were not resolved. In February 2012, I had 
a meeting with tribal prosecutor, Joe Vetsch. Mr. Vetsch stated 
to me that there had been no improvements with BIA law 
enforcement since the time I had left the court. In fact, at 
that time there were three alleged rapes that occurred within 6 
months that were reported directly to Mr. Vetsch by the victims 
because BIA law enforcement did not complete any reports or 
investigation in the cases.
    All three victims reported the incidents to law 
enforcement. Mr. Vetsch also stated to me that he, himself, 
contacted FBI for assistance on these particular cases. He was 
told by FBI, ``We offered to assist BIA criminal investigator, 
Jeff White, but he told us he had these cases covered, and we 
didn't want to step on anyone's toes.''
    Within the first months of my appointment as Associate 
Juvenile Judge, Spirit Lake Tribal Social Services was 
requesting hearings for the foster care cases. However, when 
the hearings took place, there was no representation from 
Spirit Lake Tribal Social Services for the hearings. I met with 
Spirit Lake Tribal Social Services Director Kevin Dauphinais 
about this, along with other issues. Mr. Dauphinais assured me 
these issues would be taken care of, and it wouldn't happen 
again. The court continued to have the same issues. It got to 
the point where I began dismissing the cases, and Spirit Lake 
Tribal Social Services had to refile all the cases.
    On several occasions families were coming to the court 
stating Spirit Lake Tribal Social Services removed their 
children from their homes, and they wanted to know when the 
hearings were taking place, so they could attend and work to 
get their children back. The court had no documentation of the 
children being removed from the home. In some cases the 
children were out of the home for a year without any 
documentation.
    The court attempted to contact Spirit Lake Tribal Social 
Services about these cases without success. In other cases, the 
court became aware of physical, sexual, and emotionally abused 
children through I.H.S. Clinic, I.H.S. Mental Health, and the 
Suicide Prevention Coalition, along with victim assistance 
where 960s were filed on these cases and no response from 
Spirit Lake Tribal Social Services, as far as the investigation 
process.
    If the proper investigations took place, the court should 
have been involved in the process by completing background 
checks on the children and their guardians. The same names 
continuously came up through time, either through I.H.S. 
Clinic, I.H.S. Mental Health, or the Suicide Prevention 
Coalition. This indicated to me that the 960s filed were not 
being investigated.
    During my 2-year appointment as Associate Juvenile Judge, 
Spirit Lake Tribal Social Services had went through 10 workers 
who were either terminated or resigned. When a new worker was 
hired at Spirit Lake Tribal Social Services, he or she would 
come to the court and request direction on what their duties 
were, because the director did not properly train these 
individuals on how to do their job.
    Before I began my appointment, there was an agreement made 
between the court and Spirit Lake Tribal Social Services. In 
order to receive the State IV-E funding for foster care, the 
State required specific wording in their court orders. The 
court paid for an employee of Spirit Lake Tribal Social 
Services to get the training for the wording in the court 
orders, and Spirit Lake Tribal Social Services would complete 
their own orders.
    After I began at the court, I noticed several delays in the 
orders being completed by Spirit Lake Tribal Social Services. 
Even on crucial cases, the court would not receive an order for 
signature until approximately a month after a hearing. There 
were also many cases that didn't have court orders completed, 
despite requests from the court.
    In 2011/2012, when audits were taking place by BIA and the 
State on Spirit Lake Tribal Social Services, it is suspected 
some of the Spirit Lake Tribal Social Services orders were 
fraudulent, Spirit Lake Tribal Social Services taking a 
signature page from an order that I signed, and manipulating it 
into another order to get into compliance.

    [The prepared statement of Judge McDonald follows:]

    Prepared Statement of Molly McDonald, Devils Lake, North Dakota
    Good morning distinguished Members of Congress. My name is Molly 
McDonald. I sincerely appreciate the time and attention you give me 
today to listen to my testimony regarding these important issues on 
Spirit Lake Reservation; child protection and the tribal justice 
system.
    I am enrolled member of the Spirit Lake Tribe. I was raised on the 
Spirit Lake Reservation. I graduated from the reservation high school 
in 1987. I enlisted in the U.S. Navy in 1988 and I was honorably 
discharged in 1992 during Operation Desert Storm. I earned my associate 
degree in Criminal Justice in 1997 from United Tribes Technical 
College. I went on and earned my bachelor's degree in Criminal Justice 
at Minot State University in 2000 while working full time at the North 
Dakota State Penitentiary as a corrections officer. I was hired in 
October of 2000 as U.S. Probation & Pretrial Services Officer for the 
District of North Dakota in the Devils Lake office. I was specifically 
hired to work with my home reservation. I worked with this agency for 
almost 10 years where I gained a vast knowledge of the Federal justice 
system and the investigation process from the police report to a 
conviction. In February 2010, I was appointed as the Associate/Juvenile 
Judge for the Spirit Lake Tribal Court. My appointment ended in March 
of 2012.
    When I accepted the appointment as Associate/Juvenile Judge in 
February 2010, I was already aware of incidents of negligence which 
involved both BIA Law Enforcement and SLTSS in Federal cases from my 
employment with U.S. Probation. One example of this is our office was 
supervising a juvenile from Spirit Lake. We were required to do a home 
contact with the juvenile at a minimum of once a month. Every home 
visit, the juvenile was locked inside of his home from the outside. We 
had to visit with the juvenile through the window. Because we were 
mandated reporters, we filed a 960 after each visit. The 960 was filed 
with Ramsey County Social Services in Devils Lake. Ramsey County Social 
Services sent the 960 on to Spirit Lake Tribal Social Services. Over 
and over again, the child continued to be locked in the home. Our 
office contacted the director of Spirit Lake Tribal Social Services, 
Kevin Dauphinais, and told him of the situation. He said he would begin 
investigating immediately. It should be noted the mother of this 
particular juvenile also worked at Spirit Lake Tribal Social Services. 
The child remained locked in the home throughout his supervision. This 
juvenile was released from supervision upon his 18th birthday. He later 
shot and killed his aunt and then himself.
    When I began my appointment, there were issues with BIA Law 
Enforcement which included not filing paperwork in a timely manner, not 
filing complaints and/or police reports, not showing up for trials, not 
completing investigations, and other problems. The Court contacted 
Elmer Four Dance with the Aberdeen Regional Office along with Marcus 
Babbit and Mario Redlegs and a meeting was held at the Court with these 
individuals along with officers from the Fort Totten Police Department. 
The meeting appeared to be successful with all BIA Law Enforcement 
present promising better work from their officers. However, problems 
continued to happen and the Court continued to document these issues 
through emails. Upon leaving the Court in March of 2012, the issues 
with BIA Law Enforcement were not resolved. In February 2014, I had a 
meeting with the tribal prosecutor, Joe Vetsch. Mr. Vetsch stated to me 
that there had been no improvements with BIA Law Enforcement since the 
time I had left the Court. In fact, at that time, there were three 
alleged rapes that occurred within 6 months that were reported directly 
to Mr. Vetsch by the victims because BIA Law Enforcement did not 
complete any reports or investigation in the cases. All three victims 
reported the incidents to law enforcement. Mr. Vetsch also stated to me 
that he himself contacted FBI for assistance on these particular cases. 
He was told by FBI ``we offered to assist BIA Criminal Investigator 
Jeff White but he told us he had these cases covered and we didn't want 
to step on anyone's toes.''
    Within the first months of my appointment as Associate/Juvenile 
Judge, SLTSS was requesting hearings for the foster care cases. 
However, when the hearings took place, there was no representation from 
SLTSS for the hearings. I met with Spirit Lake Tribal Social Services 
Director Kevin Dauphinais about this along with other issues. Mr. 
Dauphinais assured me these issues would be taken care of and it 
wouldn't happen again. The Court continued to have the same issues. It 
got to the point where I began dismissing the cases and SLTSS had to 
re-file all the cases. On several occasions families were coming to the 
Court stating SLTSS removed their children from their homes and they 
wanted to know when the hearings were taking place so they could attend 
and work to get their children back. The Court had no documentation on 
the children being removed from the home. In some cases, the children 
were out of the home for a year without any documentation. The Court 
attempted to contact SLTSS about these cases without success. In other 
cases, the Court became aware of physical, sexual and emotional abused 
children through I.H.S. clinic, I.H.S. Mental Health and the Suicide 
Prevention Coalition along with Victim Assistance where 960s were filed 
on these cases and no response from SLTSS as far as investigation 
process. If the proper investigations took place, the Court should have 
been involved in the process by completing background checks on the 
children and/or guardians. The same names continuously came up 
throughout time either through I.H.S. clinic, I.H.S. Mental Health or 
the Suicide Prevention Coalition. This indicated to me that the 960s 
filed were not being investigated. During my 2-year appointment as 
Associate/Juvenile Judge, SLTSS had went through 10 workers who were 
either terminated or resigned. When a new worker was hired at SLTSS, 
he/she would come to the Court and request direction on what their 
duties were because the director did not properly train these 
individuals on how to do their job.
    Before I began my appointment, there was an agreement made between 
the Court and SLTSS. In order to receive the State 4E funding for 
foster care, the State required specific wording in court orders. The 
Court paid for an employee of SLTSS to get the training for the wording 
in the court orders and SLTSS would complete their own orders. After I 
began at the Court, I noticed several delays in the orders being 
completed by SLTSS. Even on crucial cases, the Court would not receive 
the order for signature until approximately a month after a hearing. 
There were also many cases that didn't have court orders completed 
despite requests from the Court. In 2011/2012, when audits were taking 
place by BIA and the State on SLTSS, it is suspected some of the SLTSS 
orders were fraudulent; SLTSS taking a signature page from an order 
that I signed and manipulating it into another order to get in 
compliance.
    I discussed these issues with the prior tribal council and the 
present Chairman along with the present social worker at SLTSS. I've 
been told that I have to stop living in the past. What about the 
children who have reached out for help from their situations? What 
about the 960s that were thrown away? How does the tribe intend to deal 
with this? How many more children have to die before we are willing to 
start dealing with what happened in the past? Our tribe continues to 
say that our children are sacred. So why are we willing to throw away 
their hurt and pain?

                                 ______
                                 

    Mr. Cramer. Judge McDonald, I am going to cut you off at 
this point, because we have allowed you to go over quite some 
time. But there will be plenty of opportunity in the Q&A for 
you to finish your thoughts, I assure you.
    And we do have your entire written testimony submitted, as 
well. So thank you for your testimony. And thank you for your 
service to our country.
    Ms. Fineday, you are recognized. Thank you.

STATEMENT OF ANITA FINEDAY, JD, MPA, MANAGING DIRECTOR, INDIAN 
    CHILD WELFARE PROGRAM, CASEY FAMILY PROGRAMS, SEATTLE, 
                           WASHINGTON

    Ms. Fineday. Good afternoon, Chairman Young. Thank you for 
inviting me to join you today, and the members of the 
subcommittee. I am Anita Fineday, Managing Director of the 
Indian Child Welfare Program at Casey Family Programs, the 
Nation's largest operating foundation focused on safely 
reducing and ultimately preventing the need for foster care by 
building communities of hope. We are headquartered in Seattle, 
Washington. We operate nine field offices throughout the 
Nation, and encourage and engage in partnerships with child 
welfare leaders in all 50 U.S. States, including leaders in 
Indian Country.
    We believe that the goals of our Nation around securing 
well-being for all children should be to keep children safe, to 
prevent abuse and neglect, and decrease the possibility of 
child deaths, and reduce the need for foster care by 
strengthening vulnerable families and their communities. In my 
testimony today I will briefly describe Casey Family Programs' 
strong history in Indian Country, and our work with the Spirit 
Lake Tribe. I will conclude with thoughts on opportunities to 
help support both Spirit Lake and tribes throughout this Nation 
in their efforts to protect their children and strengthen their 
families.
    If you look at my written testimony, you will see the work 
done by Casey Family Programs over our 30-year span of work in 
Indian Country, starting with the provision of direct services 
to children and families, and shifting to services to broader 
strategies involving systems improvement and the demonstration 
and sharing of best practices. The Indian Child Welfare Program 
within Casey focuses on providing technical assistance to 
tribes on a wide variety of topics.
    We share your deep concern over ongoing cases and 
allegations impacting the children and families at Spirit Lake. 
There is nothing that we take more seriously than working to 
ensure that every child and family in this country resides in a 
safe, supportive, familial environment that will foster their 
well-being.
    On April 25 of this year, Casey Family Programs received a 
letter from Spirit Lake's tribal chairman, Mr. McDonald, 
requesting our assistance to address issues in their child 
welfare system. Since that time, Casey has worked with the 
tribe to gather information, create an action plan, and 
initiate collaboration between the tribe, the State, and 
Federal entities.
    After meeting with Spirit Lake representatives in May, the 
agreed-upon goal was to have the tribe reassume control over 
all child welfare cases and matters involving Spirit Lake 
children, and their culture and traditions will be embodied in 
the Spirit Lake child welfare system.
    To address child safety concerns at Spirit Lake, we are 
supporting and participating in a range of activities, 
including consulting with the State of North Dakota to explore 
options for their support in reducing the current backlog of 
investigations and background checks; arranging trainings for 
local BIA workers on intake and safety assessment, as well as 
culturally relevant practice models and safety tools; convening 
a leadership meeting in 2 weeks for principal decisionmakers 
from the tribe, BIA, ACF, and North Dakota, to review plans for 
the improvement of child welfare at Spirit Lake, with the goal 
of a shared vision for the work.
    Since one meeting will not resolve all the issues, 
additional sessions will occur over the next several months. 
Casey Family Programs believes a new model is needed to serve 
all families and children in Indian Country. Since long-term 
foster care does not promote child well-being, the new model 
should include efforts to provide culturally appropriate 
services that allow the child to remain safely with their 
family, necessary infrastructure to support a robust child 
protective services system, including access to professional 
staff and resources, and a continuum of community child welfare 
services nearby.
    In my written testimony I have provided more details on the 
need and vision for this model. Change to this new model will 
require oversight and targeted resources. Federal oversight and 
accountability is needed. There currently is no Federal agency 
responsible for the oversight of the Indian Child Welfare Act 
of 1978, creating challenges in implementation, allowing 
Federal resources to support best practice on safety and child 
well-being. Casey has brought the financial resources to Spirit 
Lake and other tribes to try and fill the gaps and leverage 
current funding, but tribes continue to struggle.
    The majority of tribes who receive child welfare funding 
from title IV-E do so through agreements with States, and 
effectiveness ranges widely. At the same time, it is important 
to highlight that these Federal title IV-E resources only fund 
foster care once a child is removed from their family and home. 
It does not fund prevention services. Tribes and States need a 
new model for financing child welfare that protects the child's 
safety and serves families. It is time to shift Federal 
resources to services and supports that are known to promote 
child well-being.
    Over 20 States are using this authority provided by 
Congress in 2011 to redirect Federal funding in a more 
effective manner to support a broader array of services that 
are targeted to safety and child well-being. Further discussion 
is needed on how every State and every tribe can make such 
strategic investments in better practice.
    However, being honest, this issue is more than just Spirit 
Lake or even Indian Country. Congress realized this when it 
created the Commission to Eliminate Child Abuse and Neglect 
Fatalities. We would encourage this subcommittee to explore how 
to engage with this Commission to be sure that the issues 
within Spirit Lake and Indian Country are an important 
consideration in their work.
    Thank you again for the opportunity to testify, and I would 
be happy to answer any questions.

    [The prepared statement of Ms. Fineday follows:]
 Prepared Statement of Anita Fineday, Managing Director, Indian Child 
      Welfare Program, Casey Family Programs, Seattle, Washington
    Good afternoon Chairman Young, Ranking Member Hanabusa. Thank you 
for inviting me to join you today.
    I am Anita Fineday, Managing Director of Indian Child Welfare at 
Casey Family Programs, the Nation's largest operating foundation 
focused on safely reducing, and ultimately preventing, the need for 
foster care by building communities of hope. Headquartered in Seattle, 
Washington, we operate nine field offices throughout the Nation and 
engage in partnerships with child welfare leaders in all 50 U.S. 
States, including leaders in Indian Country. We believe that the goals 
of our Nation around securing well-being for all children should be to: 
(1) Keep children who have been abused and neglected safe from further 
harm; (2) Prevent abuse and neglect and decrease the possibility of 
child deaths; and (3) Reduce the need for foster care in the first 
place by strengthening vulnerable families and their communities.
    In my testimony today, I'll briefly describe Casey Family Program's 
strong history in Indian Country and the principles that guide how we 
engage with these communities. I'll describe our work with the Spirit 
Lake tribe and conclude with thoughts on opportunities and areas for 
focus to help support both Spirit Lake and tribes throughout this 
Nation in their efforts to protect their children and strengthen their 
families.
      a legacy of investment to benefit children in indian country
    Casey Family Programs has worked deeply in Indian Country for more 
than 30 years. Early on we established partnerships with the Oglala 
Sioux Tribe in South Dakota, the Rosebud Sioux Tribe in South Dakota, 
the Mandan, Hidatsa, & Arikara Nation in North Dakota, the Confederated 
Salish and Kootenai Tribe in Montana, the Tlingit Haida Tribe in Alaska 
and other tribes throughout the country. These partnerships included 
establishing child welfare offices on the Pine Ridge and Rosebud 
Reservations, caring for tribal youth in Montana and providing 
extensive technical assistance in Alaska. These efforts focused largely 
on direct services for youth residing on or near the reservation.
    Efforts were made to integrate the efforts of child welfare, 
juvenile justice, State social services, housing, employment, tribal 
government, and reservation leaders to increase safety and improve 
outcomes for children residing there. This work was founded on the 
following guiding principles:

    <bullet> Children belong with their families and community;
    <bullet> All children deserve to be safe;
    <bullet> All families should be provided the comprehensive supports 
            they need to become self-sufficient and interdependent;
    <bullet> All children and families should have access to their 
            culture and traditions;
    <bullet> Work should focus on preserving and strengthening 
            families;
    <bullet> An emphasis on the importance of extended families in 
            tribal communities to keep children safe and families 
            strong;
    <bullet> Every family should have a home with all basic amenities 
            such as running water, heat, electricity and adequate food; 
            and
    <bullet> An emphasis on ensuring full respect for the sovereignty 
            of each Tribal Nation.

    Through our work in Indian County, Casey Family Programs provided 
an array of services to children in their care which went above and 
beyond child welfare services. In addition to foster care and respite 
care, these included:

    <bullet> Alternative services to prevent removal from their home 
            and placement in foster care where possible;
    <bullet> Medical services not covered by Indian Health Services 
            (IHS) or the tribe including orthodontia, vision, and 
            substance abuse disorder treatment;
    <bullet> Case planning that involved culturally appropriate 
            approaches and services designed to fit the needs of the 
            family. This planning involved the family, through family 
            group decisionmaking and crisis intervention staffing. 
            Input by the youth occurred where appropriate;
    <bullet> Psychological Services when needed, including mental 
            health assessments, counseling, psychotherapy, intensive 
            care placements, chemical dependency evaluations and 
            treatment; and
    <bullet> Educational Services including tutoring, educational 
            enrichment activities, Ansell-Casey Life Skills 
            Assessments, funds for high school graduation costs, 
            college preparation services, college tuition, and funds to 
            defray costs while in college.

    Our work has always recognized and supported the development and 
capacity building efforts necessary to embed and sustain strong 
practice and services for families. Since the beginning of Casey Family 
Program's partnerships in Indian Country, we have consistently invested 
in staff educational development and training to ensure that children 
received high quality, culturally responsive services. Foster families 
also receive an array of services designed to help them nurture the 
children they care for and help them prepare youth for participation in 
the adult world. We have always made and prioritized efforts to recruit 
American Indian staff to work with Native youth and to recruit American 
Indian families. Tribal members were hired as family developers to 
recruit, license, train and provide on-going support to American Indian 
families. These developers were supported to attain their Bachelors and 
Masters degrees in Social Work and, over time, were exposed to a broad 
and culturally appropriate array of training opportunities.
    As our work has evolved over the years, Casey Family Programs has 
moved away from focusing largely on direct services to broader 
strategies involving systems improvement and the demonstration and 
sharing of best practices. The foundation's work in Indian Country is 
no exception. The work has evolved, however the guiding principles 
remain the same--safely reducing the number of children in foster care, 
reducing disparities, preserving families and communities, and 
improving outcomes for children.
    The Indian Child Welfare Program within Casey focuses on providing 
technical assistance to tribes on a wide variety of topics. Casey 
Family Programs works to provide training to both States and tribes 
regarding the requirements of ICWA. We also work to build collaboration 
and cooperation between tribes and States regarding best practices, 
capacity building and improving well-being outcomes for children, and 
have convened a National Indian Child Welfare Practice Group to draw 
together tribal leaders from across the country. Our foundation also 
convenes judicial roundtables bringing tribal and State court judges 
together to develop partnerships, improve communication and develop 
partnerships between judges to improve the systems.
               casey family programs work at spirit lake
    We join the members of this subcommittee, the Administration, and 
other national partners in expressing concern over ongoing cases and 
allegations impacting the children and families at Spirit Lake. There 
is nothing we take more seriously than working to ensure every child 
and family in this country resides in a safe, supportive familial 
environment that will foster their well-being.
    On April 25 of this year, Casey Family Programs received a letter 
from Spirit Lake's Tribal Chairman Leander R. McDonald requesting our 
assistance to address issues in their child welfare system.
    Since that time, Casey has worked with the tribe to gather 
information, create an action plan, and initiate collaboration between 
the tribe, State, and Federal entities. The overarching vision for our 
work with the Spirit Lake Tribe is to ensure that Spirit Lake children 
are safe in their own homes or in tribally approved foster homes.
    This vision also included ensuring that the tribe would have the 
resources and capacity to effectively reassume control over all child 
welfare cases and matters involving Spirit Lake children, and Spirit 
Lake culture and traditions will be embodied in the Spirit Lake child 
welfare system.
    This vision was developed in conversations with Spirit Lake's 
chairman and director of tribal social services during an initial visit 
by Casey staff to the reservation in May. Because child safety is an 
urgent concern at Spirit Lake, we are initially focusing on the 
completion of all outstanding BIA investigations and background checks. 
Also, clarity is needed among all stakeholders about their roles and 
responsibilities in providing child welfare services to Spirit Lake 
children.
    We are currently consulting with the State of North Dakota to 
explore options for their support in reducing the current backlog of 
investigations and background checks to enhance child safety. Casey 
Family Programs is providing technical assistance in the development of 
a searchable database to support the intake process of cases. We are 
also arranging trainings for local BIA workers on intake and safety 
assessment, as well as culturally relevant practice models and safety 
tools.
    In terms of initiating collaboration between the various 
responsible entities, Casey Family Programs is convening a leadership 
engagement meeting in 2 weeks for principal decisionmakers from the 
tribe, BIA, ACF, and North Dakota to review plans for the improvement 
of child welfare at Spirit Lake. The goal of this meeting is secure a 
commitment to cooperative collaboration on defined goals, and to agree 
on a shared vision for the work.
    Immediately following the leadership meeting, Casey is facilitating 
a working session for representatives from these entities who are 
involved hands-on with child welfare work at Spirit Lake. The working 
session will kick off a multi-part mapping and planning process to 
define the ideal case flow sequence, clarify roles and 
responsibilities, identify root causes of barriers to implementation, 
and create a prioritized list of proposed short-term actions.
    One meeting will not solve all the issues, so additional sessions 
over the next several months will refine the vision, add detail, and 
identify and remove causes of delays or other issues that affect child 
safety and well-being.
    A vital aspect of these mapping and planning processes will be the 
active solicitation of guidance from tribal members on how to improve 
tribal child welfare. This will be accomplished through community 
meetings when information will be shared about progress and challenges. 
Tribal members will be engaged both in implementation of strategic 
plans and in dialog about how cultural values, attitudes, and 
experiences impact the safety and well-being of Spirit Lake children. 
These conversations should address attitudes toward accountability and 
consequences, and practices leading to political stability. It will be 
critical to address historical trauma impacting parenting skills and 
the cycle of abuse.

    Casey will continually provide technical assistance to the tribe:

    <bullet> To sustain the process of continuous improvement over 
            time,
    <bullet> To incorporate community input in creating a comprehensive 
            strategic plan for achieving its vision for the welfare of 
            tribal youth and families,
    <bullet> To increase tribal case management and child welfare 
            related service provision capacity,
    <bullet> To gather and analyze data for enhanced decisionmaking and 
            improved practice,
    <bullet> To access available resources.

    Casey will also facilitate peer-to-peer assistance from other 
tribes and to encourage an exchange of ideas about currently used best 
practices in tribal child welfare.
    Casey's long-term goal is that the tribe will have the full 
capacity to deliver child welfare services through more effective 
recruitment and retention of child welfare workers, increased access to 
funding, and improved policies and procedures.
    a new model for serving children and families in indian country

  1.  Casey Family Programs always promotes safety and child well-
            being. Research and the strong voices of children in care 
            clearly indicate that long-term stays in foster care do not 
            promote child well-being. Therefore, more must be done to 
            provide culturally appropriate services that allow the 
            child to safely remain with their family.

  2.  Developing the necessary infrastructure to support a robust child 
            protective services system is essential to reach these 
            goals. From investigation, to supporting the family, to 
            maintaining an ongoing engagement to promote well-being, 
            Spirit Lake and all tribes need quality professional staff 
            and adequate resources.

  3.  Best practice in child welfare shares the priority and values of 
            Indian Country in keeping children with their families and 
            within their communities. But safety is always paramount 
            and it is often necessary to have a continuum of services 
            to be available nearby to meet this standard of practice.

    Change to this new model will require oversight and targeted 
resources:

    Federal oversight and accountability: Our work in child welfare 
often brings together public and private partners, Federal, State and 
tribal communities and national partners committed to better outcomes 
for families and children. In these discussions, it is apparent the 
ownership and accountability at the Federal level of oversight for 
tribal child welfare is lacking. Various Federal agendas provide a 
range of funding streams in a manner that is not streamlined or well-
coordinated. However, there is no Federal agency responsible for the 
oversight of the Indian Child Welfare Act of 1978, creating challenges 
in implementation. We believe this type of leadership is critical at 
the Federal level, much as the leadership is critical at the tribal 
level.

    Allowing Federal resources to support best practice on safety and 
child well-being: The issue of resources is certainly one to explore 
further. We have brought the financial resources of our foundation to 
Spirit Lake and other tribes throughout this country to try to fill the 
gaps and leverage current funding. But tribes continue to struggle. The 
majority of tribes who receive child welfare funding from Title IV-E do 
so through agreements with States, and effectiveness ranges widely.

    The Fostering Connections to Success and Increasing Adoptions Act 
of 2008 provided tribes, for the first time, with direct access to 
these funds so tribes are no longer required to go through their State. 
However, since 2008, only four tribes have been successful in gaining 
direct access. Even with such access, those tribes have significant 
infrastructure challenges. We are actively working to increase this 
number given the importance of these resources. We are also enhancing 
the partnerships among States and tribes who have agreements to ensure 
they further collaborate toward shared goals.
    At the same time, it is important to highlight that these Federal 
Title IV-E resources only fund foster care once a child is removed from 
their family They do not fund prevention services or support services 
that can safely avoid removal and foster care placement.
    Tribes--and States--need a new model for financing child welfare 
that protects a child's safety and serves families. It is time to shift 
Federal resources to services and supports that are known to promote 
child well-being. In 2011, Congress passed legislation to give States 
and tribes the opportunity to seek a waiver to use Federal foster care 
funding more effectively. Over 20 States are using this authority to 
redirect Federal funding to support a broader array of services that 
are targeted to safety and child well-being. Further discussion is 
needed on how every State and every tribe can make such strategic 
investments in better practice.
    In closing, we thank the subcommittee for its oversight on the 
specific issues of Spirit Lake. However, being honest, this issue is 
more than just Spirit Lake, or even Indian County. Congress realized 
this when it created the Commission to Eliminate Child Abuse and 
Neglect Fatalities. At a different House hearing about the commission, 
Dr. David Sanders, our Casey Family Programs Executive Vice President 
for Systems Improvement and commission chair, acknowledged the 
challenge our country faces on child fatalities. Extrapolating from 
Federal Government statistics, every 24 hours in America, on average 
about four children die as a result of child abuse and neglect, most of 
them before they reach their 5th birthday.
    We would encourage this subcommittee to explore how to engage with 
the commission to be sure the issues within Spirit Lake and Indian 
Country are an important consideration in their work.
    Thank you again for the opportunity to testify and I'd be happy to 
answer any questions.

                                 ______
                                 

  Question Submitted for the Record by the Hon. Kevin Cramer to Anita 
                     Fineday, Casey Family Programs
    Question. What precedent do you feel retaining placement of a child 
with their mother should take? In those instances where a mother is a 
recovering methamphetamine addict, is it better to place the child with 
the mother without supervision rather than placing the child in a 
foster home?

    Answer. As I mentioned in my testimony, Casey Family Programs has 
extensive history working with tribal communities. We believe that the 
goals of the Nation around securing well-being for all children, 
including Native American children, should be about keeping children 
who have been abused and neglected safe from further harm; preventing 
abuse and neglect in the first place; eliminating child deaths; and 
safely reducing the need for foster care by strengthening vulnerable 
families and their communities. My testimony highlights our guiding 
principles on which we center our work.
    Safety is the priority, and there is nothing we take more seriously 
than ensuring a child should be safe.
    Congress, through the passage of the 1997 Adoption and Safe 
Families Act, also requires child welfare policy to promote permanency 
and well-being for children. Research and practice tells us promoting 
safety, permanency and well-being together requires a case-by-case 
approach. Where to place a child is a complicated question that 
requires a case-by-case decisionmaking with a clear focus on the 
child's safety, permanency and well-being. Decisions should be based on 
the facts of the individual case with the child's safety and well-being 
and the mother's parent's status in her/his recovery and the protective 
factors for the specific family. The goal of the child welfare system 
should be to determine if the child can stay in their family safely 
with appropriate services and oversight, whether the child can be 
reunified safely and quickly or if another form of permanency is 
required.
    Federal agencies dealing with substance abuse problems, including 
methamphetamines, have developed protocols on how to evaluate child 
safety and effectively engage on a case-by-case basis. There are 
numerous research studies and guides to support child welfare staff in 
making these complicated decisions including the National Resource 
Center for Child Protective Services, which I have listed below.

Safety Intervention in Methamphetamine Using Families: A Practice Guide 
for Safety Decisions Making and Safety Management in Child Protective 
Services, National Resource Center for Child Protective Services 
(2005). Available at: http://www.nrccps.org/PDF/
FinalMethintropracticeguidemethoct05.pdf.

Discusses a number of issues related methamphetamine use in families 
and strategies for intervention.

Safety Management with Methamphetamine-Using Caregivers, National 
Resource Center for Child Protective Services (2004). Available at: 
http://www.nrccps.org/PDF/Meth_IA_article.pdf.

Discusses identifying and assessing safety threats in the initial 
assessment of families involved in methamphetamine use, including 
criteria for identifying present danger and impending danger, and key 
steps for managing safety threats

Treatment Improvement Protocol (TIP) Series 33: Treatment for Stimulant 
Use Disorders, Rawson (1999). Available at: http://
adaiclearinghouse.org/downloads/TIP-33-Treatment-for-Stimulant-Use-
Disorders-61.pdf.
In SAMSHA/CSAT Treatment Improvement Protocols.

Provides practice guidelines for the treatment of stimulant use 
disorders, including the use of methamphetamines.

    Thank you for the opportunity to respond to this question.

                                 ______
                                 

    Mr. Cramer. With that, the Chair recognizes the Chair for 5 
minutes.
    Mr. Young. I thank the witnesses. Judge and the chief, if 
you had a wand to solve this problem, what would you need, 
Chief?
    Dr. Leander McDonald. Well, I think--Mr. Chairman, I think 
what was included in my testimony is that, first of all, we 
just need front-line workers right now. We have been trying to 
fill these positions for over the years, since--while I have 
been in office, coming in September, and we have had a 
difficult time, as a result of that.
    As a result of that, the workers that we do have are 
overworked, because they have been taking on these duties 
because the personnel aren't there----
    Mr. Young. OK. But now, is it a lack of money, or a lack of 
personnel?
    Dr. Leander McDonald. It is a lack of personnel.
    Mr. Young. Now, there are no tribal members that can do 
this, or have you looked outside the tribal members to do it, 
too?
    Dr. Leander McDonald. It is open. It has been open, sir.
    Mr. Young. And there aren't any people--what is the pay?
    Dr. Leander McDonald. The majority of them are right around 
$20 an hour, $40,000 a year. Social workers, on the other hand, 
though, especially masters in social work, if you look at the 
Federal rates, they are right around $50,000 for masters in 
social work that is licensed.
    Mr. Young. But I am looking for a solution. If you need 
two--ma'am, if you want to comment--you have got two, and you 
need--you don't have--filled that yet. You need three-and-a-
half, right?
    Dr. Leander McDonald. Yes.
    Mr. Young. So how do we get there? Do we----
    Dr. Leander McDonald. Well, I think----
    Mr. Young. We go to Thailand and get a couple people? Or 
what do we do?
    Dr. Leander McDonald. Well, sir, I think what we proposed 
here in regard to the Department of Health and Human Services 
and the Commission would allow us for some emergency workers 
that could staff us up until we can get to that point and 
recruit those professionals.
    Mr. Young. OK. I am trying to help you here. You are on the 
right track, and I compliment you on this.
    If that is the problem, let's figure out how we can be of 
help, so you can get that three-and-a-half, or--I don't know 
how you are going to get half--or four. Because, again, it goes 
back to the children.
    So, Judge, what do you think? I mean your testimony is 
interesting. The lack of activity from the BIA agents 
themselves, the police force, is that correct, was it the legal 
force?
    Judge Molly McDonald. Yes.
    Mr. Young. Now, are they local, or are they outsiders?
    Judge Molly McDonald. The police officers?
    Mr. Young. Yes.
    Judge Molly McDonald. The police officers, I believe, a 
majority of them are from Spirit Lake.
    Mr. Young. Well, that is one of the problems, then, because 
it is hard to arrest your uncle and your aunt and your brother, 
your sister, your father, and your mother.
    Judge Molly McDonald. Yes.
    Mr. Young. So how do we eliminate that?
    Judge Molly McDonald. I think the view that I would like 
this committee to see is that the people on the reservation 
have no trust in the law enforcement system right now. There is 
absolutely no trust because of prior practices that have been 
happening, even before my appointment. This has been going on 
for years.
    Mr. Young. Well, again, I understand that. And, like I say 
up in Alaska----
    Judge Molly McDonald. And my----
    Mr. Young. But I am saying how do you--we had the end up 
eventually--actually, we had a great police chief, because he 
was 66", and nobody would give him any bad problems. But now 
they have a problem there is no trust in the local police, they 
try to bring in the state troopers, they don't like the state 
troopers. So we have the same problem. I am just looking for a 
solution. What would you suggest?
    Judge Molly McDonald. My recommendation--and I have talked 
to the Chairman about this, as well--is accountability. There 
is no accountability in law enforcement, as far as our officers 
on our reservation. We are aware of what they are doing, we are 
aware of the practices that are going on, and nobody is holding 
these people accountable. Nobody is holding these officers 
accountable for their job. They are sworn officers to protect 
our people, and they are not doing it.
    Mr. Young. Now, Chief, do you hire these people?
    Dr. Leander McDonald. No.
    Mr. Young. Who hires them?
    Dr. Leander McDonald [continuing]. These are Federal----
    Judge Molly McDonald. BIA.
    Dr. Leander McDonald [continuing]. Bureau of Indian Affairs 
officers.
    Mr. Young. Well, then why don't we fire them? We didn't ask 
the BIA this, either.
    Judge Molly McDonald. There is no--as far as I know, none 
of these officers have ever been reprimanded for their duties, 
or lack of doing their duties.
    Mr. Young. Well, I am the Chairman, I am going to ask the 
Chairman. I think we ought to fire the whole bunch, move them 
out, get somebody else. If they are not doing their job, what 
are they getting paid for? Maybe reinstate some faith within 
the community.
    Judge Molly McDonald. I agree.
    Mr. Young. I am going to ask both of you--and this is his 
district, but you work with your congressman, and let's see if 
we can't solve this problem. I don't want to have--like I say, 
I get very irritated when it comes to kids. And I am not 
putting the burden on you, Chief, because you are relatively 
new, and you have been there. But we can solve this. You know, 
get somebody in there that can--anybody that starts abusing 
kids, we--well, you got any big, deep holes out there that we 
can put them in, like Joseph had to go into, and leave him 
there a while? We might look for that solution too, you know. 
We will bring them out after a while and find out what is going 
on, though.
    But I want to help Chief, go ahead, and then I have to go.
    Dr. Leander McDonald. Mr. Chairman, the other piece of 
that, too, is that in regard to the lack of staff, lack of 
police officers, I have seen it--I am not disagreeing with any 
of Molly's statements----
    Mr. Young. You better not, she is your sister. Go ahead.
    Dr. Leander McDonald. I know it. But on the other side is 
that--you know, because BIA is ultimately responsible for the 
law enforcement of our reservation. But I think a piece of that 
is that--part of it is that, because of the underfunding, and 
the personnel with--it only recently came up to two police 
officers. It was only one police officer up to about 3 months 
ago. And so we had one person on per shift, and they didn't 
have a whole lot of time off because of the lack of personnel 
there.
    So, I think there is some other piece in regard to possible 
burnout that could be affecting their functionality, I guess, 
within--you know, within their positions. So I just ask that to 
be a consideration in regard to this--in regard to the comments 
that have been made, because I think if we are staffed up to 
the 14 officers that we do need, that I stated, then I think we 
would be in a better position to patrol and keep our lands 
safe.
    Mr. Young. Last thing, Mr. Chairman. Chief, what is your 
main supply of dollars? Is it government aid, or what is it? 
Where is the money coming from for the reservation?
    Dr. Leander McDonald. The majority of the funds that we 
receive are Federal funds that are provided through the trust 
responsibility of the Federal Government.
    We also receive funds from our casino that we have, and 
these are called economic development funds. With those funds 
we have supplemented the social services program with about 
$325,000 this past fiscal year. We have also put about a 
quarter of a million dollars aside for additional tribal law 
enforcement officers to help to have adequate law enforcement 
on our lands.
    You know, so--and then, with the tribal court system, we 
are at about $300,000 down there, too. So we have contributed 
and supplemented these programs with tribal funds.
    Mr. Young. All right, I--again, work with us, and see if we 
can't make sure you aren't back here again with bad publicity, 
and get the job done. And if they are not doing the job, let us 
know. OK?
    Mr. Chairman, I am done.
    Mr. Cramer. Thank you, Chairman Young. With that, I 
recognize the Ranking Member for about 7\1/2\ minutes, I can 
tell.
    [Laughter.]
    Mr. Young. Go ahead.
    Mr. Cardenas. I appreciate it, but Chairman Young can speak 
as long as he wants, I am sure.
    Chairman McDonald, earlier the name Tom Sullivan was 
mentioned. Are you familiar with this individual? Have you 
heard of him? Do you know him in any way?
    Dr. Leander McDonald. Yes, I know Mr. Sullivan.
    Mr. Cardenas. How do you know him?
    Dr. Leander McDonald. Well, I have only met him once. But 
to answer your previous question, has he been out to our 
reservation before, he has.
    Mr. Cardenas. As in 6 months ago, 6 years ago, 60 years 
ago? I mean can you put it in context?
    Dr. Leander McDonald. It is about 6 years ago, sir. There 
was a FEMA meeting that was held that I actually helped out at, 
and he was there for that FEMA meeting, along with a lot of 
other officials from regional and national office that came out 
and responded to then-Chairman Pearson's request for that 
assistance, or Chairperson Pearson.
    So, yes, he has been out there. But then on the other piece 
of that is--with Tom, we have had these reports out there, and 
I have seen him, but he has never sent them directly to the 
Office of the Chairman, from what I can see. I have never 
received them directly. In fact, Molly is the one who has been 
giving them to me.
    But I actually got to meet with him at a Health and Human 
Services consultation down in Denver.
    Mr. Cardenas. How long ago?
    Dr. Leander McDonald. Oh, geez, about 4 or 5 months ago.
    Mr. Cardenas. OK.
    Dr. Leander McDonald. And there we----
    Mr. Cardenas. Did you ask him for help? Did you--he seems 
to, at least on paper, claim to be knowledgeable about what has 
been going on on your reservation, et cetera. But is--let me 
just cut to the chase. How helpful has he been when it comes to 
not just saying what he feels has happened, or has been going 
on? Has he been solution-oriented, as far as wanting to roll up 
his sleeves and be part of the solution, as far as you can 
tell?
    Dr. Leander McDonald. Well, sir, there have really been two 
requests for assistance from myself, personally, to him. I 
wrote him a letter asking him to--in his official capacity as a 
regional administer, to come in and investigate these cases 
that he was bringing up within these mandated reports for our 
community. I didn't get----
    Mr. Cardenas. Did you get a response?
    Dr. Leander McDonald. I didn't get a response.
    Mr. Cardenas. OK. So you wrote to him in writing?
    Dr. Leander McDonald. Yes, I did.
    Mr. Cardenas. And you sent him a request in writing?
    Dr. Leander McDonald. Yes.
    Mr. Cardenas. And you are telling this committee that he 
did not respond to you in writing? And, as far as you can tell, 
you have not received any correspondence from him----
    Dr. Leander McDonald. No, I----
    Mr. Cardenas [continuing]. From you sending him that 
request?
    Dr. Leander McDonald. Not an email, not a letter, not a 
response, not a phone call.
    The second----
    Mr. Cardenas. On that note, Mr. Chairman--and then thank 
you, I do appreciate what you are explaining to us. But that 
letter, can you make sure that this committee gets a copy of 
that letter that you--of request to Mr. Tom Sullivan from you, 
the Chairman?
    Dr. Leander McDonald. You bet.
    Mr. Cardenas. Were you the Chairman at the time, when you 
asked him?
    Dr. Leander McDonald. Yes, sir.
    Mr. Cardenas. OK. So if you can get us a copy of that 
letter, I would appreciate it, Mr. Chairman, thank you. OK, 
yes, thank you, go ahead.
    Dr. Leander McDonald. The second time was at this Health 
and Human Services consultation meeting, region 8, in Denver. 
And I got to--we had the--well, we didn't really have lunch, 
but we took the lunch break in order to visit a little bit. And 
because I had seen out there in his letters that he was 
advocating for the tribe, so I specifically asked for the 
meeting. And I guess the region granted it, and I was able to 
sit down with him.
    At that meeting we visited a little bit, and I asked him 
then--because he was cutting down ACF pretty good. But ACF, you 
know, had been the ones that were out there, helping us. And 
so, him having said that, so what I asked him is that--I 
offered him a job, and I asked him to come and work for us. I 
said, ``Come on out, Tom. Come and work for us. I will give you 
a job, you know, to help us to investigate this.'' And he said 
he couldn't do that at that time.
    So, those are the two places where I asked him to help us 
out, and there was no response the first time, and no to the 
second.
    Mr. Cardenas. So basically, you did make an effort, as the 
Chairman on behalf of your tribe, to involve this person, Tom 
Sullivan. So what I gather from you is you weren't--you didn't 
take offense to what he said, you trusted that he was being 
honest and just forthright about what he knew, and therefore, 
you wanted his assistance to try to solve these issues?
    Dr. Leander McDonald. Yes, sir. And what I was seeing is 
that--the question I asked him--because there is a process for 
this, there is a process when we have allegation of this, and 
the process for our community is that when you--there is an 
allegation, and you do a 960 on it, and then there is an 
investigation conducted on the 960. And so, my question to him 
was that, ``Well, here is the process, you are a regional 
administrator. You guys are kind of--try to keep us in check 
over at our level, at the local level, in regard to following 
these processes that are set up.''
    And my question was that, ``Why didn't you file a 960 on 
these stories that you were hearing--because some of them were 
pretty detailed--and so we could make sure that a proper 
investigation was being conducted?'' And he said it was not in 
his jurisdiction.
    And so, I just wondered, because he is region 8. We fall 
within region 8, so I figured it was in his jurisdiction. But, 
in any event, there was nothing filed with the 960s on our 
behalf or our children's behalf.
    Mr. Cardenas. Mr. Chairman, could I take 5 seconds to ask 
Molly McDonald a question?
    Mr. Cramer. Yes.
    Mr. Cardenas. Thank you, Mr. Chairman. A quick question. At 
what time were you a judge over at Spirit Lake? And then, 
second, other than being a tribal member, do you have any other 
official capacity at this time with the tribe?
    Judge Molly McDonald. I was appointed as the Associate 
Juvenile Judge in February of 2010, and my appointment ended in 
March of 2012. And right now I am not working for the tribe.
    Mr. Cardenas. OK. Thank you. Thank you, Mr. Chairman.
    Mr. Cramer. Thank you. And I suspect I will either take 
7\1/2\ minutes, or we will have another round of questions for 
these two witnesses.
    I do want to get to something--do any of you know how many 
prosecutions there have been of child abuse in the last 2 
years, other than the well-known child death situations? Does 
anybody have an answer to that question?
    Ms. Merrick, do you----
    Ms. Merrick-Brady. I don't have the number offhand, but I 
was part of coordinating the CTAS grant application for the 
tribe this spring, and we got numbers from the tribal court. So 
I have tribal court numbers available of the cases that went 
through tribal court. I do not have the Federal----
    Mr. Cramer. The Federal ones. OK. If we could get those at 
some point, that would be great. Thank you.
    Judge McDonald or Chair, you don't know any different? 
Because I want to get to the court situation a little bit, 
because you did speak specifically to it. We have a former 
judge here. You seem to want to fix that part of it. I 
personally think that is one of the major challenges. The 
separation of powers issue, I think, has been a problem in the 
past. I am hoping it is not now.
    So, I want to get to that. I know that, as I understand it, 
Judge Cross was recently resigned. Could somebody--perhaps, Mr. 
Chairman, you could speak to why Judge Cross was recently 
either let go or resigned?
    Dr. Leander McDonald. Judge Cross was terminated from the 
tribe.
    Mr. Cramer. On what grounds? And I don't know, so I am 
sincerely wondering.
    Dr. Leander McDonald. Well, Tribal Council deemed it 
necessary to terminate her. And, myself, I need to say on 
record that I was opposed to that, and that I----
    Mr. Cramer. So you were----
    Dr. Leander McDonald. With the forethought is that there 
needs to be a separation of powers between government and our 
judicial system. And so, whatever those rulings were, they 
should have stood. I mean they--well, they did stand. But the 
termination should have never occurred.
    Mr. Cramer. So was your sense, if I understand, that some 
of the Tribal Council members wanted her removed because they 
disagreed with her rulings? Is that possible, or a fact?
    Dr. Leander McDonald. Well, the way I saw it, that was a 
public pressure.
    Mr. Cramer. OK.
    Dr. Leander McDonald. For them to remove her.
    Mr. Cramer. And the public pressure came from people that 
she had sentenced, or victims, or just the general public?
    Dr. Leander McDonald. I believe they were community members 
who were not satisfied with her rulings.
    Mr. Cramer. All right. Now, did the tribe recently hire a 
new chief judge for your court system?
    Dr. Leander McDonald. There was Chief--Judge Morsett was 
there, and then he resigned.
    Mr. Cramer. OK.
    Dr. Leander McDonald. And so now we are----
    Mr. Cramer. I am asking specifically about a Monty J. 
Stensland. Did you recently hire----
    Dr. Leander McDonald. Yes, the counsel hired Monty.
    Mr. Cramer. Counsel hired Monty Stensland?
    Dr. Leander McDonald. Yes.
    Mr. Cramer. How recently?
    Dr. Leander McDonald. Oh, about a week ago.
    Mr. Cramer. Are you aware that Mr. Stensland is currently 
suspended from practicing law in North Dakota?
    Dr. Leander McDonald. We realized that after the action was 
taken.
    Mr. Cramer. OK.
    Dr. Leander McDonald. And a background check was being 
implemented.
    Mr. Cramer. So the background check hadn't been done prior 
to the offer of the job, and now you have a judge with a 
suspended license. Is there any effort to--did you know what he 
was suspended for?
    Dr. Leander McDonald. I only know that--from what I 
understood was that he was debarred, and he was suspended for--
it sounded like some type of misrepresentation.
    Mr. Cramer. Well, let me just read it to you right off of 
the Supreme Court Web site. His first suspension a few years 
ago was for--a 60-day suspension--and, by the way, it has been 
suspended for--over the course of 7 years now--a 60-day 
suspension for fraudulently signing or having another person, 
at his direction, sign a client's name on a document and filing 
it with the court.
    And then, after that, two instances of fraudulently 
affixing a client's name to a document and filing it with the 
court, failure to properly notify clients of a prior 
suspension, falsely certifying to this court compliance with 
the notification requirements, repeated and flagrant failure to 
communicate with clients, and mishandling and refusing to 
return unearned client funds.
    The Supreme Court stated his behavior ``suggests a pattern 
of dishonesty to the courts and flagrant disregard of his 
clients' welfare.'' I would submit to you probably not going to 
be great public relations when this comes out. And it is your 
court.
    I also want to follow up on something you said, Mr. 
Chairman, toward the end of your prepared remarks. You said 
you--I don't remember if you used the word ``charged'' Congress 
for solutions, or ``challenged'' Congress for solutions, and I 
would agree, I hope that we can work together on some 
solutions. But I also want to remind you that, if sovereignty 
is in fact what we are talking about, and self-reliance is the 
goal, the best solutions are going to come from you, and in 
consultation with your friends at the Casey Foundation and 
others that want to partner with you.
    I want--I am wondering. How many victims does your victims 
advocate program handle in 1 month? And probably Ms. Merrick-
Brady is best able to answer.
    Could you give me a rough idea of how many victims you deal 
with in a month? And maybe that is an unfair way to put it, but 
if you could sort of help me with a general number, a 
caseload----
    Ms. Merrick-Brady. Can you repeat the question? I had 
somebody----
    Mr. Cramer. Sure. How many victims does your victims 
advocate program handle in a month?
    Ms. Merrick-Brady. I--again, I didn't bring my victim 
assistance numbers with me. And I am currently overseeing both 
programs. I want to say--I can give you some of last year's 
numbers----
    Mr. Cramer. Sure.
    Ms. Merrick-Brady [continuing]. Just because we--and it 
is----
    Mr. Cramer. Just general.
    Ms. Merrick-Brady. For the year last year, we had, I 
believe, around--and again, this is from memory, a rough 
estimate--around 168, total, domestic violence, sexual assault 
victims that came through our program.
    Mr. Cramer. All right. Very good. With that, my time has 
expired, but we are going to do another round of questions, so 
I am going to yield to the Ranking Member for another round of 
questions.
    Mr. Cardenas. Thank you very much, Mr. Chairman.
    Ms. Fineday, your organization works to improve foster care 
and child welfare systems across the Nation. Are child deaths a 
problem in and outside of Indian Country, or only in Indian 
Country?
    Ms. Fineday. Thank you, Congressman, for that question. At 
the end of my testimony I referenced a congressional commission 
that has been created, I think, because Congress, as a whole, 
realizes that this is a problem across the country. It is not a 
problem just in Indian Country.
    Mr. Cardenas. And when it comes to a problem that occurs in 
clusters, have you seen that arise outside of Indian Country, 
or only in Indian Country?
    Ms. Fineday. I think, unfortunately, it is a common 
occurrence across many communities.
    Mr. Cardenas. So it appears to be a human side effect, not 
necessarily a tribal issue, specifically?
    Ms. Fineday. I think that is correct, Congressman.
    Mr. Cardenas. OK. Your written testimony includes themes of 
cultural appropriateness and tribal sovereignty. Can you please 
expand on those points and tell us why paying attention to 
these is so important with regard to Indian children?
    Ms. Fineday. Well, I think when we are looking at 
culturally appropriate services, it has been our experience in 
child welfare that in working with tribes, that the services 
are most effective with tribal children when those services are 
culturally appropriate, and children respond more positively 
when it is from their own culture and their own community.
    Mr. Cardenas. OK. So, what you are saying is it affects the 
effectiveness of the actual provider of services, right, if 
they have that cultural sensitivity, or if they can learn a lot 
of those sensitivities quickly, they are more effective.
    Ms. Fineday. That is correct, Congressman.
    Mr. Cardenas. OK. And I have a question to the Chairman, 
Chairman McDonald.
    Are you--what pay range is your tribe able to pay judges 
when they are judges for your courts?
    Dr. Leander McDonald. I think right now the range is from 
$60,000 to $85,000 a year.
    Mr. Cardenas. Are you familiar at all with what judges get 
paid around the corner when they are working for the State, or 
Federal judges in your State or in your region?
    Dr. Leander McDonald. I am familiar with some older 
numbers, and it looks like we are competitive.
    Mr. Cardenas. Oh, really?
    Dr. Leander McDonald. I think so.
    Mr. Cardenas. OK.
    Dr. Leander McDonald. But I am not too sure at the State 
level. I would think----
    Mr. Cardenas. I would be surprised if you are competitive. 
Because in order to be a judge in most jurisdictions, you have 
to have a juris doctorate. You probably needed to have been 
practicing, et cetera, et cetera.
    For example, in California, judges are paid about $180,000 
a year. And the reason why I ask it with a question, I am not 
saying that judges are paid that amount in your State, I am 
just saying that when you look at the minimum qualifications 
and the amount of years of experience before somebody gets 
either appointed as judge, or runs for--to be a judge, or what 
have you, it seems as though the requirements and the minimum 
standard of requirement is much different. And I would assume 
much higher.
    It appears that the judges in your court are not required 
to have had to pass the bar or be active. Correct?
    Dr. Leander McDonald. I believe they are required to have 
a----
    Mr. Cardenas. Yes, please shed some light on that, Molly.
    Judge Molly McDonald. Pursuant to our Spirit Lake law and 
order code, there is no requirement for the judge to be law-
trained.
    Mr. Cardenas. OK. And the reason why I ask that question is 
because it is unfortunate that the responsibilities that the 
tribes take on for themselves sometimes don't come with 
equivalent funding opportunities, they don't come with the 
opportunity to actually have equivalence thereof.
    And so, when people outside of Indian Country find out, or 
what have you, they--in my opinion, too many Americans actually 
think that it is wrong. But, wait a minute, it is not about 
being right or wrong, it is about having to deal with your 
responsibilities with the resources you may or may not even 
have to deal with them. And then many Americans take it for 
granted that when somebody is a judge down the road in some 
county somewhere, that they actually have a certain standard, 
and assume that standard. Well, that standard is actually able 
to be adhered to, because they have been given the resources to 
go ahead and hire people with those qualifications.
    But yet in Indian Country it seems as though many times 
tribes are being criticized because they don't have people of 
certain degree--certain formal degrees, excuse me, and people 
with certain--like, having passed the bar, et cetera. Most 
Americans take that for granted, but what they don't realize is 
many tribes--many sovereign nations don't have the wherewithal 
to actually attract those individuals, or even keep that bar at 
that level.
    So, it is unfortunate. I am not saying that one can't be a 
good person and do a good job. All I am saying is that many 
Americans judge people or what is going on in Indian Country 
unfairly because they don't understand that they are not--their 
jurisdiction and their requirements and their abilities are 
way, way different.
    So thank you very much for shedding light, Molly, and also 
Chairman. Thank you.
    Dr. Leander McDonald. May I add something?
    Mr. Cramer. Please feel free.
    Dr. Leander McDonald. Mr. Chair?
    Mr. Cramer. Yes.
    Dr. Leander McDonald. I am going to--I am in agreement with 
all that you said. And I think a lot of the issues that we are 
having is that we talk a little bit about sovereignty, and the 
inherent right of tribes as sovereign nations. It is recognized 
within our Constitution. And so, we have the rights here as 
being for a nation here within these lands.
    And with that right, and for the cessation of lands that we 
gave up, we were provided--we were to be provided these things 
that are based in our treaties, that are based on contracts 
with the U.S. Government. And it doesn't say within the 
treaties that we were going to provide these to you 
inadequately. It doesn't say that. It says, ``We are going to 
provide these things to you.''
    And in my opinion, and when I read this, and when our 
forefathers, our ancestors signed on those treaties, I think 
that is how they understood it, because they wanted the--the 
Federal Government, they were taking them at their word to 
provide these things to us for the cessation of millions of 
acres of land. And so I continue to believe that.
    And in regard to sovereign status, I think we are moving in 
the right direction. I think there were things that were not 
happening within our community that needed to happen. And, as a 
result of that, based on our constitution, changes were made by 
our people within our community, and they continue to be made.
    And so--but things like Molly was sharing, these things--
and I think what we heard throughout the testimony here today 
is that these things have been going on for quite some time. 
And so--but we are responsible now. It is our watch now. It is 
our responsibility to do this.
    So, I thank the committee here for allowing us to share 
these perspectives today. Thank you.
    Mr. Cramer. Thank you. Could somebody on the panel tell me 
how many foster homes there are on the reservation? Do you 
know? Qualified foster homes?
    Ms. Merrick-Brady. There are currently nine licensed homes 
on the reservation.
    Mr. Cramer. And how many would you need to provide the 
appropriate safe haven for children in distress, in danger?
    Ms. Merrick-Brady. Well, right now we have--we don't 
exclusively use just the tribally licensed homes. We have them 
placed also throughout the State because of the number of, 
like, say, sibling groups or family size of the kids that are 
being placed.
    I guess I was appointed on March 3, and I am coming up on 
my second 60-day appointment for this. And so I guess that was 
never a question that anybody really asked was how many do we 
need. We just know we need some. And, in fact, one of the 
efforts that we are doing is--this evening, because I am here, 
I am missing our event--is we are hosting a foster parent 
appreciation/recruitment dinner for these purposes. Our current 
foster homes are--you know, it is like a--them plus one, you 
know, potential foster parents. And then we are also using it 
as a recognition and appreciation, because we only have a 
little bit, and so we do appreciate their efforts. And they 
know the needs, and so we are also utilizing it as a venue for 
their site visits.
    And also one of the, I guess, good PR efforts is we are 
also using it--we are hiring a photographer, because some of 
these children probably have never taken family portraits, 
family pictures together, including their siblings, the sibling 
groups. You know, we really are--progress is being made.
    Mr. Cramer. What are the standards for becoming a foster 
parent? You know, Senator Hoeven and I each have legislation in 
our respective communities. And we are not here to necessarily 
talk specifically about it, but we want to have some sort of 
minimum standard. And you may very well meet that standard. It 
is basically regarding background checks for all adults in the 
foster home. Is that something that is currently done for these 
nine licensed----
    Ms. Merrick-Brady. We currently follow the State's 
practices. Just because of all the scrutiny, we moved toward 
following the background checks. They have to get 
fingerprinted, and it is every adult over the age of 18 that 
resides in the home that has to pass the background check. We 
have site visits. We have--I believe it is three, and one of 
them is unannounced. You know, there is a process. It is 
timely, but we want it to be thorough.
    Mr. Cramer. Having been through it myself to be a licensed 
foster home, I can tell you it is--the scrutiny is almost 
uncomfortable, but it is very important, and we are happy to 
have gone through it.
    I want to get to a couple of specific cases, or at least 
one. First of all, several of us--and I think you, Mr. 
Chairman, included--have received a list of 136 children 
believed to be at risk from former social service worker Betty 
Jo Krenz. You are familiar with that list?
    Dr. Leander McDonald. Yes. But the list I received, I think 
it was around 100.
    Mr. Cramer. OK. And I don't know exactly, I was sort of 
guessing, myself. But it is somewhere around 100 or more.
    Do you know--have you followed up, or has somebody followed 
up on that report?
    Dr. Leander McDonald. Well, just--we hired on--her name 
is--well, she is Sister, but Joanne Strifle.
    Mr. Cramer. OK, sure.
    Dr. Leander McDonald. She is a retired masters social work 
trained, I.H.S. mental health professional.
    Mr. Cramer. Sure.
    Dr. Leander McDonald. And she was residing in our 
community, and she had great interest in this area. And so we 
have asked her to come out of retirement to help us investigate 
these cases.
    Mr. Cramer. Has she found most of them, or all of them, or 
any number of them, and have any of them found to be at risk? 
Do you know?
    OK, Ms. Brady?
    Ms. Merrick-Brady. She is still currently employed, and 
still actively pursuing and finding out how many children are 
safe. Within the first week we have identified 66 of them as 
being safe, as, you know, they are either in placement, they 
have aged out, they have been adopted. And that was within the 
first week.
    She is working hand in hand with our ICWA manager, Chuck, 
and he is also a licensed social worker. She is being greeted, 
I guess, and BIA is being cooperative with her. Also the courts 
are being cooperative with her. Everybody is focused on the 
safety of identifying----
    Mr. Cramer. Has she found any to be in an unsafe situation?
    Ms. Merrick-Brady. There have been a couple of incidents.
    Mr. Cramer. And----
    Ms. Merrick-Brady. And those were reported. She sat down 
with one of our staff members, and we did formally report.
    Mr. Cramer. Did they--were they removed, then?
    Ms. Merrick-Brady. They were just--it was recent. Like real 
recent. Like last week.
    Mr. Cramer. So they have been removed from the home?
    Ms. Merrick-Brady. Well, one of them is complicated. One of 
them is really complicated. So we have contacted a national 
office, because we feel like they should be removed. We don't 
have--and they are not in our jurisdiction. That is the one 
that is complicated, that is the one where we have asked for 
help and, I guess, technical assistance on how best to have 
those children removed from that home.
    Mr. Cramer. OK. That causes some concern for me, to be 
honest. I don't know what level the danger is. I hope you do, 
if it is too complicated to take immediate action.
    Are you familiar with a case where a BIA officer assaulted 
his wife? She came to--I don't know if it was Social Services 
or the tribe for help. Her husband was, of course, being a 
tribal officer, either heard of, or it was reported to him that 
she reported him, and resulted in an even more severe beating. 
Are either of you familiar with this case, or--Judge McDonald?
    Judge Molly McDonald. I am familiar with what you are 
talking about. There are two separate issues to this.
    Mr. Cramer. OK.
    Judge Molly McDonald. One was a human resource issue, and 
one was an advocacy issue. I addressed it with human resources, 
I followed the process. And one of the first things that--when 
Chairman McDonald was sworn in, came into office, I briefed him 
on the whole situation. Because of confidentiality and the VAWA 
provisions, I can't release any of that information publicly to 
some of the people who thought maybe I had done something 
wrong.
    Mr. Cramer. OK.
    Judge Molly McDonald. But I was--the whole--there was an 
investigation because the public didn't know all of the 
provisions and there was--the H.R. piece was a little bit more 
public. And that is where a lot of the things were out in the 
public, went wrong. And so I briefed him on everything, and I 
was--I did my job.
    Mr. Cramer. OK. So I guess now I am a little more concerned 
than I was before I asked at the beginning of the question.
    So this officer, wife abuser, learned of her reporting it 
through some----
    Judge Molly McDonald. Through her own doing.
    Mr. Cramer. She went and told him that she squealed on him, 
or--is that what you are saying?
    Judge Molly McDonald. I don't know if I can get--I can't--
--
    Mr. Cramer. No, I understand. All right. Well, we can talk 
about----
    Judge Molly McDonald. I can't----
    Mr. Cramer. Yes, I understand, I understand. We can talk 
about it offline, if that is what is necessary.
    You know, I want to wrap this up, and I know the Ranking 
Member has some comments, as well. But one of the things that I 
think we have all admitted--and I have said it many times--
there is a clumsiness. We had a hearing last week in this 
committee, or on the Natural Resources--on the Energy Committee 
on sovereignty issues, where I have introduced a bill to try 
and further codify sovereignty with regard to handling of 
minerals on tribal lands.
    And what we find is that you have got bureaucracy, and then 
you have bureaucracy. And when you have two bureaucracies you 
have a worse situation than one plus one. It gets very clumsy. 
And I think we are struggling with that, to say the least.
    That said--and I think it needs to be clear that, yes, our 
Constitution recognizes and acknowledges the sovereignty of 
tribes, and Congress is the trustee. There is a trustee 
relationship here, that Congress is the trustee, that BIA is 
our agent in carrying that out, but Congress itself is the 
trustee. And I suspect that the reason for that is that--and 
maybe Chairman McDonald hasn't heard me say this; his 
predecessor, and every other chairman in North Dakota has--that 
when there is an issue of danger, especially--and I agree with 
the Chairman on this--especially with regard to children, very 
little else matters, but the safety of that child, quite 
honestly.
    In fact, nothing else matters, besides the safety of that 
child, because that child is my constituent, like that child is 
your constituent. And that child's family and the community is 
asking for help. And, as the trustee of this relationship, 
there are some things we can do, and there are some things we 
can't do. And so we--whatever we do, we need to do it in 
concert, and do it together.
    So, you are sure you don't have another round of questions 
you want to--because I don't want to lose the moment?
    Well, we haven't been called to vote yet, that is why I 
am--I don't want to lose the moment, because these folks have 
to go. But why don't--do you have some--OK, I am going to 
recognize the Ranking Member for a few more questions, as well, 
just because you all took the time and expense, and you are a 
long ways from home, and you are here, and I don't want to miss 
the opportunity.
    Mr. Cardenas. Thank you, Mr. Chairman. And once again, in 
case you run out of time, I want to say thank you to all of the 
panelists who came. I really do appreciate your expertise and 
your knowledge that you are helping to educate us, this 
Committee of Congress. And I also want to say that, of the 
people who have testified today, I don't get any feeling that 
people who came forward to be part of the testimony today are 
in any way doing it--are in any way hindering wanting to do the 
right thing, or allowing others to do the right thing. So thank 
you very much.
    Now, this question is for Ms. McDonald. How does the 
tribe's judiciary system impact the child welfare system? And 
what can Congress do to improve judicial independence?
    Judge Molly McDonald. I still stand with accountability. 
Law enforcement, our social services, our tribal court, the 
decisions made by our tribal court are going to affect a child, 
especially in a social services case, for the rest of their 
lives. And the tribal court needs to take that seriously.
    What I have been observing since I left the court, I just 
believe that they need--they all need to work together. And I 
just don't see that happening. Instead I am seeing the blame 
game. It is the tribal court's fault, it is BIA Social 
Services' fault, it is the Tribal Social Services' fault, it is 
the Tribal Council's fault.
    Mr. Cardenas. Is any of what you just said to us right now, 
is any of that element of lack of attention in the proper ways 
have to do with the lack of providers, or the services that are 
afforded the tribe?
    Judge Molly McDonald. [No response.]
    Mr. Cardenas. In other words, is it 100 percent lack of 
will, or is it a combination of some people not having the 
will, yet at the same time those who do have the will don't 
have the resources to address it properly?
    Judge Molly McDonald. If you want the honest truth, with 
the Chairman sitting here, I believe a lot of these things that 
are happening on the tribal level is because the workers--the 
employees of the tribe are all afraid of getting fired. They 
are going to do whatever the Council tells them to do. So there 
is that distrust now in those tribal programs from people in 
the community. The same at the BIA law enforcement level.
    Mr. Cardenas. Thank you.
    On that note, Mr. Chairman, do you agree that more should 
be done? And, if so, what are the elements that are holding the 
tribe back from being able to make more progress faster when it 
comes to making sure that the children get justice, and 
families?
    Dr. Leander McDonald. Well, I would like to refer back to 
the testimony provided by Ms. Chang in regard to the result--
one of the results they found within their report was that 
there was a lack of communication going on. And I think that is 
one of the main issues that we have to resolve, and to take 
away these silos and come together in regard to addressing this 
issue.
    And you know, I think the thing to do, too, is--to respond 
to Molly's comments a little bit is that we have been doing our 
best to try to create a system where you don't have to be 
afraid of losing your job, but you can come forth and 
contribute to what is available out there. And I think we are 
moving forward on that. We have EPA assisting us in reviewing 
of our policies and procedures manual within the next couple 
weeks, and they will be out there to help do that. The 
directors have been invited to provide some input on that. And 
I think, as that strengthens, that part becomes strengthened, 
that part will be addressed.
    And we are--I think the thing is that, historically, we 
have been operating as--tribes have kind of really control of 
what was happening in their environments. And I think we have 
to continue to move in a positive direction, but bring forth 
the expertise that we do have. And if we don't have that 
expertise, bring it in from the outside in order to help us 
build that capacity that we can build a stronger system in 
whatever area it is.
    And for here, for what we are talking about today is child 
protection services. And these four areas that we have been 
talking about today are so important that they come together. 
And I think we are moving in that right direction. And that is 
why the Casey meeting is so important here on July 7-9, in 
order to bring all this together and give us an actual map, a 
visual, but also the documentation to support that on how we 
are going to address this issue for our children.
    So I think the work is coming together. I think that there 
has been good progress in that. And I think--but that is only a 
piece of that. We are not there yet. That is--I think half the 
work has been planning. And now we need to move forward. But we 
need the resources in order to do that, sir.
    Mr. Cardenas. Thank you, Mr. Chairman. And one more 
comment, if I may, Chairman of the Committee.
    I think it is important for you to understand, Chairman--
and please take this back to your colleagues at every level. 
Especially from you, the Chairman, please do not stop asking 
the Federal Government for help and resources. I know you 
probably feel as though you are frustrated and you don't know 
if anybody is listening.
    But one piece of advice that I have learned, both as a 
business owner, and as a 18-year full-time elected official, 
every time you make those requests, if it is verbally, follow 
it up in writing. Document every single request. Do not allow 
yourself to get frustrated and think that nobody is listening. 
Maybe almost nobody is listening, but please, please do not 
stop making those requests, and make those requests in writing. 
And any time you can be specific, continue to double down on 
that communication.
    I know it is not easy. I am sure you are working your tail 
off. I am sure that, you know, there is probably not enough 
time in the day to address all the things you need to address. 
But when it comes to getting the Federal Government to 
recognize their responsibility, as you described your 
forefathers actually understood that the Federal Government 
would do, I believe that it is woefully inadequate in what is 
being provided. Yet, at the same time, please continue to 
document those requests.
    Thank you, Mr. Chairman.
    Mr. Cramer. Thank you. I am going to take 5 minutes myself, 
now, and follow up and wrap up. I want to go fairly quickly.
    One of the issues, Mr. Chairman, you raised in your 
testimony, especially your written testimony, you elaborate a 
bit on the need for good public relations. I don't think there 
is any question that the public relations has been bad. The 
news has been bad because the situation has been bad. And so, 
how do we get better news out there? Hopefully this is part of 
it. You know, coming together, providing some hope, a road map, 
the help of the Casey Foundation.
    And Judge McDonald talked about accountability. You know, 
since you have been Chairman--remind me. The incident that I 
referred to earlier with the TV reporter that was assaulted, 
they were there covering a fire or something, and--or something 
else, and they saw it, and they had the camera out, and we read 
all about it. I don't know all the facts of it, but--did that 
happen after you became Chairman? I am not accusing you of 
doing it. I am just wondering--I am trying to get a sense of 
the timeline. And what do you think of that situation?
    And second, the reporter that--I read a report, and I don't 
remember where it was now--I think it might have even been the 
same reporter recently was rebuked, according to this report, 
by you for reporting on the most recent child death, which I 
think was in April.
    Maybe just respond to that in general, and then let's talk 
about how we can help create accountability through 
transparency. Is that fair?
    Dr. Leander McDonald. Yes. On the--Mr. Chairman, in regard 
to the incident that occurred when--his name is Adam Ladwick.
    Mr. Cramer. That is right----
    Dr. Leander McDonald. The reporter for our area. And, from 
what I understand, he was next to private property, and he was 
viewing--or shooting the burning down of a building. And the 
family whose building was burning down didn't like him filming 
that. And so then, therefore, they told him to get off of 
private land, which he wasn't, because he was on public. And 
the road is considered public.
    Mr. Cramer. Sure.
    Dr. Leander McDonald. And so--and they pretty much--from 
what I could see on a video footage from the newscast itself, 
is that he was--I don't know if he was assaulted, but they did 
break his camera.
    And so, I think he had the opportunity, if he wanted to, to 
press charges. But I don't know if he did or not. So--on that 
part of it.
    On the other one, in regard to him coming to a public 
meeting, and the child was not yet buried, and the child had 
passed away. And I had seen a news piece that he had aired the 
night before, and what he said in regard to the loss of this 
child--I think the child was 7, 8 months old--is that this was 
a suspicious death. And when it came down to it, and so the 
next morning he came to this meeting, a public meeting that we 
had.
    And I asked him about it, and I said, ``What are you doing, 
calling that a suspicious death?'' I said, ``You don't know the 
facts. We don't know. The autopsy report hasn't come back yet. 
We don't know what happened here, and you are out there saying 
this.'' And culturally--I told him, I said, ``Culturally, you 
are wrong. Culturally, we don't--we are not talking about--this 
family is in mourning right now. Let them mourn. And here you 
are putting this on TV and you are calling this suspicious. Now 
you are--they're not only in mourning, but you are saying they 
might be responsible for the death of their child?''
    Mr. Cramer. Do we know any more about that----
    Dr. Leander McDonald. Well, several days later we found out 
it was a SIDS death when the report came out.
    You know, so I think he needed to catch hell. And I am not 
sorry that I gave it to him publicly. And so--and I am still--I 
still get along with him, we still do that, but he had to leave 
that meeting.
    Mr. Cramer. He does a lot of good stories, is my 
understanding, for----
    Dr. Leander McDonald. Well, he needs to come out and do 
some more good stories on us. Because when we make those 
requests, he is not coming out to the positive things that are 
happening within our community, and that is what we are saying.
    Mr. Cramer. Thank you. In the little time we have 
remaining, I want to ask about the accusations of lost 
documentation and even shredded documents. Do you know 
anything--and that is about as much as I know about it. So I am 
sincerely asking. Do any of you know anything about these 
allegations, and what the status of any of that might be?
    Dr. Leander McDonald. We have heard rumors.
    Mr. Cramer. OK.
    Dr. Leander McDonald. We have heard rumors, but we--as far 
as I know, we haven't anything solid to support that. And I 
don't know if any of--Molly or Melissa might have more 
knowledge, but what I have heard are rumors.
    Mr. Cramer. OK. Judge McDonald, do you know anything about 
that?
    Judge Molly McDonald. Yes. In the beginning of December of 
2011, two social workers had been recently hired--I would say 
within a week. They had came into my office, and it was before 
hearings. Social workers' names are Jackie Bavaro and Sandy 
Ladacer. I asked them casually how it was going at Social 
Services, because they had only been there a week. They both 
told me that, for the first week at work, they had been 
spending from 8:00 a.m. until 10:00 p.m. at night shredding 
documents, based on the direction from Kevin Dauphinais, the 
Social Services director.
    Mr. Cramer. All right. With that, my time has expired, and 
we really have gone a long time. We have been very lenient, as 
you know, so our Chairman is--prefers to dig in, as opposed to 
keep a tight schedule. I appreciate that, especially in this 
particular circumstance. You have all been very forthcoming, I 
appreciate that. I very much appreciate my friend, Mr. 
Cardenas, who is a man with a very good heart, I can assure 
you. And I appreciate him very much, and I appreciate all of 
you being here, as well.
    And I want to thank all of the witnesses for their valuable 
testimony and patience this afternoon, and the members and 
staff, as well, for their participation and preparation.
    Members of the subcommittee may have additional questions. 
As we mentioned earlier, they will have 10 days. And we would 
ask you to respond to those in writing if they are provided to 
you.
    And then, if there is no further business to come before 
the subcommittee, without objection the subcommittee stands 
adjourned.

    [Whereupon, at 4:58 p.m., the subcommittee was adjourned.]

             [ADDITIONAL MATERIAL SUBMITTED FOR THE RECORD]

[LIST OF DOCUMENTS SUBMITTED FOR THE RECORD RETAINED IN THE COMMITTEE'S 
                            OFFICIAL FILES]

Correspondence between Thomas F. Sullivan, Regional 
Administrator, ACF, Denver and Chairman McDonald, June 25, 2014

Correspondence between Thomas F. Sullivan, Regional 
Administrator, ACF, Denver and Ms. McMullen, July 1, 2014

Letter to Congressman Kevin Cramer from Bonita Morin, Tribal 
Elder, Spirit Lake Tribe, June 28, 2014

``Mandated Reports Concerning Suspected Child Abuse on the 
Spirit Lake Reservation'', by Thomas Sullivan (ACF), Reports I-
XIII

Statement of Elizabeth Sharon Morris, Chairwoman, Christian 
Alliance for Indian Child Welfare (CAICW), with various 
attachments

Statement of First Focus Campaign for Children

Statement of Betty Jo Krenz

Various news articles submitted concerning the topic of ``Child 
Abuse on the Spirit Lake Reservation'' including submissions 
from: ABC News, The Salt Lake Tribune, NY POST

                                 [all]  
</pre></body></html>
